1a
APPENDIX A
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
Nos. 17-3752, 18-1253, 19-1129, 19-1189
COMMONWEALTH OF PENNSYLVANIA;
STATE OF NEW JERSEY
v.
PRESIDENT UNITED STATES OF AMERICA;
SECRETARY UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN SERVICES; UNITED
STATES DEPARTMENT OF HEALTH AND
HUMAN SERVICES; SECRETARY UNITED
STATES DEPARTMENT OF TREASURY; UNITED
STATES DEPARTMENT OF TREASURY;
SECRETARY UNITED STATES DEPARTMENT OF
LABOR; UNITED STATES DEPARTMENT OF
LABOR; UNITED STATES OF AMERICA
Little Sisters of the Poor Saints Peter and Paul Home
(Intervenor in D.C.),
Appellant in 17-3752, 19-1129
President United States of America, Secretary United
States of Department of Health and Human Services,
United States Department of Health and Human
Services, Secretary United States Department of
Treasury, United States Department of Treasury,
Secretary United States Department of Labor, United States Department of Labor,
Appellants in 18-1253,
19-1189 (Except President
United States of America)

2a
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE EASTERN
DISTRICT OF PENNSYLVANIA
(E.D. Pa. No. 2:17-cv-04540)
District Judge: Hon. Wendy Beetlestone
Argued May 21, 2019
Before: McKEE, SHWARTZ, and FUENTES,
Circuit Judges.
(Filed July 12, 2019)
Michael J. Fischer [ARGUED]
Aimee D. Thomson
Office of Attorney General of Pennsylvania
1600 Arch Street, Suite 300
Philadelphia, PA 19103
Glenn J. Moramarco
Office of Attorney General of New Jersey
Department of Law & Public Safety, Division of Law
Richard J. Hughes Justice Complex
25 Market Street, P.O. Box 112
Trenton, NJ 08625
Counsel for Appellees Commonwealth of
Pennsylvania and State of New Jersey
Lowell V. Sturgill, Jr.
United States Department of Justice, Civil Division
950 Pennsylvania Avenue, N.W.,
Room 7241
Washington, DC 20530
Hashim M. Moopan [ARGUED]
United States Department of Justice
Civil Division, Appellate Staff

3a
950 Pennsylvania Avenue, N.W.
Washington, DC 20530
Karen Schoen
United States Department of Justice
Civil Division, Appellate Section
950 Pennsylvania Avenue, N.W. Room 7533
Washington, DC 20530
Counsel for Appellants President United States
of America, Secretary United States Department of Health & Human Services, United
States Department of Health & Human Services, United States Department of Treasury,
Secretary United States Department of Treasury, United States Department of Labor, Secretary United States Department of Labor, and
United States of America
Mark L. Rienzi [ARGUED]
Lori H. Windham
Becket Fund for Religious Liberty
1200 New Hampshire Avenue, N.W.,
Suite 700
Washington, DC 20036
Nicholas M. Centrella
Conrad O’Brien
1500 Market Street West Tower,
Suite 3900 Philadelphia, PA 19102
Counsel for Appellee-Intervenor Little Sisters of
the Poor Saints Peter and Paul Home
Jason R. LaFond
Office of Attorney General of Texas
209 West 14th Street, 7th Floor
Austin, TX 78711

4a
Counsel for Amici Curiae in Support of Appellants States of Texas, Alabama, Arkansas,
Georgia, Idaho, Louisiana, Missouri, Nebraska, Oklahoma, South Carolina, and
West Virginia
Elizabeth N. Dewar
Office of Attorney General of Massachusetts
20th Floor, One Ashburton Place
McCormack Building
Boston, MA 02108
Counsel for Amici Curiae States of
Massachusetts, California, Colorado, Connecticut, Delaware, Hawaii, Illinois, Iowa, Maine,
Maryland, Michigan, Minnesota, Nevada, New
Mexico, New York, North Carolina, Oregon,
Rhode Island, Vermont, Virginia, Washington
and the District of Columbia
Dariely Rodriguez
Lawyers’ Committee for Civil Rights Under Law
1500 K Street, N.W., Suite 900
Washington, DC 20005
Counsel for Amici Curiae Center for Reproductive Rights, Lawyers Committee for Civil
Rights Under Law, California Womens Law
Center, GLBTQ Legal Advocates and Defenders, LatinoJustice PRLDEF, Lawyers for Civil
Rights, Legal Momentum, Legal Voice,
Mississippi Center for Justice, National Center
for Lesbian Rights, and Women’s Law Project
Sara J. Rose
American Civil Liberties Union
313 Atwood Street
Pittsburgh, PA 15213

5a
Counsel for Amici Curiae American Civil Liberties Union, Anti Defamation League, Leadership Conference on Civil and Human Rights,
and National Urban League
Thomas W. Hazlett
Stephen J. Kastenberg
Ballard Spahr
1735 Market Street, 51st Floor
Philadelphia, PA 19103
Counsel for Amici Curiae Public Interest Law
Center of Philadelphia, Washington Lawyers
Committee for Civil Rights and Urban Affairs,
Chicago Lawyers Committee for Civil Rights,
Lawyers Committee for Civil Rights of the San
Francisco Bay Area, and Public Counsel
Jeffrey Blumenfeld
Lowenstein Sandler
2200 Pennsylvania Avenue, N.W., Suite 5
Washington, DC 20037
Counsel for Amici Curiae National Womens
Law Center, National Latina Institute for Reproductive Health, Sisterlove Inc., and National Asian Pacific American Women Forum
Robert Dunn
Gibson Dunn & Crutcher
1881 Page Mill Road
Palo Alto, CA 94304
Counsel for Amicus Curiae Religious Sisters of
Mercy
Miles Coleman
Nelson Mullins Riley & Scarborough
104 South Main Street, Suite 900

6a
Greenville, SC 29601
Counsel for Amici Curiae Ronald J. Colombo,
Richard Epstein, Carl H. Esbeck, David F.
Forte, Richard W. Garnett, Esq., Professor Robert P. George, Mary Ann Glendon, Michael P.
Moreland, Stacy Scaldo, and Michael
Uhlmann
Bruce H. Schneider
Stroock Stroock & Lavan
180 Maiden Lane, 38th Floor
New York, NY 10038
Counsel for Amici Curiae American Nurses Association, American College of Obstetricians
and Gynecologists, American Academy of Nursing, American Academy of Pediatrics, and Physicians for Reproductive Choice and Health
Allan J. Arffa
Melina M. Meneguin-Layerenza
Sierra Robart
Paul Weiss Rifkind Wharton & Garrison
1285 Avenue of the Americas
New York, NY 10019
Counsel for Amici Curiae Planned Parenthood
Federation of America, National Health Law
Program, and National Family Planning &
Reproductive Health Association
Priscilla J. Smith
Yale Law School RRJP Clinic
319 Sterling Place
Brooklyn, NY 11328
Counsel for Amicus Curiae Program for the
Study of Reproductive Justice

7a
Leah Bruno
Dentons US
233 South Wacker Drive, Suite 5900
Chicago, IL 60606
Jeffrey S. Feldman
The Feldman Firm
600 West Germantown Pike, Suite 400
Plymouth Meeting, PA 19462
Counsel for Amici Curiae United States Women’s Chamber of Commerce and National Association for Female Executives
Joshua A. Matz
Kaplan Hecker & Fink
350 Fifth Avenue, Suite 7110
New York, NY 10118
Counsel for Amicus Curiae Church State
Scholars
Rhiannon N. Batchelder
Jamie A. Levitt
Morrison & Foerster 250 West 55th Street
New York, NY 10019
Counsel for Amici Curiae American Association
of University Women and Service Employees
International Union
Richard B. Katskee
Americans United for Separation of Church & State
1310 L Street, N.W., Suite 200
Washington, DC 20005
Counsel for Amicus Curiae Americans United
for Separation of Church and State

8a
___________________________
OPINION OF THE COURT
___________________________
SHWARTZ, Circuit Judge.
The Women’s Health Amendment to the Affordable Care Act (“ACA”) mandated that women’s health
insurance include coverage for preventive health
care. Through the Amendment, Congress directed
the Health Resources and Services Administration
(“HRSA”), a component of the Department of Health
and Human Services (“HHS”), to issue guidelines setting forth the preventive health care services that
women should be provided. Among the services
HRSA identified was contraceptive care. Nowhere in
the enabling statute did Congress grant the agency
the authority to exempt entities from providing insurance coverage for such services nor did Congress
allow federal agencies to issue regulations concerning
this coverage without complying with the Administrative Procedure Act.
Notwithstanding Congress’s directives, in 2017,
HHS and the Departments of Labor and Treasury
(collectively, “the Agencies”) promulgated regulations
that expanded the entities that could invoke an exemption to the requirement that group health insurance plans cover contraceptive services as a form of
women’s preventive health care. Because the state
plaintiffs are likely to succeed in proving that the
Agencies did not follow the APA and that the regulations are not authorized under the ACA or required
by the Religious Freedom Restoration Act (“RFRA”),
we will affirm the District Court’s order preliminarily
enjoining the rules’ enforcement nationwide.

9a
I
A
Enacted as a part of the ACA, Pub. L. No. 111-148,
124 Stat. 119 (2010), the Women’s Health Amendment mandates that “[a] group health plan[] 1and a
health insurance issuer offering group or individual
health insurance coverage shall, at a minimum provide coverage for and shall not impose any cost sharing requirements for . . .preventive care and screenings [for women] . . . as provided for in comprehensive
guidelines supported by the [HRSA].”2 42 U.S.C.
§ 300gg-13(a), (a)(4). HRSA commissioned an expert
panel from the Institute of Medicine to recommend
covered services. In 2011, HRSA adopted the Institute’s recommendations and issued guidelines defining preventive care to include all “Food and Drug
Administration approved contraceptive methods,
sterilization procedures, and patient education and
counseling for all women with reproductive capacity,”
“as prescribed” by a woman’s health care provider.
HRSA, Women’s Preventive Services Guidelines,
https://www.hrsa.gov/womens-guidelines/index.html
(last visited May 8, 2019). This statutory and regula-

Pursuant to 42 U.S.C. § 300bb-8(1), the term “group health
plan” has the meaning set forth in 26 U.S.C. § 5000(b)(1), which
defines a “group health plan” as “a plan (including a self-insured
plan) of, or contributed to by, an employer . . . to provide health
care (directly or otherwise) to the employees.”

1

Congress expressly exempted two sets of actors from various
CA requirements, including the Women’s Health Amendment:
grandfathered health plans, 42 U.S.C. § 18011, and employers
with fewer than 50 employees, 26 U.S.C. § 4980H(c)(2).

2

10a
tory scheme was deemed the “Contraceptive Mandate.” Several regulations and litigation followed.
1
The same day that the Guidelines were issued,
the Agencies promulgated an interim final rule
(“IFR”), followed by a final rule in 2013, to exempt certain religious employers— namely, churches and similar entities—from the Contraceptive Mandate. Group
Health Plans and Health Insurance Issuers Relating
to Coverage of Preventive Services Under the Patient
Protection Affordable Care Act, 77 Fed. Reg. 8,725
(Feb. 15, 2012) (the “Church Exemption”); Group
Health Plans and Health Insurance Issuers Relating
to Coverage of Preventive Services Under the Patient
Protection and Affordable Care Act, 76 Fed. Reg.
46,621 (Aug. 3, 2011).3 As the Agencies later explained, the “exemption for churches and houses of
worship is consistent with their special status under
longstanding tradition in our society and under federal law.” Coverage of Certain Preventive Services
After a notice-and-comment rulemaking process, which included consideration of comments concerning whether coverage may
conflict with the religious beliefs of some employers, Group
Health Plans and Health Insurance Issuers Relating to Coverage of Preventive Services Under the Patient Protection and
Affordable Care Act, 76 Fed. Reg. 46,621, 46,623 (August 3,
2011), the Agencies defined “religious employer[s]” in the
Church Exemption as entities “that [are] organized and operate[] as . . . nonprofit entit[ies] and [are] referred to” as such in
the internal revenue code provision applying to “churches, their
integrated auxiliaries, and conventions or associations of
churches, as well as to the exclusively religious activities of any
religious order,” Coverage of Certain Preventive Services Under
the Affordable Care Act, 78 Fed. Reg. 39,870, 39,871, 39,889
(July 2, 2013); see 45 C.F.R. § 147.132.
3

11a
Under the Affordable Care Act, 80 Fed. Reg. 41,318,
41,325 (July 14, 2015).
The 2013 final rule also separately provided that
a nonprofit religious employer who “(1) [o]pposes
providing coverage for some or all of the contraceptive services required to be covered . . . on account of
religious objections; (2) is organized and operates as a
nonprofit entity; (3) holds itself out as a religious organization; and (4) self-certifies that it satisfies the
first three criteria,” 78 Fed. Reg. at 39,874, is entitled
to an accommodation to avoid “contracting, arranging, paying, or referring for contraceptive coverage,”
id. at 39,875. This accommodation process (the “Accommodation”) permits an employer to send a selfcertification form to its insurance issuer, which then
excludes contraceptive coverage, either in full or in
part, from the group health plan and in turn “provide[s] payments for contraceptive services for plan
participants and beneficiaries, separate from the
group health plan, without the imposition of cost
sharing, premium, fee, or other charge on plan participants or beneficiaries or on the eligible organization
or its plan.” Id. at 39,876. A third party administrator (“TPA”) may also be used as a claims or plan administrator “solely for the purpose of providing payments for contraceptive services for participants and
beneficiaries in a self-insured plan of an eligible organization at no cost to plan participants or beneficiaries or to the eligible organization.” Id. at 39,879.
By invoking the Accommodation, the employer was no
longer responsible for providing coverage for contraceptive care.

12a
2
Various legal challenges followed. First, in Burwell v. Hobby Lobby Stores, Inc., 573 U.S. 682 (2014),
the Supreme Court held that the Accommodation
must be extended to closely-held for-profit corporations with sincere religious objections to the provision
of contraceptive coverage so that their religious beliefs were not substantially burdened under RFRA,
42 U.S.C. § 2000bb-1. Id. at 724-26. The Court observed that use of the Accommodation process was a
less restrictive means to ensure access to cost-free
contraceptives. Id. at 730-31. Days later, in Wheaton
College v. Burwell, 573 U.S. 958 (2014), the Court
concluded that Wheaton College, who also lodged a
religious objection to providing insurance for services
covered by the Contraceptive Mandate, did not have
to use the Accommodation self-certification form,
known as the ESBA Form 700, but could instead rely
on its notification to HHS to satisfy the Accommodation’s prerequisites. Id. at 959.
To ensure compliance with these rulings, the
Agencies promulgated another IFR and final rule.4
Coverage of Certain Preventive Services Under the
Affordable Care Act, 80 Fed. Reg. 41,318 (July 14,
2015). The rule “extend[ed] the [A]ccommodation to a
for-profit entity that is not publicly traded, is majority-owned by a relatively small number of individuals,
and objects to providing contraceptive coverage based
on its owners’ religious beliefs.” Id. at 41,324. The
The final rule implementing Hobby Lobby was preceded by
notice of proposed rulemaking. Coverage of Certain Preventive
Services Under the Affordable Care Act, 79 Fed. Reg. 51,118
(Aug. 27, 2014).
4

13a
rule also “allow[ed] eligible organizations to choose
between using [the] ESBA Form 700 or the alternative process [of notifying HHS in writing of a religious objection to covering contraceptive services]
consistent with the Wheaton interim order.” Id. at
41,323.
In Zubik v. Burwell, 136 S. Ct. 1557 (2016) (per
curiam), the Supreme Court addressed the petitioners’ assertions that “submitting [the Accommodation]
notice substantially burden[ed] the exercise of their
religion, in violation of [RFRA].” Id. at 1559. The
Court did not reach the merits of this claim but
7parties “an opportunity to arrive at an approach going forward that accommodates petitioners’ religious
exercise while at the same time ensuring that women
covered by petitioners’ health plans receive full . . .
contraceptive coverage.” Id. at 1560 (internal quotation marks and citation omitted).
In response to the Court’s direction in Zubik, the
Agencies solicited comments regarding the current
procedure and possible alternatives to the Accommodation. Coverage for Contraceptive Services, 81 Fed.
Reg. 47,741 (July 22, 2016). The Agencies reviewed
the comments and found that “no feasible approach
has been identified at this time that would resolve
the concerns of religious objectors while still ensuring
that the affected women receive full and equal health
coverage, including contraceptive coverage.” Dep’t of
Labor, FAQs About Affordable Care Act Implementation Part 36, at 4 (Jan. 9, 2017), Available at
https://www.dol.gov/sites/default/files/ebsa/aboutebsa/our-activities/resource-center/faqs/aca-part36.pdf. As a result, the Accommodation remained unchanged.

14a
3
In May 2017, President Donald Trump issued an
executive order directing the Agencies to “consider
issuing amended regulations, consistent with applicable law, to address conscience-based objections to
the preventive-care mandate promulgated under [42
U.S.C. § 300gg-13(a)(4)].” Exec. Order No. 13,798 § 3,
82 Fed. Reg. 21,675 (May 9, 2017). In response, and
without issuing a notice of proposed rulemaking or
soliciting public comment, the Agencies issued two
new IFRs: the Religious IFR and the Moral IFR.
These IFRs expanded the existing exemption and Accommodation framework, made the Accommodation
process voluntary, and offered similar protections to
organizations with moral objections to contraceptives.
See Religious Exemptions and Accommodations for
Coverage of Certain Preventive Services Under the
Affordable Care Act, 82 Fed. Reg. 47,792 (Oct. 13,
2017); Moral Exemptions and Accommodations for
Coverage of Certain Preventive Services Under the
Affordable Care Act, 82 Fed. Reg. 47,838 (Oct. 13,
2017). This litigation followed.
B
1
The Commonwealth of Pennsylvania filed suit
against various governmental entities5 and sought to
enjoin the enforcement of the IFRs. Little Sisters of
the Poor Saints Peter and Paul Home (“Little Sis-

These entities include the President, the Agencies and their
Secretaries, and the United States of America (collectively, “the
Government”).
5

15a
ters”) intervened.6 The District Court granted Pennsylvania’s request to preliminarily enjoin the IFRs.
See generally Pennsylvania v. Trump, 281 F. Supp.
3d 553 (E.D. Pa. 2017). The Court held that Pennsylvania was likely to succeed on its procedural and substantive challenges under the APA. Id. at 576, 581.
The Government appealed, and the District Court
granted a stay pending appeal.

Little Sisters, a religious nonprofit operating a home in Pittsburgh, moved to intervene, the District Court denied its motion,
and our Court reversed, concluding, at that time, intervention
was appropriate because the litigation posed a threat to Little
Sisters’ interest in an exemption, and that its interests are not
adequately represented by the Government. See generally Pennsylvania v. President of the United States of Am., 888 F.3d 52
(3d Cir. 2018). Since then, however, the United States District
Court for the District of Colorado permanently enjoined enforcement of the Contraceptive Mandate for benefit plans in
which Little Sisters participates. Pennsylvania v. Trump, 351 F.
Supp. 3d 791, 829 n.27 (E.D. Pa. 2019) (“Defendant-Intervenor
has secured a permanent injunction, preventing enforcement of
the Contraceptive Mandate against it.”); Little Sisters of the
Poor v. Azar, No. 1:13-cv-02611, Dkt. No. 82 at 2-3 (D. Colo. May
29, 2018); Accordingly, Little Sisters is no longer aggrieved by
the District Court’s ruling, its need for relief is moot, and thus
they lack appellate standing. See Ass’n of Banks in Ins. v.
Duryee, 270 F.3d 397, 403 (6th Cir. 2001) (“[T]he intervenordefendants face the threat of economic injury should the Ohio
statutory provisions not be enforced. Such threatened injury is
sufficient to confer appellate standing on the intervenordefendants and allows them to challenge the merits of the district court’s decision.”); cf. In re Grand Jury, 111 F.3d 1066,
1071 (3d Cir. 1997) (“Since both intervenors remain aggrieved
after the district court’s disposition, the constitutional requirements for standing to appeal as well as standing to sue are satisfied.”).

6

16a
While the appeal of the order preliminarily enjoining the IFRs was pending, the Agencies promulgated
two Final Rules, which are virtually identical to the
Religious and Moral IFRs. See Religious Exemptions
and Accommodations for Coverage of Certain Preventive Services Under the Affordable Care Act, 83 Fed.
Reg. 57,536 (Nov. 15, 2018); 45 C.F.R. § 147.132
(“Religious Rule” or “Religious Exemption”); Moral
Exemptions and Accommodations for Coverage of
Certain Preventive Services Under the Affordable
Care Act, 83 Fed. Reg. 57,592 (Nov. 15, 2018); 45
C.F.R. § 147.133 (“Moral Rule” or “Moral Exemption”) (collectively, “the Rules” or “the Exemptions”).
Like the Religious IFR, the Final Rule creating the
Religious Exemption expanded the categories of employers who are permitted to invoke the exemption
from the Contraceptive Mandate to include all nonprofit, for-profit, and publicly-held companies. The
Religious Exemption also made participation in the
Accommodation process completely voluntarily, relieving employers from the need to “file notices or certifications of their exemption.”7 83 Fed. Reg. at
57,558; see also id. at 57,537, 57,562. The Final Rule
creating the Moral Exemption offered the same exemption and voluntary accommodation process to
nonprofit organizations and non-publicly traded organizations “with sincerely held moral convictions
The Agencies assert that under ERISA, employees will at least
receive notice that their plans no longer cover certain contraceptives because, “with respect to plans subject to ERISA, a plan
document must include a comprehensive summary of the benefits covered by the plan,” which will “serve to help provide notice
to participants and beneficiaries” of what services are covered.
83 Fed. Reg. at 57,558. Even if this is true, this would apply only to certain employers.

7

17a
opposed to coverage of some or all contraceptive or
sterilization methods.” Id. at 57,593.
At Pennsylvania’s request, the District Court lifted the stay, and Pennsylvania filed an amended complaint, joined New Jersey as a plaintiff,8 added challenges to the Final Rules and moved to enjoin them.9
The District Court held hearings and received evidence regarding the Rules. Specifically, the States
submitted evidence from health care professionals
and state insurance regulators about the Rules’ impact. The evidence addressed the relationship between costs and contraceptive use and the impact the
Rules would have on state-funded healthcare services.
Cost is a significant barrier to contraceptive use
and access. The most effective forms of contraceptives
are the most expensive. After the ACA removed cost
barriers, women switched to the more effective and
expensive methods of contraception.10 Because the
Pennsylvania and New Jersey are referred to herein collectively as the “the States.”

8

The States’ amended complaint for declaratory and injunctive
relief pleads five counts: (I) violation of Equal Protection of the
laws under the Fifth Amendment; (II) violation of Title VII of
the Civil Rights Act and the Pregnancy Discrimination Act; (III)
violation of the procedural requirements of the APA; (IV) violation of the substantive requirements of the APA; and (V) violation of the Establishment Clause of the First Amendment.

9

10 Before the ACA, women spent between 30 and 40% of their
total out-of-pocket health costs on contraceptives, and 55% of
women experienced a time where they could not afford contraceptives. Amicus Curiae Women’s Law Ctr. Br. at 15-17; id. at
17 (describing that the ACA dropped out-of-pocket contraceptive
expenditures by 70%).

18a
Rules allow employers to opt out of providing coverage for contraceptive services, some women may no
longer have insurance to help offset the cost for these
and other contraceptives.
Pennsylvania and New Jersey have state-funded
programs that provide family planning and contraceptive services for eligible individuals. For example,
Pennsylvania
Medicaid and New Jersey’s FamilyCare11 cover all
health care for childless adults, pregnant women, and
parents with incomes up to 138% and up to 215% of
the federal poverty level, respectively. Pennsylvania’s
Family Planning Services Program also covers all
family planning-related services, including contraceptives, for individuals with incomes up to 215% of
the federal poverty level even if they have private insurance, and New Jersey’s Plan First program offers
the same for individuals with incomes up to 205% of
the federal poverty level.
Women who lack contraceptive coverage and who
meet certain income levels may also turn to Title X
family planning clinics which “provide access to contraceptive services, supplies, and information to all
who want and need them” with priority to low-income
persons. Office of Population Affairs, Funding History,
HHS,
https://www.hhs.gov/opa/title-x-familyplanning/about-title-x-grants/funding-history/index.
html (last visited May 12, 2019). State and federal
governments fund Title X clinics, but recently, federal funding has decreased.
NJ FamilyCare is New Jersey’s state and federally-funded
Medicaid.
11

19a
The States expect that when women lose contraceptive insurance coverage from their employers,
they will seek out these state-funded programs and
services. The States further assert that women who
do not seek or qualify for state-funded contraceptives
may have unintended pregnancies. Public funds are
used to cover the costs of many unintended pregnancies.12 Accordingly, the States expect to spend
more money due to the Rules.
In addition to this evidence, the Agencies presented spread sheets that listed the organizations and
companies that were previously involved in ACA
Contraceptive Mandate litigation. The Agencies offered this evidence to demonstrate the likely universe
of employers whom they contend may seek to invoke
the Rules and opt out of covering contraceptive care.
3
The day the Final Rules were set to go into effect,
January 14, 2019, the District Court issued a nationwide injunction enjoining their enforcement.
Pennsylvania v. Trump, 351 F. Supp. 3d 791 (E.D.
Pa. 2019). The Court found that the States had standing to challenge the Final Rules and established a
likelihood of success on the merits of their APA
claims. First, the Court held that the States are likely to succeed on their procedural APA claims because
the Agencies failed to comply with the notice-andcomment requirement and this defect tainted the Final Rules. Id. at 813. Second, the Court held that the
Nationally, a publicly-funded birth in 2010 cost $12,770, and
that year, New Jersey spent an estimated $186.1 million on unintended pregnancies and Pennsylvania an estimated $248.2
million.
12

20a
States were likely to succeed on their substantive
APA challenges because neither the ACA nor RFRA
authorized the Agencies to create exemptions. Specifically, the unambiguous language of the ACA’s Women’s Health Amendment only authorized the Agencies
to decide what services would be covered, not who
provides them, id. at 821, and RFRA did not require
or authorize such broad exemptions, particularly given RFRA’s remedial function that places the responsibility for adjudicating religious burdens on the
courts, not the Agencies, id. at 822-23. The Court concluded that the balance of equities and public interest
favored an injunction, id. at 829-30, and that a nationwide injunction was appropriate to ensure complete relief for the States, id. at 834-35. The Government appeals.
II13
We first address whether the States have standing.14 Article III limits the scope of federal judicial review to “cases” or “controversies.” U.S. Const. art. III
§ 2. A fundamental safeguard of this limitation is the
doctrine of standing. Spokeo, Inc. v. Robins, 136 S.
Ct. 1540, 1547 (2016). Put simply, only parties with
standing “can invoke the jurisdiction of the federal
courts.” Constitution Party of Pa. v. Aichele, 757 F.3d
347, 357 (3d Cir. 2014). To have standing to sue,
The District Court had jurisdiction under 28 U.S.C. § 1331.
We have jurisdiction under 28 U.S.C. § 1292(a)(1).
13

14 “We review the legal conclusions related to standing de novo,
but review for clear error the factual elements underlying the
District Court’s determination of standing.” Edmonson v. Lincoln Nat’l Life Ins. Co., 725 F.3d 406, 414 (3d Cir. 2013) (internal quotation marks and citation omitted).

21a
“[t]he plaintiff must have (1) suffered an injury in
fact, (2) that is fairly traceable to the challenged conduct of the defendant, and (3) that is likely to be redressed by a favorable judicial decision.” Spokeo, 136
S. Ct. at 1547 (citing Lujan v. Defenders of Wildlife,
504 U.S. 555, 560-61 (1992)). We will examine each
element in turn.
A
To establish injury in fact, the alleged injury must
be “concrete and particularized” and “actual or imminent, not conjectural or hypothetical.” Id. at 1548
(quoting Lujan, 504 U.S. at 560). An injury is concrete if it “actually exist[s]” and is not abstract. Id.
“For an injury to be particularized, it must affect the
plaintiff in a personal and individualized way.” Id.
(internal quotation marks and citations omitted).
Plaintiffs need not “demonstrate that it is literally
certain that the harms they identify will come about.”
Clapper v. Amnesty Int’l USA, 568 U.S. 398, 414 n.5
(2013). Instead, “[a]n allegation of future injury may
suffice if . . . there is a substantial risk that the harm
will occur.” Susan B. Anthony List v. Driehaus, 573
U.S. 149, 158 (2014) (internal quotation marks and
citation omitted); see also Clapper, 568 U.S. at 410
(rejecting lower court’s use of an “objectively reasonable likelihood” standard to assess injury).
1
The States have established that they will suffer a
concrete and particularized injury. The States describe that (1) employers will take advantage of the
exemptions and women covered by their plans will
lose contraceptive coverage; and (2) financiallyeligible women will turn to state-funded services for

22a
their contraceptive needs and for the unintended
pregnancies that may result from the loss of coverage. As a result, the States will suffer a concrete financial injury from the increased use of state-funded
services. See Cottrell v. Alcon Labs., 874 F.3d 154,
163 (3d Cir. 2017) (“Typically, a plaintiff’s allegations
of financial harm will easily satisfy each of these
components, as financial harm is a classic and paradigmatic form[ ] of injury in fact.” (alteration in original) (internal quotation marks and citations omitted)). The States will suffer this injury in a particularized manner, as each State’s coffers will be depleted by the expenditure of funds to meet the increased
demand for state services. Having concluded that the
States have identified a concrete and particular injury, we next examine whether the injury at issue is
not conjectural and is actual or imminent.
The record shows that the injury the States expect
to sustain is not conjectural. First, the Agencies’ regulatory impact analysis acknowledges that between
70,500 and 126,400 women nationwide will lose contraceptive coverage as a result of their employers’ invocation of the Religious Exemption, 83 Fed. Reg. at
57,578, 57,581, and fifteen women will lose coverage
as a result of their employers’ use of the Moral Exemption, 83 Fed. Reg. at 57,627. See California v.
Azar (“California II”), 911 F.3d 558, 572 (9th Cir.
2018) (noting that the Agencies’ own regulatory impact analysis estimates loss of coverage, and therefore “it is reasonably probable that women in the
plaintiff states will lose some or all employersponsored contraceptive coverage due to the IFRs”),
cert. denied Little Sisters of the Poor v. California,
No. 18-1192, — S. Ct. —, 2019 WL 1207008 (June 17,
2019) (Mem.).

23a
Second, based on the Agencies’ list of entities who
challenged the Contraceptive Mandate, eight employers, not including Little Sisters, between New
Jersey and Pennsylvania would likely take advantage
of the Exemptions. Massachusetts v. U.S. Dep’t of
Health & Human Servs., 923 F.3d 209, 224 (1st Cir.
2019) (relying on spreadsheet of litigating entities to
find “it is highly likely that at least three employers
in the Commonwealth with self-insured health
plans . . . will use the expanded exemptions”). Accordingly, it is not conjecture to conclude that employers
in Pennsylvania and New Jersey will take advantage
of the Exemptions and, as a result, women will lose
coverage. Id. at 224 n.12 (stating that “it is improbable based on the evidence that no women in the
[States] would lose contraceptive coverage” (emphasis
omitted)).
2
The record also supports the District Court’s conclusion that the injury is imminent. The States have
provided evidence showing that the Exemption will
result in the expenditure of state funds because some
women who lose coverage will inevitably seek out
state-sponsored programs providing contraceptive
services; and some women will forego contraceptive
use, causing the States to shoulder the costs of unintended pregnancies.
With the ACA, many patients “switch[ed] from a
cheaper, less effective [contraceptive] method to a
more effective, expensive method that was better for
their medical health and personal needs.” App. 272.
Contraceptives are not only used for pregnancy prevention. They are the “standard first-line of care for a
number of hormonal, and other, disorders, including

24a
poly-cystic ovarian syndrome, primary ovarian insufficiency/premature ovarian failure, amenorrhea,
dysmenorrhea/chronic pelvic pain, and abnormal
uterine bleeding.” App. 292. A “vast majority” of
women use inter-uterine devices (“IUDs”)—a treatment religious objectors are particularly focused on,
App. 350-83—“for purposes other than birth control.”
App. 293 (describing 90-95% of patients using IUDs
for non-birth control purposes). Contraceptive use
“carries long-term health benefits for women[,]” including reducing the risk of ovarian and uterine cancer. App. 294. “Contraception also helps protect the
health of those women for whom pregnancy can be
hazardous, or even life-threatening.” Amici Curiae
Health Prof’l Orgs. Br. at 16. Thus, removing cost
free contraceptive coverage can have ramifications on
women’s health beyond birth control and unplanned
pregnancies.
Without insurance to defray or eliminate the cost
for the more-effective contraceptive methods, women
will use “less expensive and less effective methods,”
App. 245, and both Pennsylvania and New Jersey
“anticipate[] that women who lose contraceptive coverage through employer plans—whether the plan of
their own employer or that of another family member—may seek contraception from other sources, including
state-funded
programs.”15
App. 299;
The Agencies “theorize” that some women may be able to pay
out of pocket or obtain coverage through a spouse or family
member’s plan. Massachusetts, 923 F.3d at 227. While “[s]uch a
hypothetical woman may exist, .
the number of women with
incomes that make them eligible for state-assisted contraceptive
coverage but who still fit in that category would, logically, be
very small.” Id.
15

25a
App. 317. Thus, the State-funded programs will be
tapped to provide coverage for financially eligible
women whose employers invoke the Exemptions.
Furthermore, some women who lose contraceptive
coverage may either fail to qualify for state services
or elect to forego the use of contraceptives altogether.
“Women who stop using contraception are more likely
to have unplanned pregnancies and to require additional medical attention.” App. 312. The costs of such
unintended pregnancies are often shouldered by
states, costing hundreds of millions of dollars. Therefore, the evidence supports the conclusion that the
loss of contraceptive coverage may also result in unintended pregnancies for which the States will bear
associated health care costs.
For these reasons, “[t]he expanded exemptions are
expected to result in greater financial expenditures”
by the States on contraceptive services. App. 318.
This anticipated substantial impact on state finances
presents an imminent injury. Thus, the District
Court properly found that the States showed an imminent injury in fact.
The Government faults the States for failing to
identify a specific woman who will be affected by the
Final Rules, but the States need not define injury
with such a demanding level of particularity to establish standing. Massachusetts v. EPA, 549 U.S. 497,
523 n.21 (2007); see Massachusetts, 923 F.3d at 225;
California II, 911 F.3d at 572. The likelihood that
employers will invoke the Exemptions and leave
women without contraceptive coverage, and that
women will turn to the States for coverage, is sufficient to demonstrate imminent injury. This likelihood
“has nothing to do with whether petitioners have de-

26a
termined [a] precise” woman who will seek such funding. Massachusetts, 549 U.S. at 523 n.21.16
B
The States’ imminent injury is causally connected
and fairly traceable to the Exemptions. The States
will suffer financial injury when employers in Pennsylvania and New Jersey take advantage of the Exemptions, leaving female employees without contraceptive coverage and prompting financially eligible
women to turn to state-funded services. See Texas v.
United States, 809 F.3d 134, 159 (5th Cir. 2015) (“For
Texas to incur injury, DAPA beneficiaries would have
to apply for driver’s licenses as a consequence of
DHS’s action, and it is apparent that many would do
so.”), aff’d by an equally divided court, United States
v. Texas, 136 S. Ct. 2271 (2016) (Mem.) (per curiam).
In other words, the States will not experience an in16 In the context of an environmental case and a claim that the
plaintiff-state Massachusetts lacked standing because it failed
to identify land that would be impacted by federal regulators’
inaction, the Supreme Court observed that

the likelihood that Massachusetts’ coastline will recede
has nothing to do with whether petitioners have determined the precise metes and bounds of their soon-to-beflooded land. Petitioners maintain that the seas are rising and will continue to rise, and have alleged that such
a rise will lead to the loss of Massachusetts’ sovereign
territory. . . . Our cases require nothing more.
Massachusetts, 549 U.S. at 523 n.21. Just as it was unnecessary
for Massachusetts to identify specific coastline that would be
flooded by the agencies’ inaction, it is unnecessary for the States
to identify a specific woman who would be impacted by the Government’s action where in both instances, the record provided a
basis to infer specific imminent injury.

27a
creased demand for services and the resulting financial burden unless the new Exemptions, which create
a void in contraceptive coverage, go into effect. See id.
at 160 (“Far from playing an insignificant role,
DAPA would be the primary cause and likely the only one. Without the program, there would be little
risk of a dramatic increase in the costs of the driver’slicense program.”). Thus, there is a link between the
Exemptions and the impact on the States’ fiscs.
C
The District Court also correctly concluded that
an injunction would redress the financial injury the
States face from the Rules. Enjoining the Final Rules
until their legality is adjudicated on the merits will
avoid the imminent financial burden the States face
if they are not enjoined. Massachusetts, 923 F.3d at
228 (“[A]n injunction preventing the application of
these exemptions would stop the alleged fiscal injury
from occurring, making it not only ‘likely,’ Spokeo,
136 S. Ct. at 1547, but certain that this injury would
not occur for as long as the exemptions are enjoined.”); see Massachusetts, 549 U.S. at 526 (“The
risk of catastrophic harm, though remote, is nevertheless real. That risk would be reduced to some extent if petitioners received the relief they seek.”).
For these reasons, the States have standing to
bring this suit.17

17 Based upon of the foregoing discussion, we need not decide
whether the States also have standing under the special solicitude or parens patriae doctrines.

28a
III
Having determined that the States have standing,
we now address whether they are entitled to a preliminary injunction. The decision to grant or deny a
preliminary injunction is within the sound discretion
of the district court.18 Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 24, 33 (2008). To obtain a preliminary injunction, the movants must:
demonstrate (1) that they are reasonably likely
to prevail eventually in the litigation and (2)
that they are likely to suffer irreparable injury
without relief. If these two threshold showings
are made the District Court then considers, to
the extent relevant, (3) whether an injunction
would harm the [defendants] more than denying relief would harm the plaintiffs and (4)
whether granting relief would serve the public
interest.
K.A. ex rel. Ayers v. Pocono Mountain Sch. Dist., 710
F.3d 99, 105 (3d Cir. 2013) (alteration in original)
(quoting Tenafly Eruv Ass’n v. Borough of Tenafly,
309 F.3d 144, 157 (3d Cir. 2002)); accord Fed. R. Civ.
P. 65. To establish a likelihood of success, “a sufficient degree of success for a strong showing exists if
there is ‘a reasonable chance, or probability, of winning.’” In re Revel AC, Inc., 802 F.3d 558, 568 (3d Cir.
“We employ a tripartite standard of review for . . . preliminary
injunctions. We review the District Court’s findings of fact for
clear error. Legal conclusions are assessed de novo. The ultimate decision to grant or deny the injunction is reviewed for
abuse of discretion.” K.A. ex rel. Ayers v. Pocono Mountain Sch.
Dist., 710 F.3d 99, 105 (3d Cir. 2013) (omission in original) (internal quotation marks and citations omitted).
18

29a
2015) (quoting Singer Mgmt. Consultants, Inc. v.
Milgram, 650 F.3d 223, 229 (3d Cir. 2011) (en banc)).
Here, we must decide whether the District Court
correctly concluded that the States have a reasonable
probability of showing that the Final Rules violate
the APA, and if so, whether the equitable factors
warrant a nationwide injunction.
A19
To promulgate binding regulations, agencies engage in what is known as notice-and-comment rulemaking. 5 U.S.C. § 553. This requires an agency to
publish notice of the proposed rule in the Federal
Register, collect and consider public comments, and
issue a concise statement of purpose upon finalizing
the new rule. Id. § 553(b)-(c). Deviation from these
procedures is only permitted where expressly authorized by statute, id. § 559, or when the agency has
“good cause” to dispense with them, id. § 553(b)(3)(B).
The Agencies assert that both grounds justify their
decision to forego notice-and-comment procedures
here. They are mistaken.
1
The Government first argues that provisions within the Health Insurance Portability and Accountability Act of 1996 (“HIPAA”) grant the Agencies discretion to proceed by IFR in lieu of notice-and-comment

Quite appropriately, the Agencies do not challenge the States’
statutory standing to sue under the APA. 5 U.S.C. § 702; Massachusetts, 549 U.S. at 520 (recognizing states’ “procedural right
to challenge the rejection of its rulemaking petition as arbitrary
and capricious” under the EPA).
19

30a
rulemaking. The provisions upon which the Government relies provide:
The Secretary, consistent with section 104 of
[HIPAA], may promulgate such regulations as
may be necessary or appropriate to carry out
the provisions of this [subchapter]. The Secretary may promulgate any interim final rules as
the Secretary determines are appropriate to
carry out this [subchapter].
26 U.S.C. § 9833; 29 U.S.C. § 1191c; 42 U.S.C.
§ 300gg-92 [hereinafter “Regulation Provision”]. This
language does not eliminate the need for notice and
comment.
First, the APA only allows a subsequent statute to
modify or supersede its procedural requirements “to
the extent [the statute] does so expressly.” 5 U.S.C.
§ 559. The Regulation Provision contains no express
language supplanting APA procedures, and the sole
reference to “interim final rules” does not confer a license to ignore APA requirements. Indeed, in contrast to statutory authorizations to forego APA procedures, the Regulation Provision is “permissive (‘The
Secretary may promulgate any interim final rules as
the Secretary determines are appropriate . . .’), wideranging (applying to any regulatory proceeding relating to group health insurance plans), and do[es] not
contain any specific deadlines for agency action.”
Coal. for Parity, Inc. v. Sebelius, 709 F. Supp. 2d 10,
18-19 (D.D.C. 2010) (omissions in original and emphasis omitted); see also California II, 911 F.3d at
578-80. In short, because the Regulation Provision
“neither contain[s] express language exempting
agencies from the APA nor provide[s] alternative procedures that could reasonably be understood as de-

31a
parting from the APA,” it does not authorize the
Agencies to disregard the notice-and-comment requirements. California II, 911 F.3d at 579.
Second, the statutory reference within the Regulation Provision sheds light on the scope and purpose
of its IFR sentence. As the Court of Appeals for the
Ninth Circuit points out, § 104 of HIPAA aims to assure regulatory coordination between the Agencies’
Secretaries for matters over which they share responsibility. See California II, 911 F.3d at 579-80 (citing
Pub. L. No. 104-191, 110 Stat. 1936 (1996) (codified at
42 U.S.C. § 300gg-92)). The first sentence of the Regulation Provision authorizes each Secretary to promulgate regulations “consistent with” the HIPAA section on coordination. The second sentence is identical
but for two differences: it discusses IFRs instead of
final regulations, and it omits any mention of
HIPAA’s coordination section. Read in light of the
first sentence, the second ensures that each Agency
can proceed by IFR where a Secretary “need[s] to
regulate within his or her own domain temporarily
while sorting out . . . inter-agency conflict.” Id. at 579.
Thus, “we need not give the second sentence the
[A]gencies’ expansive interpretation in order for the
second sentence to retain independent effect.” Id. at
579-80. In sum, the Regulation Provision does not expressly excuse the Agencies from complying with
APA procedures and therefore does not provide a basis for issuing the IFRs without notice and comment.20
Congress knows how to excuse an agency from complying with
the APA. For example, one HIPAA provision expressly permits
the Agencies to promulgate a rule prior to notice and comment.
20

32a
2
The Agencies also lacked good cause for dispensing with notice of and comment to the IFRs. An agency has “good cause” to forego APA procedures where
following them would be “impracticable, unnecessary,
or contrary to the public interest.”21 5 U.S.C.
§ 553(b)(3)(B). “[C]ircumstances justifying reliance on
[the good cause] exception are indeed rare and will be
accepted only after the court has examine[d] closely
proffered rationales justifying the elimination of public procedures.” Nat. Res. Def. Council, Inc. v. EPA
(“NRDC”), 683 F.2d 752, 764 (3d Cir. 1982) (alterations in original) (internal quotation marks and citation omitted). Thus, we construe the “good cause” ex-

42 U.S.C. § 1320a-7b note. That provision requires the Secretary
of Health and Human Services to publish a rule prescribing
penalties for kickbacks by January 1, 1997, then less than four
months away. It provides that “[s]uch rule shall be effective and
final immediately on an interim basis, but is subject to change
and revision after public notice and opportunity for . . . public
comment.” Unlike the Regulation Provision, § 1320a-7b expressly provides for notice and comment after the promulgation of an
IFR. Congress’s omission of that procedure from the Regulation
Provision demonstrates that it did not provide the Agencies authority to promulgate IFRs without notice and comment.
21

5 U.S.C. § 553(b)(3) provides
[e]xcept when notice or hearing is required by statute,
this subsection does not apply—
...
(B) when the agency for good cause finds (and incorporates the finding and a brief statement of reasons therefor in the rules issued) that notice and public procedure
thereon are impracticable, unnecessary, or contrary to
the public interest.

33a
ception to the notice-and-comment requirement narrowly.22 Id.
When they issued the IFRs, the Agencies claimed
good cause to waive notice and comment based on
(1) the urgent need to alleviate harm to those with
religious objections to the current regulations; (2) the
need to address “continued uncertainty, inconsistency, and cost” arising from “litigation challenging the
previous rules”; and (3) the fact that the Agencies
had already collected comments on prior Mandaterelated regulations. 82 Fed. Reg. at 47,813-15; see also
82 Fed. Reg. at 47,855-59. None of these assertions
meet the standard for good cause.
First, the Agencies’ desire to address the purported harm to religious objections does not ameliorate
the need to follow appropriate procedures. All regulations are directed toward reducing harm in some
manner.23 See United States v. Reynolds, 710 F.3d

Though the review standard for agency assertions of good
cause remains an open question in our circuit, see United States
v. Reynolds, 710 F.3d 498, 509 (3d Cir. 2013), we need not answer that question here. Even applying the most deferential of
the potential standards—reviewing the agency’s good cause determination to see if it is arbitrary and capricious—the IFRs
cannot stand.
22

23

As we observed in Reynolds,
[m]ost, if not all, laws passed by Congress requiring
agencies to promulgate new rules are designed to eliminate some real or perceived harm. If the mere assertion
that such harm will continue while an agency gives notice and receives comments were enough to establish
good cause, then notice and comment would always have
to give way. An agency will invariably be able to point to

34a
498, 512-13 (3d Cir. 2013). Thus, “[a] need to regulate
affected parties does not create the urgency necessary
to establish good cause.” Id. at 511. “As with any other administrative agency conclusion, we require some
statement of facts or circumstances that justifies the
existence of good cause (e.g., an imminent, externally
imposed deadline or the existence of an emergency).”
Id. at 512. The Agencies fail to cite any facts or impending deadlines sufficient to raise “good cause”
here.
Second, the need to address uncertainty is likewise insufficient to establish good cause. Uncertainty
precedes every regulation, and to allow uncertainty
to excuse compliance with notice-and-comment procedures “would have the effect of writing [those] requirements out of the statute.” Id. at 510. Furthermore, our precedent forecloses the acceptance of uncertainty as a basis for good cause. Id. (“An agency’s
intention to provide clarity, without more, cannot
amount to good cause.”).
Third, the Agencies’ previous solicitation and collection of comments regarding other rules concerning
Contraceptive Mandate cannot substitute for notice
and comment here. If the APA permitted agencies to
forego notice-and-comment concerning a proposed
regulation simply because they already regulated
similar matters, then the good cause exception could
largely obviate the notice-and-comment requirement.
Furthermore, the IFRs did not make a minor change.
some continuing harm during the notice and comment
period antecedent to the promulgation of a rule.
710 F.3d at 512-13.

35a
The IFRs create exemptions from the Contraceptive
Mandate with unprecedented scope and make the Accommodation wholly voluntary. Such a dramatic
overhaul of the Contraceptive Mandate regulations
required notice-and-comment under the APA.
For these reasons, the Agencies did not have good
cause to ignore the APA’s notice and comment requirement.
B
The Government also contends that, even if the
IFRs were procedurally deficient, the Agencies’ subsequent use of notice-and-comment rulemaking to finalize the Rules cured any procedural defects. Under
our precedent, however, “post-promulgation notice
and comment procedures cannot cure the failure to
provide such procedures prior to the promulgation of
the rule at issue.” NRDC, 683 F.2d at 768; see Reynolds, 710 F.3d at 519 (“Any suggestion that the post
promulgation comments to the Interim Rule can satisfy [the purposes of notice-and-comment rulemaking] misses the point.” (internal citation omitted));
Sharon Steel Corp. v. EPA, 597 F.2d 377, 381 (3d Cir.
1979) (“We hold that the period for comments after
promulgation cannot substitute for the prior notice
and comment required by the APA.”).
APA notice-and-comment procedures serve several goals, including “(1) to ensure that agency regulations are tested via exposure to diverse public comment, (2) to ensure fairness to affected parties, and
(3) to give affected parties an opportunity to develop
evidence in the record to support their objections to
the rule and thereby enhance the quality of judicial
review.” Prometheus Radio Project v. FCC, 652 F.3d

36a
431, 449 (3d Cir. 2011) (quoting Int’l Union, United
Mine Workers of Am. v. Mine Safety & Health Admin., 407 F.3d 1250, 1259 (D.C. Cir. 2005)). The
comment process also allows each agency to “maintain[] a flexible and open-minded attitude towards its
own rules,” Reynolds, 710 F.3d at 511 (alteration in
original and citation omitted) (quoting Prometheus
Radio, 652 F.3d at 449); see also Azar v. Allina
Health Servs., 139 S. Ct. 1804, 1816 (2019) (“Notice
and comment . . . affords the agency a chance to avoid
errors and make a more informed decision.” (internal
citation omitted)). To preserve the integrity of this
process, “[t]he opportunity for comment must be a
meaningful opportunity,” Prometheus Radio, 652
F.3d at 450 (alteration in original), to have interested
parties share their views, and to have the agency
consider them with an “open mind,” Reynolds, 710
F.3d at 517-19.
The notice and comment exercise surrounding the
Final Rules does not reflect any real openmindedness toward the position set forth in the
IFRs.24 First, as the Government admits, the minor
changes to the Final Rules do not “alter the fundamental substance of the exemptions set forth in the
IFRs.” Dkt. 107-1 at 8. Second, the reasons the Agencies supplied for promulgating the Final Rules simply
echoed those provided for issuing the IFRs. See 83
Fed. Reg. at 57,552, 57,609. These rationales do not
show the “flexible and open-minded attitude” the notice-and-comment process requires. Reynolds, 710
24 We express no opinion on whether the Agencies appropriately
responded to comments collected during this process, see Trump,
351 F. Supp. 3d at 811-12, as this issue is not before us.

37a
F.3d at 511. Together, the Agencies’ justifications for
avoiding notice and comment to the IFRs, and the fact
that the IFRs and the Final Rules are virtually identical, suggest that the opportunity for comment was
not a “meaningful” one in the way the APA requires.
Prometheus Radio, 652 F.3d at 450.
Lastly, even setting aside the Agencies’ lack of
open-mindedness, the IFRs also impaired the rulemaking process by altering the Agencies’ starting
point in considering the Final Rules. In NRDC, our
Court rejected the EPA’s argument that the opportunity for post-promulgation comment remedied the
EPA’s initial failure to promulgate a rule through notice-and-comment rulemaking:
[t]o allow the APA procedures in connection
with the [new rule] to substitute for APA procedures in connection with [the initial, procedurally defective rule] would allow [the] EPA
to substitute post-promulgation notice and
comment procedures for pre-promulgation notice and comment procedures at any time by
taking an action without complying with the
APA, and then establishing a notice and comment procedure on the question of whether
that action allow agencies to circumvent [our
case law] and the APA. We cannot countenance
such a result.
683 F.2d at 768 (citation omitted). This reasoning applies with equal force here. By first promulgating the
IFRs that granted the expanded exemptions without
notice and comment, the Agencies changed the question presented concerning the Final Rules from
whether they should create the exemptions to whether they should depart from them. This starting posi-

38a
tion is impermissible under the APA. Id.; see also
Sharon Steel, 597 F.2d at 381 (“Provision of prior notice and comment allows effective participation in the
rulemaking process while the decisionmaker is still
receptive to information and argument. After the final rule is issued, the petitioner must come hat-inhand and run the risk that the decisionmaker is likely to resist change.” (citation omitted)).
In sum, because deficits in the promulgation of the
IFRs compromised the procedural integrity of the Final Rules, the States have demonstrated a likelihood
of success in showing that the Final Rules are procedurally defective, and in turn, violate the APA.
C
There are also serious substantive problems with
the Final Rules. More specifically, neither of the
statutes upon which the Agencies rely, the ACA and
RFRA, authorize or require the Final Rules. Thus,
they were enacted “in excess of statutory jurisdiction,
authority, or limitations, or short of statutory right,”
making them “arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law.”
5 U.S.C. § 706(2)(A), (C).
1
The Agencies argue that their authority under the
ACA to issue preventive care guidelines includes the
power to promulgate the Exemptions. This assertion
is without textual support. The Women’s Health
Amendment to the ACA, 42U.S.C. § 300gg-13(a)(4),
provides:
A group health plan and a health insurance issuer offering group or individual health insur-

39a
ance coverage shall, at a minimum provide
coverage for and shall not impose any cost
sharing requirements for— . . .
(3) with respect to infants, children, and adolescents, evidence-informed preventive care
and screenings provided for in the comprehensive guidelines supported by the [HRSA].
(4) with respect to women, such additional
preventive care and screenings not described
in paragraph (1)25 as provided for in comprehensive guidelines supported by the [HRSA]
for purposes of this paragraph.
42 U.S.C. § 300gg-13(a). The authority to issue “comprehensive guidelines” concerns the type of services
that are to be provided and does not provide authority
to undermine Congress’s directive concerning who
must provide coverage for these services. Section
300gg-13(a) unambiguously dictates that group
health plans and health insurance issuers “shall provide” the preventive care services set forth in the
HRSA-supported comprehensive guidelines, and
“shall” not impose cost sharing. The term “shall” denotes a requirement, Prometheus Radio Proj. v. FCC,
824 F.3d 33, 50 (3d Cir. 2016) (“Th[e] repeated use of
‘shall’ creates ‘an obligation impervious to . . . discretion.’” (omission in original) (quoting Lexecon Inc. v.
Milberg Weiss Bershad Hynes & Lerach, 523 U.S. 26,
35 (1998)), and HRSA’s authority to issue the guide25 Paragraph (1) refers to “evidence-based items or services that
have in effect a rating of ‘A’ or ‘B’ in the current recommendations of the United States Preventive Services Task Force.” 42
U.S.C. § 300gg-13(a)(1).

40a
lines does not empower it to ignore that requirement.
Nothing from § 300gg-13(a) gives HRSA the discretion to wholly exempt actors of its choosing from
providing the guidelines services. On the contrary,
the mandate articulated in § 300gg-13(a) forecloses
such exemptions.26
The Agencies’ reliance on the language that directed HRSA to create the guidelines concerning
women’s preventive health care and the use of the
phrase “as provided for in” such guidelines does not
advance their position. The Agencies contrast
§ 300gg-13(a)(4)’s use of the phrase “as provided for
in” comprehensive guidelines with a neighboring subsection’s provision addressing preventive care for infants, children, and adolescents, which is “provided
for in the” comprehensive guidelines for those services. Compare 42 U.S.C. § 300gg-13(a)(3) (describing
The Government argues that if the ACA does not grant the
authority to issue the Exemptions, then HRSA was equally
without authority to issue the Church Exemption and the Accommodation. This argument fails. Though the Church Exemption may seem facially at odds with § 300gg-13(a), Supreme
Court precedent dictates a narrow form of exemption for houses
of worship. See 80 Fed. Reg. at 41,325 (describing the exemption
for churches and houses of worship as “consistent with their
special status under longstanding tradition in our society and
under federal law”); see, e.g., Hosanna-Tabor Evangelical Lutheran Church & Sch. v. EEOC, 565 U.S. 171 (2012) (discussing
the existence of a ministerial exception precluding application of
employment legislation to a religious institution to respect
churches’ internal autonomy). The Accommodation likewise does
not plainly run afoul of the ACA. Instead, it provides a process
through which a statutorily identified actor “shall provide” the
mandated coverage. In any event, the Agencies’ authority to issue the Church Exemption and Accommodation is not before us.
26

41a
“preventive care and screenings provided for in the
comprehensive guidelines”), with id. § 300gg-13(a)(4)
(describing “preventive care and screenings as provided for in comprehensive guidelines”). They assert
that the use of the word “as” in § 300gg-13(a)(4) gives
HRSA authority to dictate the preventive services to
be provided and who must provide them. This argument overlooks the clear explanation for the different
language. When the ACA was passed, the comprehensive guidelines for children’s preventive care already existed, but guidelines for women’s preventive
care were not yet written. Congress used the definite
article “the” in § 300gg-13(a)(3) to refer to those existing children’s preventive care guidelines. In § 300gg13(a)(4), Congress addressed the women’s preventive
care guidelines that were yet to be promulgated by
stating “as provided for in comprehensive guidelines.”
The Agencies’ interpretation of “comprehensive”
as authorizing them to issue guidelines that exempt
entities from complying with the Mandate likewise
fails. Put simply, the discretion the statute grants
HRSA to issue comprehensive guidelines concerning
services to be provided does not include the power to
exempt actors from the statute itself. This is borne out
by the fact that the word “comprehensive” is also
used to describe the children’s preventive care guidelines, and those guidelines do not exempt any statutorily required party from providing services. See
HHS, Preventive Care Benefits for Children,
https://www.healthcare.gov/preventive-care- children
(last visited May 8, 2019). Congress was obviously
aware of the existing children’s guidelines when it
drafted the Women’s Health Amendment, and Congress’s use of “comprehensive” to describe both sets of
guidelines conveys that it intended them to cover the

42a
same type of subject matter, namely health care services for the identified groups. See F.A.A. v. Cooper,
566 U.S. 284, 292 (2012) (“[W]hen Congress employs
a term of art, it presumably knows and adopts the
cluster of ideas that were attached to each borrowed
word in the body of learning from which it was taken.” (internal quotation marks and citation omitted)).
Other portions of the ACA also show that Congress retained the authority to exempt certain employers from providing contraceptive coverage. In
passing the ACA, Congress explicitly exempted
grandfathered plans from the Contraceptive Mandate
and other ACA requirements. 42 U.S.C. § 18011(a),
(e). Congress also considered and rejected a statutory
conscience amendment that would have operated
similarly to the challenged Exemptions. 158 Cong.
Rec. S1162, 1173-74 (2012). Between the substantially analogous exemption Congress rejected, and the
one it decided to keep, Congress demonstrated that
exempting specific actors from the ACA’s mandatory
requirements is its job, not the Agencies. See United
States v. Johnson, 529 U.S. 53, 58 (2000) (“When
Congress provides exceptions in a statute,” we may
infer “that Congress considered the issue of exceptions and, in the end, limited the statute to the ones
set forth.”). Relatedly, by promulgating the Moral
Exemption, which sought to do what Congress refused to do with the conscience amendment, the
Agencies contravened Congress’s intent. See Food &
Drug Admin. v. Brown & Williamson Tobacco Corp.,
529 U.S. 120, 147 (2000) (considering Congress’s prior
refusal to pass laws as material to whether an agency’s interpretation of its statute is entitled to deference).

43a
Because § 300gg-13(a) does not authorize the
Agencies to exempt plans from providing the required
coverage, the Agencies’ authority under the ACA to
enact the Final Rules is without merit.
227
The Agencies’ effort to cast RFRA as requiring the
Religious Exemption is also incorrect. Even assuming
that RFRA provides statutory authority for the Agencies to issue regulations to address religious burdens
the Contraceptive Mandate may impose on certain
individuals, RFRA does not require the enactment of
the Religious Exemption to address this burden.
RFRA provides that the federal government
“[s]hall not substantially burden a person’s exercise
of religion even if the burden results from a rule of
general applicability,” 42 U.S.C. § 2000bb-1(a), unless “that application of the burden to the person—
(1) is in furtherance of a compelling governmental interest; and (2) is the least restrictive means of furthering that compelling governmental interest,” id.
§ 2000bb-1(b). “[A] person whose religious exercise
has been burdened in violation of this section” may
seek relief in a judicial proceeding. Id. § 2000bb-1(c).
Thus, RFRA authorizes a cause of action for government actions that impose a substantial burden on a
person’s sincerely-held religious beliefs, and provides
a judicial remedy via individualized adjudication. See
42 U.S.C. § 2000bb-3(a); City of Boerne v. Flores, 521
U.S. 507, 529 (1997) (“[RFRA] prevents and remedies
laws which are enacted with the unconstitutional ob27 No party argues that RFRA authorizes or requires the Moral
Exemption.

44a
ject of targeting religious beliefs and practices.”). Because Congress has deemed the courts the adjudicator of private rights of actions under RFRA, Gonzales
v. O Centro Espirita Beneficente Uniao do Vegetal,
546 U.S. 418, 434 (2006) (holding RFRA “plainly contemplates that courts would . . . consider whether exceptions are required under the test set forth by Congress” (emphasis omitted)), we owe the Agencies no
deference when reviewing determinations based upon
RFRA, see Adams Fruit Co., Inc. v. Barrett, 494 U.S.
638, 649 (1990) (declining to defer to an agency’s
statutory interpretation where Congress “expressly
established the Judiciary and not the [agency] as the
adjudicator of private rights of action arising under
the statute”).
A prima facie RFRA case requires a plaintiff to
prove that the government imposed a substantial
burden on religious exercise. Mack v. Warden Loretto
FCI, 839 F.3d 286, 304 (3d Cir. 2016). A substantial
burden exists if
(1) a follower is forced to choose between following the precepts of his religion and forfeiting benefits otherwise generally available to
other [persons] versus abandoning one of the
precepts of his religion in order to receive a
benefit; or (2) the government puts substantial
pressure on an adherent to substantially modify his behavior and to violate his beliefs.28

Although we “defer to the reasonableness” of an objector’s religious beliefs, “this does not bar our objective evaluation of the
nature of the claimed burden and the substantiality of that burden on [the objector’s] religious exercise.” Real Alternatives, Inc.
28

45a
Real Alternatives, Inc. v. Sec’y Dep’t of Health & Human Servs., 867 F.3d 338, 371 (3d Cir. 2017) (alteration in original) (internal quotation marks and citation omitted). The Supreme Court has directed that,
when considering a requested accommodation to address the burden, “courts must take adequate account
of the burdens a requested accommodation may impose on nonbeneficiaries.”Cutter v. Wilkinson, 544
U.S. 709, 720 (2005) (referring to third parties who
may face collateral consequences from accommodating an observer’s burden).29 The Accommodation fulfills this directive as it provides a means for an observer to adhere to religious precepts and simultaneously allows women to receive statutorily-mandated
health care coverage.
RFRA does not require the broad exemption embodied in the Final Rule nor to make voluntary a notice of the employer’s decision not to provide such
coverage to avoid burdening those beliefs. As our
Court has explained,
the self-certification form does not trigger or
facilitate the provision of contraceptive coverage because coverage is mandated to be otherwise provided by federal law. Federal law, rather than any involvement by the [employers] in
v. Sec’y Dep’t of Health & Human Servs., 867 F.3d 338, 356 (3d
Cir. 2017) (emphasis omitted) (citation omitted).
Although Cutter v. Wilkinson, 544 U.S. 709 (2005), dealt with
an application of the Religious Land Use and Institutionalized
Persons Act (“RLUIPA”), we have said that RLUIPA and RFRA
“are analogous for the purpose of the substantial burden test,”
and we may therefore may apply RLUIPA law. Mack, 839 F.3d
at 304 n.103; see Holt v. Hobbs, 135 S. Ct. 853, 860 (2015).

29

46a
filling out or submitting the self-certification
form, creates the obligation of the insurance
issuers and third-party administrators to provide coverage for contraceptive services. . . .
[And] the submission of the self-certification
form does not make the [employers] “complicit”
in the provision of contraceptive coverage.
Geneva Coll. v. Sec’y of U.S. Dep’t of Health & Human Servs., 778 F.3d 422, 437-38 (3d Cir. 2015) (emphasis omitted), vacated and remanded sub nom. Zubik, 136 S. Ct. 1557.30
The religious objectors who oppose the Accommodation mechanism disapprove of “what follows from”
filing the self-certification form, but under Free Exercise jurisprudence, we examine the conduct of the objector, not third parties. Id. at 439-40. Here, through
the Accommodation process, “the actual provision of
contraceptive coverage is by a third party,” so any
possible burden from the notification procedure is not
substantial. Id. at 442. For these reasons, RFRA does
not require that the Agencies permit religious objectors to decline to provide contraceptive coverage
without notifying their insurance issuer, TPA, HHS,
or the employees.
Contrary to the Agencies’ assertions in the Rule,
the Supreme Court has not held that the Accommodation imposes substantial burdens on religious
30 While Zubik vacated our opinion in Geneva College, it did not
reach the merits of the Accommodation nor did it “attack our
reasoning.” Real Alternatives, 867 F.3d at 356 n.18. After Zubik,
we repeated that the Accommodation does “not impose a substantial burden.” Id.

47a
rights. Hobby Lobby ruled that closely-held corporations are entitled to take advantage of the Accommodation process rather than facing fines for noncompliance with the contraceptive mandate, observing that the Accommodation was a less restrictive alternative to forcing objectors to choose between adhering to the mandate or violating their sincerelyheld beliefs. 573 U.S. at 730-31. While the Court “did
not decide” whether the Accommodation “complies
with RFRA,” it found that “[a]t a minimum . . . it does
not impinge on that plaintiffs’ religious belief that
providing insurance coverage for [certain contraceptives] violates their religion, and it serves HHS’s
stated interests equally well.” Id. at 731; see also Zubik, 136 S. Ct. at 1561 (Sotomayor, J., concurring)
(“The opinion does not . . . endorse the petitioners’
position that the existing regulations substantially
burden their religious exercise or that contraceptive
coverage must be provided through a separate policy,
with a separate enrollment process.” (internal quotation marks and citations omitted)); Wheaton, 573 U.S.
at 960 (noting that Hobby Lobby “expressly rel[ied] on
the availability of the religious-nonprofit accommodation” to reach its holding).
Furthermore, the Religious Exemption and the
new optional Accommodation would impose an undue
burden on nonbeneficiaries—the female employees
who will lose coverage for contraceptive care. The
Agencies downplayed this burden on women, contradicting Congress’s mandate that women be provided
contraceptive coverage. “No tradition, and no prior
decision under RFRA, allows a religion-based exemption when the [A]ccommodation would be harmful to
others—here, the very persons the contraceptive coverage requirement was designed to protect.” Hobby

48a
Lobby, 573 U.S. at 764 (Ginsburg, J., dissenting). As
the Agencies recognize, the record shows that thousands of women may lose contraceptive coverage if
the Rule is enforced and frustrate their right to obtain contraceptives. Id. at 727 (citation omitted); 42
U.S.C. § 300gg-13(a)(4) (directing the enactment of
the Women’s Preventive Services Guidelines, which
include contraceptives).
In short, the status quo prior to the new Rule,
with the Accommodation, did not infringe on the religious exercise of covered employers, nor is there a basis to conclude the Accommodation process infringes
on the religious exercise of any employer. For these
reasons, RFRA does not demand the Religious Exemption.
D
Because the States demonstrated a likelihood of
success on the merits as to their APA claim, we next
turn to the remaining equitable factors. To obtain a
preliminary injunction, a plaintiff must “demonstrate
that irreparable injury is likely in the absence of an
injunction.” Winter, 555 U.S. at 22 (emphasis omitted). Because the States cannot collect money damages under the APA,31 5 U.S.C. § 702 (enabling
claimants to obtain “relief other than money damages”); see also California II, 911 F.3d at 581, the States
will suffer irreparable harm if the Rules are enforced.
The States will face unredressable financial consequences from subsidizing contraceptive services,
31 Monetary injuries ordinarily do not constitute irreparable
harm because they are compensable. See Instant Air Freight Co.
v. C.F. Air Freight, Inc., 882 F.2d 797, 801 (3d Cir. 1989).

49a
providing funds for medical care associated with unintended pregnancies, and absorbing medical expenses that arise from decreased use of contraceptive
medications for other health conditions. Therefore,
the District Court did not abuse its discretion in holding that the States demonstrated a likelihood of irreparable harm.
Furthermore, because the current Accommodation
does not substantially burden employers’ religious
exercise and the Exemption is not necessary to protect a legally-cognizable interest, the States’ financial
injury outweighs any purported injury to religious
exercise. Moreover, the public interest favors minimizing harm to third-parties by ensuring that women
who may lose ACA guaranteed contraceptive coverage
are able to maintain access to the preventive care to
which they are entitled under the ACA and HRSA’s
comprehensive guidelines while final adjudication of
the Rules is pending. Therefore, the District Court
did not abuse its discretion in concluding that the
balance of the equities and the public interest both
favor issuing an injunction.
E
Having determined that a preliminary injunction
is warranted, the final question we address is whether
the District Court abused its discretion by enjoining
the Final Rules nationwide. “Crafting a preliminary
injunction is an exercise of discretion and judgment,
often dependent as much on the equities of a given
case as the substance of the legal issues it presents.”
Trump v. Int’l Refugee Assistance Project, 137 S. Ct.
2080, 2087 (2017) (per curiam). While courts are
vested with the power to issue equitable relief with a
nationwide reach, see Texas, 809 F.3d at 188 (quoting

50a
U.S. Const. art. III, § 1), they must ensure that “injunctive relief [is] no more burdensome to the defendant than necessary to provide complete relief to
plaintiffs,” Novartis Consumer Health, Inc. v. Johnson & Johnson-Merck Consumer Pharm. Co., 290
F.3d 578, 598 (3d Cir. 2002) (internal quotation
marks and citation omitted). We must also bear in
mind that the purpose of injunctions is “not to conclusively determine the rights of the parties, but to balance the equities as the litigation moves forward.”
Trump, 137 S. Ct. at 2087 (internal citation omitted).
Mindful of these considerations, the District Court
did not abuse its discretion in concluding that a nationwide injunction is necessary to afford complete
relief to the States and that it is not “more burdensome to the defendant than necessary” to provide
such relief.32 Groupe SEB USA, Inc. v. Euro-Pro Operating LLC, 774 F.3d 192, 206 (3d Cir. 2014) (internal quotation marks and citations omitted). First, our
APA case law suggests that, at the merits stage,
courts invalidate—without qualification—unlawful
administrative rules as a matter of course, leaving
their predecessors in place until the agencies can
take further action. See, e.g., Prometheus Radio, 652
F.3d at 453-54 & n.25 (vacating procedurally defective rule and leaving the prior rule in effect); Council
Tree Commc’ns, Inc. v. FCC, 619 F.3d 235, 258 (3d
32 Our sister circuit declined to uphold a nationwide injunction
concerning the IFRs, but the record before us is substantially
more developed than the record before that court. California II,
911 F.3d at 584 (“On the present record, an injunction that applies only to the plaintiff states would provide complete relief to
them.”).

51a
Cir. 2010) (same). Congress determined that rulevacatur was not unnecessarily burdensome on agencies when it provided vacatur as a standard remedy
for APA violations. See 5 U.S.C. § 706(2) (“The reviewing court shall . . . hold unlawful and set aside
agency action” that is outside an agency’s authority,
or “without observance of procedure required by law,”
among other things). While vacatur is the ultimate
remedy the States seek, and that is not the relief being granted here, by enjoining enforcement of the
Rules we provide a basis to ensure that a regulation
that the States have shown likely to be proven to be
unlawful is not effective until its validity is finally adjudicated.
Second, a nationwide injunction is necessary to
provide the States complete relief. Many individuals
work in a state that is different from the one in which
they reside. See Amici Curiae Massachusetts, et al.,
Br. at 24 (“Mass. Amici Br.”) (stating that 14% of the
workforce in New Jersey and 5.4% in Pennsylvania
work out of state, comprising more than 800,000
workers in total). An injunction geographically limited to the States alone will not protect them from financial harm, as some share of their residents who
work out-of-state will lose contraceptive coverage
originally provided through employers in nonenjoined states who will exempt themselves. Women
covered by these plans who live in the States will
seek state-funded services, and a state specific injunction will not be sufficient to prevent the resulting
financial harm.
Out-of-state college attendance further exacerbates the States’ injury. As the Moral Exemption
points out, “[o]nly a minority of students in higher

52a
education receive health insurance coverage from
plans arranged by their colleges or universities.” 83
Fed. Reg. at 57,564; 83 Fed. Reg. at 57,619. Instead,
most of these students remain on their parents’ employer-based plans. Mass. Amici Br. at 26. The States
host many such students at their colleges. “Each
year, for example, Pennsylvania takes in more than
32,000 first-time out-of-state students alone—the
second most of any state in the country.” Mass. Amici
Br. at 25 (citing Nat’l Ctr. For Educ. Statistics, Residence and Migration of All First-Time Degree/Certificate-Seeking Undergraduates, Digest of
Education Statistics (2017)). In the absence of a nationwide injunction, students attending school in the
States may lose contraceptive coverage from their
parents’ out-of-state plans, again leaving programs
within the States to pick up the bill.33 In light of the
impact of these interstate activities, the District
Court did not abuse its discretion in concluding that
a nationwide injunction was necessary to afford the
States complete relief.34
33 It is also likely that residents of the States will attend out-ofstate schools that invoke the Exemptions, and that such students will seek contraceptive services through programs their
home states, also giving rise to fiscal injuries to the States that
only a nationwide injunction can remedy.

The Government also argues that a nationwide injunction
takes a toll on the court system, foreclosing “adjudication by a
number of different courts and judges,” Califano v. Yamasaki,
442 U.S. 682, 702 (1979), thereby preventing legal questions
from “percolating” throughout the court system, Gov’t Br. at 7980. The argument has little force in this case. First, other federal courts have examined substantially the same legal issues as
we confront here. See generally Massachusetts, 923 F.3d 209;
California II, 911 F.3d 558. Second, the extensive litigation sur34

53a
V
For the foregoing reasons, we will affirm the District Court’s order granting the nationwide preliminary injunction.

rounding the Exemption and Accommodation have allowed for
an airing of the legal issues. See Petition for Writ of Certiorari
at 27, The Little Sisters of the Poor Jeanne Jugan Residence v.
California (No. 18-1192) (“Further percolation is unnecessary. . . . [T]his issue was adjudicated by ten courts of appeals
and dozens of district courts. . . . The arguments have all been
aired.”). Thus, there is no “percolation” problem here.

54a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
COMMONWEALTH OF
PENNSYLVANIA AND
STATE OF NEW JERSEY,
Plaintiffs,

CIVIL ACTION
NO. 17-4540

v.
DONALD J. TRUMP, ALEX
M. AZAR II, UNITED
STATES DEPARTMENT OF
HEALTH AND HUMAN
SERVICES, STEVEN T.
MNUCHIN, UNITED
STATES DEPARTMENT OF
THE TREASURY, RENE
ALEXANDER ACOSTA,
THE UNITED STATES DEPARTMENT OF LABOR,
AND THE UNITED STATES
OF AMERICA,
Defendants,
LITTLE SISTERS OF THE
POOR SAINTS PETER AND
PAUL HOME,
Defendant-Intervenor.
ORDER
AND NOW, this 14th day of January, 2019, upon
consideration of the Plaintiffs’ Second Motion for a
Preliminary Injunction (ECF No. 90), Defendants’

55a
and Defendant-Intervenor’s Responses thereto (ECF
Nos. 107 & 108), the Plaintiffs’ Reply in Support
thereof (ECF No. 118), the Administrative Record
(ECF Nos. 23, 47 & 126), Briefs of the Amici Curiae
(ECF Nos. 110, 112, 113, 115, 117 & 127), and following a Hearing on Plaintiffs’ Motion on January 10,
2019, IT IS HEREBY ORDERED that the Motion is
GRANTED.
It is FURTHER ORDERED that Defendants
Alex M. Azar II, as Secretary of the United States
Department of Health and Human Service; the United States Department of Health and Human Services;
Steven T. Mnuchin, as Secretary of the United States
Department of Treasury; the United States Department of Treasury; Rene Alexander Acosta, as Secretary of the United States Department of Labor; and
the United States Department of Labor;1 and their
officers, agents, servants, employees, attorneys, designees, and subordinates, as well as any person acting in concert or participation with them, are hereby
ENJOINED from enforcing the following Final
Rules across the Nation, pending further order of this
Court:
1.

Religious Exemptions and Accommodations for Coverage of Certain Preventive
Services Under the Affordable Care Act,
83 Fed. Reg. 57,536 (Nov. 15, 2018); and

In light of the constitutional concerns associated with enjoining the President of the United States for a claim under the
Administrative Procedure Act, this injunction does not apply to
the President. See Franklin v. Massachusetts, 505 U.S. 788, 801
(1992).

1

2.

56a
Moral Exemptions and Accommodations
for Coverage of Certain Preventive Services Under the Affordable Care Act, 83
Fed. Reg. 57,592 (Nov. 15, 2018).

The Court has considered the issue of security
pursuant to Rule 65(c) of the Federal Rules of Civil
Procedure and determines that Defendants will not
suffer any financial loss that warrants the need for
the Plaintiffs to post security.
BY THE COURT:
/s/Wendy Beetlestone, J.
WENDY BEETLESTONE, J.

57a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT
OF PENNSYLVANIA
COMMONWEALTH OF
PENNSYLVANIA AND
STATE OF NEW JERSEY,
Plaintiffs,
v.
DONALD J. TRUMP, ALEX M.
AZAR II, UNITED STATES
DEPARTMENT OF HEALTH
AND HUMAN SERVICES,
STEVEN T. MNUCHIN,
UNITED STATES DEPARTMENT OF THE TREASURY,
RENE ALEXANDER ACOSTA,
THE UNITED STATES DEPARTMENT OF LABOR, AND
THE UNITED STATES OF
AMERICA,
Defendants,
LITTLE SISTERS OF THE
POOR SAINTS PETER AND
PAUL HOME,
Defendant-Intervenor.

CIVIL ACTION
NO. 17-4540

58a
OPINION
Table of Contents
I. Background .............................................................. 3
A. Contraceptive Mandate .................................... 3
B. Regulatory Action to Accommodate
Religious Objections ......................................... 4
C. Hobby Lobby & Wheaton College ..................... 6
D. Regulatory Response to Hobby
Lobby & Wheaton College ................................. 7
E. Zubik Remand & Impasse ................................ 8
F. 2017 IFRs & First Preliminary Injunction ...... 9
G. 2018 Final Rules & Second
Motion for Preliminary Injunction ................. 12
II. Analysis ................................................................. 13
A. Standing .......................................................... 13
1. Special Solicitude ........................................ 15
2. Article III Standing .................................... 18
B. Venue............................................................... 20
C. Preliminary Injunction ................................... 23
1. Legal Standard ........................................... 23
2. Likelihood of Success on the Merits ........... 24
a. APA Procedural Claim .......................... 24
i. Inadequate Response
to Comments .................................... 25
ii. IFRs Taint the Final Rules .............. 27
b. APA Substantive Claim ........................ 34

59a
i. The ACA ........................................... 35
ii. RFRA ................................................ 42
3. Irreparable Harm ....................................... 52
4. Balance of the Equities ............................... 55
5. Public Interest ............................................ 56
D. Remedy ............................................................ 57
Plaintiffs, the Commonwealth of Pennsylvania and
the State of New Jersey (collectively “the States”),
have sued the United States of America, President
Donald J. Trump, the United States Secretary of
Health and Human Services Alex M. Azar II, the
United States Secretary of the Treasury Steven T.
Mnuchin, and the United States Secretary of Labor
Rene Alexander Acosta in their official capacities, as
well as each of their agencies (collectively “Defendants”), seeking to enjoin enforcement of two Final
Rules that grant exemptions to the Affordable Care
Act’s requirement that health plans cover women’s
preventive services. The Final Rules “finalize” two Interim Final Rules, which Defendants issued in October
2017 and which this Court enjoined soon thereafter,
see Pennsylvania v. Trump, 281 F. Supp.3d 553, 585
(E.D. Pa. 2017). On November 15, 2018, while their
appeal of that preliminary injunction was pending,
Defendants promulgated the Final Rules currently before the Court. The States move to enjoin enforcement
of the Final Rules arguing that, like the IFRs before
them, the Final Rules violate a variety of constitutional and statutory provisions. For the reasons set
forth below, Plaintiffs’ Second Motion for a Preliminary Injunction shall be granted.

60a
I. Background 1
0F

Although the relevant factual and procedural history of this dispute has been laid out at length before,
see id. at 560-64, that background information is recounted here for the sake of clarity.
A. Contraceptive Mandate
In March 2010, Congress enacted the Affordable
Care Act. See Patient Protection and Affordable Care
Act (“ACA”), Pub L. No. 111-148, 124 Stat. 119 (2010).
A provision of the ACA, the Women’s Health Amendment, mandated that insurance providers cover preventive health services and screenings for women
without cost-sharing responsibilities. Specifically, the
Women’s Health Amendment requires that “[a] group
health plan and a health insurance issuer offering
group or individual health insurance coverage shall, at
a minimum provide coverage for and shall not impose
any cost sharing requirements . . . with respect to
women, such additional preventive care and screenings . . . as provided for in comprehensive guidelines
supported by the Health Resources and Services Administration [“HRSA”] for purpose of this paragraph.”
42 U.S.C. § 300gg-13(a)(4). This requirement applies
to all health insurers offering individual or group insurance, as well as all group health plans, with an exception for certain “grandfathered” plans. 42 U.S.C.
§ 18011 (exempting “grandfathered” plans); see also
29 C.F.R. § 2590.715- 1251 (2010).

The factual statements found here and elsewhere in the opinion
constitute this Court’s findings of fact, as required under Rule
52(a) of the Federal Rules of Civil Procedure, regardless of any
heading or lack thereof.

1

61a
Rather than enumerate the preventive services to
be covered by the mandate, Congress delegated that
decision to HRSA, which is an agency of Defendant Department of Health and Human Services (“HHS”).
HRSA, in turn, commissioned the then-named Institute of Medicine (“the Institute”), to convene a panel of
experts to provide recommendations. 2 On July 19,
2011, the Institute issued its report, recommending
that the ACA cover “the full range of Food and Drug
Administration-approved contraceptive methods, sterilization procedures, and patient education and counseling for women with reproductive capacity.” Institute of Medicine, Clinical Prevention Services for
Women: Closing the Gaps, at 109-10 (2011).
1F

On August 1, 2011, HRSA issued its preventive
care guidelines (“2011 Guidelines”), which adopted the
Institute’s recommendations. See HRSA, Women’s
Preventive Services
Guidelines,
available at
https://www.hrsa.gov/womens-guidelines/index.html. 3
The 2011 Guidelines hewed to the Institute’s report,
defining preventive care to include all FDA-approved
“contraceptive methods, sterilization procedures, and
patient education and counseling.” Id.
2F

The Institute, renamed the National Academy of Medicine in
2015, is an arm of the National Academy of Sciences, an organization that Congress established for the explicit purpose of furnishing advice to the federal government. See Pub. Citizen v.
Dep’t of Justice, 491 U.S. 440, 460 n.11 (1989).
2

The Guidelines were updated in 2016 but continue to define
“preventive services” to include contraceptive services and counseling. See Updating the HRSA-Supported Women’s Preventive
Services Guidelines, 81 Fed. Reg. 95,148, 95,149 (Dec. 27, 2016).

3

62a
Under the Women’s Health Amendment, “nongrandfathered group health plans and health insurance issuers are required to provide coverage consistent with the HRSA Guidelines, without cost sharing.” Group Health Plans and Health Insurance Issuers Relating to Coverage of Preventive Services Under
the Patient Protection and Affordable Care Act, 77 Fed.
Reg. 8,725, 8,725 (Feb. 15, 2012). Thus these interlocking statutory and regulatory requirements created the
so-called “Contraceptive Mandate.”
B. Regulatory Action to Accommodate
Religious Objections
At the same time, and based on “considerable feedback,” HHS, the Department of Labor, and the Department of the Treasury (collectively “the Agencies”)
found it was “appropriate that HRSA, in issuing [the
2011] Guidelines, take[] into account the effect on the
religious beliefs of certain religious employers if coverage of contraceptive services were required.” Group
Health Plans and Health Insurance Issuers Relating to
Coverage of Preventive Services Under the Patient Protection and Affordable Care Act, 76 Fed. Reg. 46,621,
46,623 (Aug. 3, 2011). The Agencies therefore provided
HRSA with “additional discretion to exempt certain
religious employers from the Guidelines where contraceptive services are concerned.” Id.
On August 1, 2011, the Agencies promulgated an
interim final rule exempting certain religious employers from providing contraceptive services. Id. Under
the exemption, a “religious employer” could be exempt
from the Contraceptive Mandate only if it: (1) had the
inculcation of religious values as its purpose; (2) primarily employed people who shared its religious ten-

63a
ets; (3) primarily served persons who shared its religious tenets; and (4) was a church, its integrated auxiliary, or a convention or association of a church exempt from taxation under the Internal Revenue Code.
Id. On February 15, 2012, after considering more than
200,000 responses to this interim final rule, the Agencies issued a final rule adopting the “religious employer” definition. 77 Fed. Reg. at 8,725.
On March 21, 2012, the Agencies issued a notice of
proposed rulemaking requesting comments on “alternative ways of providing contraceptive coverage without cost sharing in order to accommodate non-exempt,
non-profit religious organizations with religious objections to such coverage.” Certain Preventive Services
Under the Affordable Care Act, 77 Fed. Reg. 16,501,
16,503 (March 21, 2012). After receiving and considering over 400,000 comments, the Agencies issued their
final rule on July 2, 2013. Coverage of Certain Preventive Services Under the Affordable Care Act, 78 Fed.
Reg. 39,870, 39,871 (July 2, 2013). The final rule had
two noteworthy effects.
First, the rule “eliminate[ed] the first three prongs
and clarif[ied] the fourth prong of the definition” of “religious employer” adopted in 2012. Id. at 39,874. Under the new definition, an entity qualified as a “religious employer” so long as it “is organized and operates as a nonprofit entity and is referred to in section
6033(a)(3)(A)(i) or (iii)” of the Internal Revenue Code,
which applies to “churches, their integrated auxiliaries, and conventions or associations of churches, as
well as to the exclusively religious activities of any religious order.” Id.
Second, the rule established an accommodation for
“eligible organizations” with religious objections to

64a
providing contraceptive coverage. Id. The rule defined
an “eligible organization” as one that: “(1) [o]pposes
providing coverage for some or all of the contraceptive
services required to be covered . . . ; (2) is organized
and operates as a nonprofit entity; (3) holds itself out
as a religious organization; and (4) self-certifies that it
satisfies the first three criteria.” Id. An eligible organization was required to provide a copy of the self-certification to its insurance provider, which then would
provide contraceptive coverage to the organization’s
employees. Id. at 39,876. Thus an eligible organization
that self-certified as such was “not required to contract, arrange, pay, or refer for contraceptive coverage,” but its “plan participants and beneficiaries
[would] still benefit from separate payments for contraceptive services without cost sharing or other
charge,” consistent with the Contraceptive Mandate.
Id. at 39,874.
C. Hobby Lobby & Wheaton College
Meanwhile, a host of legal challenges to the Contraceptive Mandate progressed through the federal
courts, several of which eventually reached the Supreme Court.
On June 30, 2014, the Supreme Court issued its
opinion in Burwell v. Hobby Lobby Stores, Inc., 134 S.
Ct. 2751 (2014). There, three closely-held corporations
challenged the Contraceptive Mandate. Id. at 2765.
The Supreme Court held that the application of the
Contraceptive Mandate to the organizations violated
the Religious Freedom Restoration Act, 42 U.S.C.
§ 2000bb-1 (“RFRA”), because the Contraceptive Mandate imposed a substantial burden on the plaintiffs’
religious exercise and was not the “least restrictive
means” of guaranteeing cost-free access to certain

65a
methods of contraception. 134 S. Ct. at 2780-82. The
Supreme Court found the existence of the accommodation supported its conclusion that the Contraceptive
Mandate was not the “least restrictive means”: “HHS
itself has demonstrated that it has at its disposal an
approach that is less restrictive than requiring employers to fund contraceptive methods that violate
their religious beliefs HHS has already established
an accommodation for nonprofit organizations with religious objections.” Id. at 2782. Nevertheless, the Supreme Court refrained from deciding “whether an approach of this type”—meaning the accommodation—
“complies with RFRA for purposes of all religious
claims.” Id.
A few days later, the Supreme Court issued an order in a related case, Wheaton College v. Burwell, 134
S. Ct. 2806 (2014) (per curiam). There, Wheaton College, an organization eligible for the accommodation,
sought an injunction “on the theory that its filing of a
self-certification form [would] make it complicit in the
provision of contraceptives by triggering the obligation
for someone else to provide the services to which it objects.” Id. at 2808 (Sotomayor, J., dissenting). The Supreme Court granted the injunction, permitting
Wheaton College to “inform[] the Secretary of Health
and Human Services in writing that it has religious
objections to providing coverage for contraceptive services”—that is, the college did not have to “use the
[self-certification] form prescribed by the [g]overnment.” Id. at 2807 (per curiam). The Supreme Court
warned, however, that the “order should not be construed as an expression of the Court’s views on the
merits.” Id.

66a
D. Regulatory Response to Hobby Lobby &
Wheaton College
The Agencies responded to Hobby Lobby and
Wheaton College by issuing a notice of proposed rulemaking “amend[ing] the definition of an eligible organization [for purposes of the accommodation] to include a closely held for-profit entity that has a religious objection to providing coverage for some or all of
the contraceptive services otherwise required to be
covered.” Coverage of Certain Preventive Services Under the Affordable Care Act, 79 Fed. Reg. 51,118,
51,121 (Aug. 27, 2014). Furthermore, the Agencies issued an interim final rule, effective immediately, that
provided “an alternative process” for eligible organizations to self- certify “consistent with the Wheaton order.” Coverage of Certain Preventive Services Under
the Affordable Care Act, 79 Fed. Reg 51,092, 51,094-96
(Aug. 27, 2014). On July 14, 2015, the Agencies issued
a rule that finalized the extended accommodation and
alternative self- certification process. Coverage of Certain Preventive Services Under the Affordable Care
Act, 80 Fed. Reg. 41,318, 41,323-24 (July 14, 2015).
E. Zubik Remand & Impasse
On May 16, 2016, the Supreme Court issued its
third decision regarding the Contraceptive Mandate.
In Zubik v. Burwell, 136 S. Ct. 1557 (2016) (per curiam), several organizations eligible for the accommodation challenged the self-certification process on the
grounds that the requirement to submit a notice either
to their insurer or the federal government violated
RFRA. Id. at 1559. The Supreme Court declined to
reach the merits of the dispute, requesting instead
“supplemental briefing from the parties addressing
‘whether contraceptive coverage could be provided to

67a
petitioners’ employees, through petitioners’ insurance
companies, without any such notice from petitioners.’”
Id. at 1559-60. After the parties agreed that “such an
option [was] feasible,” the Supreme Court remanded
to afford them “an opportunity to arrive at an approach going forward that accommodates petitioners’
religious exercise while at the same time ensuring that
women covered by petitioners’ health plans receive full
and equal health coverage, including contraceptive
coverage.” Id. at 1560 (internal quotation marks omitted). Again, though, the Court “express[ed] no view on
the merits of the cases,” and refrained from “decid[ing]
whether petitioners’ religious exercise has been substantially burdened, whether the [g]overnment has a
compelling interest, or whether the current regulations are the least restrictive means of serving that interest.” Id.
Following the remand the Agencies reached an impasse. After reviewing over 50,000 comments submitted in response to a request for information, the Agencies concluded that there was “no feasible approach . .
. at this time that would resolve the concerns of religious objectors, while still ensuring that the affected
women receive full and equal health coverage, including contraceptive coverage.” Dep’t of Labor, FAQs
About Affordable Care Act Implementation Part 36, at
4 (2016), available at https://www.dol.gov/sites/default/files/ebsa/about-ebsa/our-activities/resource-center/faqs/aca-part-36.pdf.
F. 2017 IFRs & First Preliminary
Injunction
On May 4, 2017, President Donald Trump issued
an Executive Order entitled “Promoting Free Speech
and Religious Liberty.” Exec. Order No. 13798, 82 Fed.

68a
Reg. 21,675 (May 4, 2017). The Order directed the
Agencies to “consider issuing amended regulations,
consistent with applicable law, to address consciencebased objections to the preventive-care mandate promulgated under [the Women’s Health Amendment].” Id.
at § 3.
On October 6, 2017, aiming to be “[c]onsistent with
the President’s Executive Order and the Government’s
desire to resolve the pending litigation and prevent future litigation from similar plaintiffs,” Religious Exemptions and Accommodations for Coverage of Certain
Preventive Services Under the Affordable Care Act, 82
Fed. Reg. 47,792, 47,799 (Oct. 13, 2017), the Agencies
issued two, new IFRs, referred to as the Religious Exemption IFR and the Moral Exemption IFR. See id. at
47,792 (“Religious Exemption IFR”); Moral Exemptions and Accommodations for Coverage of Certain
Preventive Services Under the Affordable Care Act, 82
Fed. Reg. 47,838, 47,838 (Oct. 13, 2017) (“Moral Exemption IFR”) (collectively, “the IFRs”).
The IFRs made several significant changes to the
prior exemption and accommodation framework. 4 For
one, the Moral Exemption IFR made the exemption
3F

The following is not an exhaustive list of the changes enacted
by the IFRs, and subsequently the Final Rules. For example, the
IFRs also changed the level at which exemptions are to be applied. So, whereas before the availability of an exemption was to
be “‘determined on an employer by employer basis,’” the IFRs
provide that an exemption “will be determined on a plan basis.”
82 Fed. Reg. at 47,810. The effect of this change, according to the
States, is that an employer may disregard the Contraceptive
Mandate by adopting a group health plan “established or maintained” by an objecting organization, id., even if the employer itself does not hold a sincere religious or moral objection to contraception.

4

69a
available to “additional entities”—including for-profit
entities that are not publicly traded—that object based
on “sincerely held moral convictions,” without any
need for the objection to be grounded in a religious objection to contraception. 82 Fed. Reg. at 47,862 (emphasis added). Second, the Religious Exemption IFR
significantly broadened the scope of the religious exemption to encompass any non-profit or for-profit entity, whether closely held or publicly traded. 82 Fed.
Reg. at 47,810. Third, the IFRs “likewise” expanded eligibility for the accommodation, allowing entities with
sincerely held religious or moral convictions to take
advantage of the accommodation process. 82 Fed. Reg.
at 47,813; 82 Fed. Reg. at 47,849. Fourth, the IFRs
made “the accommodation process optional for eligible
organizations,” such that entities taking advantage of
the accommodation would “not be required to comply
with a self-certification process.” 82 Fed. Reg at
47,808; 82 Fed. Reg. at 47,850. Finally, the IFRs eliminated the requirement to provide notice of an intent
to take advantage of the exemption or accommodation—entities that stop providing contraceptive care
“do not need to file notices or certifications of their exemption.” 82 Fed. Reg. at 47,808; 82 Fed. Reg. at
47,850. Thus the IFRs permit entities with religious
or moral objections to forgo providing contraceptive
coverage to employees without “fil[ing] notices or certifications of their exemption.” 82 Fed. Reg. at 47,838. 5
4F

5 The IFRs note that ERISA requires certain disclosures: “[u]nder
ERISA, the plan document provides what benefits are provided
to participants and beneficiaries under the plan and, therefore, if
an objecting employer would like to exclude all or a subset of contraceptive services, it must ensure that the exclusion is clear in
the plan document.” 82 Fed. Reg. at 47,838.

70a
The IFRs became effectively immediately. 82 Fed.
Reg. at 47,815; 82 Fed. Reg. at 47,855. Rather than
engage in advance notice-and-comment procedures,
the Agencies requested post-promulgation comments
be submitted by December 5, 2017, 60 days after the
IFRs went into effect. 82 Fed. Reg. at 47,792; 82 Fed.
Reg. at 47,838. The Commonwealth filed suit in the
interim seeking to enjoin enforcement of the IFRs, arguing: (1) they failed to comply with the notice-andcomment procedures required by the APA, 5 U.S.C.
§ 551, et seq.; (2) they are “arbitrary, capricious, an
abuse of discretion, or otherwise not in accordance
with law” in violation of the substantive provisions of
the APA, 5 U.S.C. § 706(2)(A); (3) they violate Title VII
of the Civil Rights Act, 42 U.S.C. § 2000e-2, et seq.;
(4) they violate the Equal Protection Guarantee of the
Fifth Amendment, U.S. Const. amend. V; and, (5) they
violate the Establishment Clause, U.S. Const. amend.
I. 6 This Court granted the preliminary injunction,
finding the Commonwealth was likely to succeed on its
claims that the IFRs violated both the procedural and
substantive strictures of the APA; it did not, however,
reach the merits of the other statutory or constitutional claims. See Pennsylvania, 281 F. Supp.3d at
585. 7
5F

6F

The State of New Jersey was not party to the original Complaint, and thus, not a party to the first motion for a preliminary
injunction either.

6

Following this Court’s issuance of a preliminary injunction, several other district courts issued decisions regarding the propriety
of the IFRs. See California v. Health & Human Servs., 281 F.
Supp.3d 806, 832 (N.D. Cal. 2017) (enjoining the IFRs for violating the procedural requirements of the APA only), aff’d in part,
vacated in part, remanded sub nom., California v. Azar, 911 F.3d
558, 566 (9th Cir. 2018) (upholding the lower court’s conclusion

7

71a
Defendants subsequently appealed the decision
and moved to stay proceedings while the appeal was
pending, which this Court granted. 8
7F

G. 2018 Final Rules & Second Motion for
Preliminary Injunction
On November 15, 2018, while their appeal of the
preliminary injunction was pending before the Third
Circuit, the Agencies promulgated two new rules that
“finalize[d]” the IFRs. Religious Exemptions and Accommodations for Coverage of Certain Preventive Services Under the Affordable Care Act, 83 Fed. Reg.
57,536, 57,536 (Nov. 15, 2018) (“Final Religious Exemption”); Moral Exemptions and Accommodations for
Coverage of Certain Preventive Services Under the Affordable Care Act, 83 Fed. Reg. 57,592, 57,592 (Nov.
15, 2018) (“Final Moral Exemption”). “In response to
public comments,” the Agencies made “various
changes” to the Final Rules “to clarify the intended
scope of the language” in the IFRs. 83 Fed. Reg. at
57,537; 83 Fed. Reg. at 57,593. The changes, however,
were largely “non-substantial technical revisions.” 83
Fed. Reg. at 57,567. Defendants assert such changes
on the merits, but striking down the remedy as overbroad); Massachusetts v. Health & Human Servs., 301 F. Supp.3d 248, 266
(D. Mass. 2018) (finding State lacked standing to challenge the
IFRs), app. docketed, No. 18-1514 (1st Cir. June 6, 2018).
8 Following the Commonwealth’s initial motion for a preliminary
injunction, Defendant-Intervenor Little Sisters filed a motion to
intervene. The Court denied that motion. See Pennsylvania v.
Trump, 2017 WL 6206133, at *1 (E.D.Pa. Dec. 8, 2017). On appeal, however, the Third Circuit reversed, remanding the case to
permit intervention. See Pennsylvania v. President United States
of Am., 888 F.3d 52, 62 (3d Cir. 2018). The Court duly vacated its
prior ruling and granted Defendant-Intervenor Little Sisters’ motion.

72a
“do not alter the fundamental substance of the exemptions set forth in the IFRs.” The Final Rules were
scheduled to take effect on January 14, 2019. 83 Fed.
Reg. at 57,567; 83 Fed. Reg. at 57,592.
The Commonwealth then sought to lift the stay to
challenge the Final Rules. The Court granted the motion, 9 and Pennsylvania—now joined by New Jersey—
filed an Amended Complaint and a Second Motion for
a Preliminary Injunction, seeking to enjoin enforcement of the Final Rules. 10 The States argue the Final
Rules: (1) failed to comply with the notice-and- comment procedures required by the APA; (2) are “arbitrary, capricious, an abuse of discretion, or otherwise
not in accordance with law” in violation of the substantive provisions of the APA; (3) violate Title VII of the
Civil Rights Act; (4) violate the Equal Protection Guarantee of the Fifth Amendment; and, (5) violate the Establishment Clause. It is to the merits of these contentions that the Court now turns.
8F

9F

While the filing of a notice of appeal is generally “an event of
jurisdictional significance—it confers jurisdiction on the court of
appeals and divests the district court of its control over those aspects of the case involved in the appeal,” Griggs v. Provident Consumer Disc. Co., 459 U.S. 56, 58 (1982),—“[a]n appeal from the
grant or denial of a preliminary injunction does not divest the
trial court of jurisdiction or prevent it from taking other steps in
the litigation while the appeal is pending,” 11A Wright & Miller,
Fed. Prac. & Pro. § 2962 (3d ed.); see also In re Merck & Co., Inc.
Sec. Litig., 432 F.3d 261, 268 (3d Cir. 2005) (observing that the
district court retains the power to “modify or grant injunctions”
following an appeal).

9

10 The Third Circuit stayed Defendants’ appeal pending the resolution of the Second Motion for a Preliminary Injunction. Pennsylvania v. President United States of Am., No. 17-3752 (3d Cir.
Jan. 9, 2019).

73a
II. Analysis 11
10F

A. Standing
A threshold question is whether the States have
standing. Standing is a litigant’s ticket to federal
court—a constitutional requirement that “limits the
category of litigants empowered to maintain a lawsuit
in federal court to seek redress for a legal wrong.”
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016).
The States contend that they are properly before the
Court because the Final Rules will imminently cause
direct harm to their sovereign, quasi-sovereign and
proprietary interests. Additionally, they assert that
they have parens patriae standing to protect the
health, safety and well-being of their residents in ensuring that they enjoy access to healthcare services.
Defendants, on the other hand, contend that the
States have not suffered any legal wrong that would
allow them to get through the turnstile into federal
court.
“No principle is more fundamental to the judiciary’s proper role in our system of government than the
constitutional limitation of federal-court jurisdiction
to actual cases or controversies.” Simon v. E. Kentucky
Welfare Rights Org., 426 U.S. 26, 37 (1976). The doctrine of standing “is part of this limitation.” Id.; see
also Finkleman v. Nat’l Football League, 810 F.3d 187,
203 (3d Cir. 2016). “[T]he irreducible constitutional
minimum of standing contains three elements.” Lujan
v. Defenders of Wildlife, 504 U.S. 555, 560 (1992).
First, a plaintiff must have suffered an “injury in fact,”
11 This section and all others afterwards includes the Court’s legal
conclusions as required under Rule 52(a) of the Federal Rules of
Civil Procedure.

74a
which is “an invasion of a legally protected interest
which is (a) concrete and particularized and (b) actual
or imminent, not conjectural or hypothetical.” Id. (internal quotation marks and citations omitted). Second,
a plaintiff must show that there is a “causal connection
between the injury and the conduct complained of”—
that is, the injury must be “fairly traceable” to the
“challenged action of the defendant.” Id. (internal quotation marks omitted). Third, a plaintiff must show
that it is “likely, as opposed to merely speculative, that
the injury will be redressed by a favorable decision.”
Id. at 561 (internal quotation marks omitted).
As “[t]he party invoking federal jurisdiction,” the
States “bear[] the burden of establishing these elements.” Id. And, “[s]ince they are not mere pleading
requirements but rather an indispensable part of the
plaintiff’s case, each element must be supported in the
same way as any other matter on which the plaintiff
bears the burden of proof, i.e., with the manner and
degree of evidence required at the successive stages of
the litigation.” Id. “[A]t the preliminary injunction
stage, allegations are”—without more—“not enough to
support standing;” rather, the States must “adduce[]
evidence demonstrating more than a mere possibility”
that the elements of standing are met. Doe v. Nat’l Bd.
of Med. Exam’rs, 199 F.3d 146, 152-53 (3d Cir. 1999).
1. Special Solicitude
This standing inquiry must be made with recognition that States, like Pennsylvania and New Jersey
here, “are not normal litigants for the purposes of invoking federal jurisdiction.” Massachusetts v. EPA,
549 U.S. 497, 518 (2007). They are “entitled to special
solicitude in [the] standing analysis” if they have: (1)
a procedural right that authorizes them to challenge

75a
the conduct at issue; and, (2) a “stake in protecting
[their] quasi-sovereign interests.” Id. at 520; see also
Texas v. United States, 809 F.3d 134, 151 (5th Cir.
2015), aff’d by an equally divided Court, 136 S. Ct.
2271 (2016) (per curiam).
In determining whether the States have met these
conditions, both Massachusetts v. EPA and Texas v.
United States are instructive. In Massachusetts v.
EPA, Massachusetts sued the Environmental Protection Agency (“EPA”), alleging that the EPA had “abdicated its responsibility under the Clean Air Act” when
it failed to issue regulations regarding the emission of
certain greenhouse gases. 549 U.S. at 505. The EPA
challenged Massachusetts’ standing to bring the suit,
arguing greenhouse gas emissions are a widespread
and generalized harm not unique to any specific plaintiff. Id. at 517. The Supreme Court nonetheless held
that Massachusetts had special solicitude in the
standing inquiry to challenge the EPA’s inaction:
First, Massachusetts had a procedural right under the
relevant statute, the Clean Air Act, which allowed it
to “challenge agency action unlawfully withheld.” Id.
(citing 42 U.S.C. § 7607(b)(1)). Second, Massachusetts
had a quasi-sovereign interest—a “well-founded desire
to preserve its sovereign territory” from the effects of
global warming because Massachusetts “own[ed] a
great deal of the territory alleged to be affected.” Id. at
519 (internal quotation marks omitted); see also id. at
522 (noting affidavits asserting that “rising seas have
already begun to swallow Massachusetts’ coastal
land.”). After concluding that Massachusetts was entitled to special solicitude in the standing analysis, the
Supreme Court ultimately held that it had Article III
standing to sue the EPA based on the injury to its territory stemming from global warming. Id. at 526.

76a
In Texas v. United States, the Fifth Circuit, relying
on Massachusetts v. EPA, similarly concluded that
Texas and a multitude of other States were entitled to
special solicitude in seeking to enjoin implementation
of the Deferred Action for Parents of Americans and
Lawful Permanent Residents program (“DAPA”). 809
F.3d at 154-55. There, non-citizens in Texas could apply for a driver’s license if they presented “documentation issued by the appropriate United States agency
that authorizes the applicant to be in the United
States.” Id. at 155 (internal quotation marks omitted).
DAPA would have permitted at least 500,000 non-citizens to qualify for these driver’s licenses. Id. Because
Texas subsidized its licenses, it would have lost money
for each license issued to a DAPA beneficiary. Id.
Texas therefore sought injunctive relief to prevent
DAPA’s implementation. See id. at 149.
The Fifth Circuit applied the Massachusetts v. EPA
framework and concluded that Texas was entitled to
special solicitude. First, the Fifth Circuit considered
whether the States’ challenge was similar in kind to
the challenge brought by Massachusetts, and concluded that it was. Both suits turned on the construction of a federal statute that specifically provided for a
procedural right to judicial review, and Texas’ use of
the APA to challenge an “affirmative decision” made
by a federal agency was comparable to Massachusetts’
use of the judicial review provision in the Clean Air Act
to challenge the EPA’s inaction. Id. at 152. Second, as
to the quasi-sovereign interest, the Fifth Circuit held
that DAPA imposed “substantial pressure” on Texas to
change its laws to avoid bearing further costs from
subsidizing additional driver’s licenses. Id. at 153. The
Fifth Circuit thus concluded that Texas, and its fellow
plaintiff States, warranted special solicitude in their

77a
suit against the federal government under the APA.
Id. at 154-55. 12
1F

The Fifth Circuit’s reasoning in Texas v. United
States is persuasive here. Here as there, the States
bring suit under the APA to challenge an affirmative
action by the federal government. See Texas, 809 F.3d
at 152. And, the Final Rules—like DAPA—“affect[] the
[S]tates’ ‘quasi-sovereign’ interest by imposing substantial pressure on them to change their laws.” Id.
Specifically, they put pressure on provisions of the
States’ laws that provide state- funded contraceptive
care to low-income citizens. As the States show, the
Final Rules permit more employers to exempt themselves from the Contraceptive Mandate, which would
result in more of the States’ women seeking state12 Defendants here question the binding effect of Texas v. United
States beyond the facts of that case, given that the Supreme Court
summarily affirmed the Fifth Circuit’s decision “by an equally divided Court.” United States v. Texas, 136 S. Ct. 2271 (2016) (per
curiam). While an affirmance by an equally divided Supreme
Court typically does not constitute binding precedent, see Eaton
v. Price, 364 U.S. 263, 264 (1960), where the Supreme Court is
equally divided on an issue of subject matter jurisdiction, it has
determined that the proper course is to remand the issue of jurisdiction to a lower court. See Silliman v. Hudson River Bridge Co.,
66 U.S. 582, 584-85 (1861). In other words, if the Supreme Court
were equally divided on whether Texas had standing to challenge
DAPA, it would have remanded that issue to the Fifth Circuit.
The Supreme Court did not, and instead affirmed the Fifth Circuit, indicating that a majority of the Supreme Court decided that
Texas had standing to pursue its APA claim. Certainly, if the Supreme Court had determined that Texas did not have standing,
it would not have had jurisdiction to hear the case. Even if the
affirmance by an equally divided Supreme Court as it relates to
subject matter jurisdiction were not binding, the Court is persuaded by the reasoning of the Fifth Circuit in Texas v. United
States as it pertains to State standing.

78a
funded sources of contraceptive care. The harm to the
States’ fiscs are “intrusions . . . analogous to pressure
to change the law,” id., implicating the States’ quasisovereign interests. See also Alfred L. Snapp & Son,
Inc. v. Puerto Rico, 458 U.S. 592, 607 (1982) (holding
that a State has a “quasi-sovereign interest in the
health and wellbeing—both physical and economic—
of its residents in general.”). The States, then, meet
the two conditions outlined in Massachusetts v. EPA
and shall be accorded special solicitude in the standing
analysis.
2. Article III Standing
While the States are entitled to special solicitude
in the standing analysis, they must nevertheless meet
the “irreducible constitutional minimum of standing”—namely, injury in fact, causation, and redressability. Lujan, 504 U.S. at 560. In its initial challenge
to the IFRs, the Commonwealth satisfied this burden,
see Pennsylvania, 281 F. Supp.3d at 569, and the same
is true of the States’ challenge to the Final Rules. See
also California, 911 F.3d at 571 (finding another group
of States had standing to challenge the IFRs).
First, the Final Rules inflict a direct injury upon
the States by imposing substantial financial burdens
on their coffers. An agency rule that has “a major effect
on the states’ fiscs” is sufficient to find injury in fact.
Texas, 809 F.3d at 152; id. at 155 (“[Texas] satisfied
the first standing requirement by demonstrating that
it would incur significant costs in issuing driver’s licenses to DAPA beneficiaries.”); see also Wyoming v.
Oklahoma, 502 U.S. 437, 448 (1992) (holding that Wyoming had Article III standing because it undisputedly
suffered a “direct injury in the form of a loss of specific
tax revenues”); Danvers Motor Co., Inc. v. Ford Motor

79a
Co., 432 F.3d 286, 291 (3d Cir. 2005) (“While it is difficult to reduce injury-in-fact to a simple formula, economic injury is one of its paradigmatic forms.”). If the
Final Rules go into effect, the States will have to increase their expenditures for State funded programs
that provide contraceptive services. This is not a speculative harm. As Defendants themselves noted in issuing the IFRs, “there are multiple Federal, State, and
local programs that provide free or subsidized contraceptives for low-income women.” 82 Fed. Reg. at
47,803. As more of the States’ women residents are deprived of contraceptive services through their insurance plans and turn to these State funded programs,
the States will be pressed to make greater expenditures to ensure adequate contraceptive care. See Mendelsohn Decl. ¶ 15; Steinberg Decl. ¶¶ 24-25. And although Defendants point out that the States have not
yet identified a woman resident who has lost contraceptive coverage due to the Final Rules, the States
need not sit idly by and wait for fiscal harm to befall
them. See McNair v. Synapse Group Inc., 672 F.3d
213, 223 (3d Cir. 2012) (“When, as in this case, prospective relief is sought, the plaintiff must show that
he is ‘likely to suffer future injury’ from the defendant’s conduct.”) (quoting City of Los Angeles v. Lyons,
461 U.S. 95, 105 (1983) (emphasis added)). At bottom,
just as Texas’ estimated loss due to DAPA supported a
finding that Texas suffered an injury in fact, so too
does the States’ estimated loss due to the Final Rules
support a finding that the States have suffered an injury in fact. See Texas, 809 F.3d at 155.
Second, the States’ financial injury is “fairly traceable” to the issuance of the Final Rules. By their
terms, the Final Rules expand the scope of the existing

80a
religious exemption rule and allow entities a new rationale for refusing to provide employees with contraceptive coverage if the refusal is “based on sincerely
held moral convictions,” 83 Fed. Reg. at 57,593. Thus,
the Final Rules allow more entities to stop providing
contraceptive coverage, which will result in more
women residents seeking contraceptive care through
State-funded programs. See Mendelsohn Decl. ¶ 15;
Steinberg Decl. ¶¶ 24-25. The States have thus shown
a causal connection between the Final Rules and their
financial injury.
As the Court previously explained, Pennsylvania v.
New Jersey, 426 U.S. 660 (1976), is not to the contrary.
See also California, 911 F.3d at 574 (finding Pennsylvania did not bar States’ challenge to the IFRs on a
similar theory of standing). In that case, Pennsylvania
voluntarily gave tax credits to Pennsylvania residents
who paid taxes in New Jersey, and then proceeded to
sue New Jersey, contending that the New Jersey tax
injured Pennsylvania’s fiscs and was constitutionally
impermissible. Pennsylvania, 426 U.S. at 662-63. The
Supreme Court found that Pennsylvania lacked standing because the injuries to its fiscs were “self-inflicted,” resulting, as they did, from a decision of its
state legislature to enact a law that incorporated the
legislative choices of New Jersey. Id. at 664. Here, by
contrast, the States’ laws funding contraceptive care
do not “directly and explicitly” tie the States’ finances
to another sovereign’s law. California, 911 F.3d at 574.
Rather, the States’ described injuries flow from the
unilateral decision by the Agencies to issue the Final
Rules. See id. (finding Pennsylvania did control in an
analogous challenge); cf. Texas, 809 F.3d at 158 (“The
fact that Texas sued in response to a significant
change in the [federal government’s] policies shows

81a
that its injury is not self- inflicted.”). The States have
therefore met the traceability requirement.
Finally, the States have satisfied the redressability
requirement. As to the States’ procedural claims, enjoining the Final Rules could prompt the Agencies “to
reconsider the program, which is all a plaintiff must
show when asserting a procedural right.” Texas, 809
F.3d at 161; see also Massachusetts, 549 U.S. at 518
(noting that where, as here, a litigant is “vested with
a procedural right, that litigant has standing if there
is some possibility that the requested relief will
prompt the injury-causing party to reconsider the decision that allegedly harmed the litigant”). And, as for
the States’ substantive claims, enjoining the Final
Rules “would prevent [the States’] injury altogether.”
Texas, 809 F.3d at 161.
In sum, the States have established the irreducible
constitutional minimum of standing to challenges the
Final Rules in federal court. 13
12F

B. Venue
The next question to address is whether the States’
choice of venue—the Eastern District of Pennsylvania—is proper. Notwithstanding Defendants’ argument to the contrary, it is.
Defendants’ argument is grounded in the structure
of the venue statute, Section 1391(e)(1) of which provides that in a civil action against an officer of the
United States, venue lies “in any judicial district in
which . . . the plaintiff resides if no real property is
13 Because the States have identified an imminent, direct injury
to its state coffers that would result from the Final Rules, there
is no need to address whether they have parens patriae standing.

82a
involved in the action.” 28 U.S.C. § 1391(e)(1). Section
1391(c) defines a party’s residence “[f]or all venue purposes,” and distinguishes between three, and only
three, categories of litigants: “a natural person,” “an
entity with the capacity to sue and be sued in its common name under applicable law, whether or not incorporated,” and “a defendant not resident in the United
States.” Id. at § 1391(c). Because Pennsylvania is neither a natural person nor a non-resident, Defendants
argue it must be treated as an entity for purposes of
determining residency. Section 1391(c)(2) provides
that “if a plaintiff,” an entity “shall be deemed to reside . . . only in the judicial district in which it maintains its principal place of business.” Id. Thus, according to Defendants, Pennsylvania resides only in the
Middle District—the district that encompasses Harrisburg, the state capital—because that is where
Pennsylvania maintains its principal place of business.
While inventive, Defendants’ interpretation of Section 1391(c) is ultimately unpersuasive. See California, 911 F.3d at 570 (rejecting the argument); Alabama v. U.S. Army Corps of Eng’rs, 382 F. Supp.2d
1301, 1328 (N.D. Ala. 2005) (rejecting a similar argument for an earlier version of the venue statute). Defendants’ argument hinges on the assumption that, because Section 1391(c) refers to only three categories of
litigants and because a state is neither a natural person nor a non-resident, a state must necessarily be “an
entity” for purposes of the venue statute. There are,
however, several issues with that assumption.
First, the statute explicitly refers to an entity’s incorporation status, indicating “that the term [entity]
refers to some organization, not a state.” California,

83a
911 F.3d at 570. The legislative history confirms that
Congress was contemplating “unincorporated associations, such as partnerships and labor unions, and
other entities with capacity to sue in their common
name,” when it defined the residency of unincorporated entities in Section 1391(c). H.R. Rep. No. 11210, at 21 (2011). There is no indication, however, that
Congress intended for that provision to dictate the residency of sovereign States by equating a State with an
“unincorporated association[]” like a labor union.
Second, Congress explicitly distinguishes between
States and entities within Section 1391. Compare 28
U.S.C. § 1391(c) (defining the residency of an “entity”),
with id. at § 1391(d) (“Residency of corporations in
States with multiple districts”). “Where Congress includes particular language in one section of a statute
but omits it in another section of the same Act, it is
generally presumed that Congress acts intentionally
and purposely in the disparate inclusion or exclusion.”
Russello v. United States, 464 U.S. 16, 23 (1983) (internal quotation marks and citations omitted). Thus,
courts typically “refrain from concluding . . . that the
differing language in [] two subsections [of a statute]
has the same meaning in each.” Id. Here, Congress’s
differentiation between “an entity” and “States”
within Section 1391 indicates that Congress did not
intend to include the latter within the definition of the
former.
Finally, reading Section 1391 as Defendants suggest would yield an absurd result. As several courts
have observed, an interpretation that “limit[s] residency to a single district in the state would defy common sense,” because “[a] state is ubiquitous throughout its sovereign borders.” California, 911 F.3d at 570;

84a
Alabama, 382 F. Supp.2d at 1329 (“[C]ommon sense
dictates that a state resides throughout its sovereign
borders”). 14
13F

Thus, the Court will follow the lead of the Ninth
Circuit in concluding that “the statute . . . dictates that
a state with multiple judicial districts ‘resides’ in every
district within its borders.” California, 911 F.3d at
570. Venue is therefore proper in the Eastern District
of Pennsylvania. 15
14F

C. Preliminary Injunction
Because the States have established standing to
bring their claims into federal court and that this is a
proper venue to hear those claims, the Court now

14 The unreported district court cases that Defendants rely upon
are not to the contrary. See Gaskin v. Pennsylvania, 1995 WL
154801, at *1 (E.D. Pa. Mar. 30, 1995); Bentley v. Ellam, 1990 WL
63734, at *1 (E.D. Pa. May 8, 1990). Both Gaskin and Bentley
discuss the residency of state agencies or officials, which is different in kind from the residency of a sovereign State itself.

Section 1391(e) also provides that venue is proper in a civil action against an officer of the United States, where “a substantial
part of the events or omissions giving rise to the claim occurred.”
28 U.S.C. § 1391(e). Because the Court finds Pennsylvania resides throughout the State, it need not address the States’ alternative argument that venue is proper because “a substantial part
of the events” giving rise to their claim occurred here.
15

Relatedly, New Jersey’s residency does not bear on the question of because “in an action against the federal government or
an agent thereof [t]here is no requirement that all plaintiffs reside in the forum district.” Exxon Corp. v. FTC, 588 F.2d 895, 89990 (3d Cir. 1978); Superior Oil Co. v. Andrus, 656 F.2d 33, 37 n.7
(3d Cir. 1981) (“[O]nly one plaintiff need satisfy the residency requirement of [Section 1391(e)].”).

85a
turns to the merits of the preliminary injunction motion.
1. Legal Standard
A preliminary injunction is an extraordinary remedy; it “should be granted only in limited circumstances.” American Tel. & Tel. Co. v. Winback & Conserve Program, Inc., 42 F.3d 1421, 1426-27 (3d Cir.
1994). “A plaintiff seeking a preliminary injunction
must establish that he is likely to succeed on the merits, that he is likely to suffer irreparable harm in the
absence of preliminary relief, that the balance of equities tips in his favor, and that an injunction is in the
public interest.” Winter v. NRDC, 555 U.S. 7, 20
(2008). The first two are the “most critical factors: [a
movant] must demonstrate that it can win on the merits (which requires a showing significantly better than
negligible but not necessarily more likely than not)
and that it is more likely than not to suffer irreparable
harm in the absence of preliminary relief.” Reilly v.
City of Harrisburg, 858 F.3d 173, 179 (3d Cir. 2017),
as amended (June 26, 2017) (internal quotation marks
omitted). “If these gateway factors are met, a court
then considers the remaining two factors and determines in its sound discretion if all four factors, taken
together, balance in favor of granting the requested
preliminary relief.” Id.
2. Likelihood of Success on the Merits
In demonstrating the likelihood of success on the
merits, a plaintiff need not show that it is more likely
than not that it will succeed. Singer Mgmt. Consultants, Inc. v. Milgram, 650 F.3d 223, 229 (3d Cir. 2011)
(en banc). Instead, all a plaintiff must show is “a likelihood of success on the merits (that is, a reasonable

86a
chance, or probability, of winning) to be granted relief.” Id. (emphasis in original).
a. APA Procedural Claim
The States argue that the Final Rules should be enjoined because Defendants failed to comply with the
procedural requirements of the APA.
The APA generally requires that, when promulgating regulations, administrative agencies meet a set of
procedural requirements, called notice-and-comment
rulemaking. See 5 U.S.C. § 553. Agencies must: issue
a general notice of proposed rulemaking, see id. at
§ 553(b); “give interested persons an opportunity to
participate in the rule making through submission of
written data, views or arguments . . .” id. at § 553(c);
and, “[a]fter consideration of the relevant matter presented, . . . incorporate in the rules adopted a concise
general statement of their basis and purpose,” id.
Notice-and-comment rulemaking serves two distinct purposes—it both “give[s] the public an opportunity to participate in the rule-making process,” and
“enables the agency promulgating the rule to educate
itself before establishing rules and procedures which
have a substantial impact on those regulated.” Texaco,
Inc. v. Fed. Power Comm’n, 412 F.2d 740, 744 (3d Cir.
1969). Nevertheless, there are limited exceptions to
the requirement that all rules be issued pursuant to
notice-and-comment rulemaking, such as when an
agency has “good cause” to forgo the strictures of notice-and-comment rulemaking, 5 U.S.C. § 553(b), or
when a subsequent act of Congress abrogates the
APA’s procedural requirements, id. at § 559.

87a
In issuing the IFRs, the Agencies failed to meet the
various requirements of notice-and- comment rulemaking. See Pennsylvania, 281 F. Supp.3d at 570. Defendants argued, however, that the IFRs were not procedurally invalid because they fell under one (or more)
of the limited exceptions to notice-and-comment rulemaking. Id. at 571. The Court found otherwise and enjoined the IFRs for violating the procedural strictures
of Section 553. Id. at 576; see also California, 281 F.
Supp.3d at 829 (enjoining the IFRs for violating the
procedural requirements of the APA), aff’d in part, vacated in part, California, 911 F.3d at 575 (upholding
the conclusion that the IFRs violated the APA).
While Defendants continue to maintain that the
IFRs were procedurally valid, 16 they now argue that,
even assuming the IFRs were procedurally improper,
the subsequent action taken by the Agencies in promulgating the Final Rules satisfied notice-and-comment
requirements, and thus the Final Rules comply with
the APA. The States’ response is two-fold. First, they
argue that the Agencies notice-and-comment procedures fell short of the APA’s requirements because the
Agencies did not adequately respond to significant
comments in their statement of the basis and purpose
of the Final Rules. Second, the States contend that, no
matter the Agencies’ subsequent actions, the procedural defects that characterized the issuance of the
15F

16 The Court, for the reasons stated in its prior opinion, again
finds the Agencies’ position unpersuasive, see Pennsylvania, 281
F. Supp.3d at 570, and therefore declines Defendants’ invitation
to revisit its prior holding. See Hayman Cash Register Co. v. Sarokin, 669 F.2d 162, 165 (3d Cir. 1982) (“Under the law of the case
doctrine, once an issue is decided, it will not be relitigated in the
same case, except in unusual circumstances.”).

88a
IFRs fatally taint the Final Rules. These arguments
are considered seriatim.
i. Inadequate Response to
Comments
The States argue that the Agencies’ issuance of the
Final Rules failed to meet the requirements of noticeand-comment rulemaking by not responding to all “vital questions[] raised by comments which are of cogent
materiality.” United States v. Nova Scotia Food Prod.
Corp., 568 F.2d 240, 252 (2d Cir. 1977). The APA requires federal agencies to “consider and respond to significant comments received during the period for public comment.” Perez v. Mortg. Bankers Ass’n, 135 S. Ct.
1199, 1203 (2015). The requirement, however, is not
“particularly demanding.” Nazareth Hosp. v. Sec’y
U.S. Dep’t of Health & Human Servs., 747 F.3d 172,
185 (3d Cir. 2014) (quoting Pub. Citizen, Inc. v. FAA,
988 F.2d 186, 197 (D.C. Cir. 1993)). All that is required
is a response that “‘demonstrates that the [agency]
considered and rejected’ the arguments.” Id. (quoting
Covad Commc’ns Co. v. FCC, 450 F.3d 528, 550 (D.C.
Cir. 2006)).
The States contend that the Agencies failed to clear
this relatively low bar, pointing to several examples of
comments that purportedly received an inadequate response: comments that discuss the scientific evidence
of the harm to the health and economic security of
women that would result from the Final Rules, 83 Fed.
Reg. at 57,555-56; comments that assert the broad religious and moral exemptions will cause women to lose
contraceptive coverage, id. at 57,548- 49; comments
that argue the exemptions violate the ACA prohibition
on regulations that create barriers to medical care, id.
at 57,551-52; and, specifically, a comment submitted

89a
by various States—including Pennsylvania and New
Jersey—regarding the medical risks associated with
pregnancy, id. at 57,555.
For each example, however, a review of the Final
Rules demonstrates that the Agencies acknowledged
the comments and provided an explanation as to why
the Agencies did (or did not) amend the Final Rules
based on the comment. See 83 Fed. Reg. at 57,548,
57,551, 57,555. While the Agencies’ explanations are
not always the picture of clarity, they meet the not
“particularly demanding” requirement, Nazareth
Hosp., 747 F.3d at 185, that the Agencies “consider
and respond to significant comments received during
the period for public comment,” Perez, 135 S. Ct. at
1203. Put differently, the Final Rules “demonstrate [to
a commenter] that the [the Agencies] considered and
rejected, the arguments” put forth by a commenter,
which is “all that the [APA] requires.” Nazareth Hosp.,
747 F.3d at 185 (internal quotation marks omitted).
Thus, the States are unlikely to succeed on the
merits of their argument that, in promulgating the Final Rules, the Agencies’ actions failed to meet the requirements of notice- and-comment rulemaking. 17
16F

ii. IFRs Taint the Final Rules
The States maintain that, even if the Agencies complied with the requirements of notice- and-comment
rulemaking in promulgating the Final Rules, the failure to do so in promulgating the IFRs fatally infected
17 The States’ argument is limited to the claim that the Agencies
failed to adequately respond to significant comments. The States
do not argue, for example, that the notice provided was inadequate. See 5 U.S.C. § 552(b).

90a
the process such that the Final Rules should also be
held invalid.
Generally, “the period for comments after promulgation cannot substitute for the prior notice and comment required by the APA.” Sharon Steel. Corp. v.
EPA, 597 F.2d 377, 381 (3d Cir. 1979). The Circuit
courts however, diverge on the procedural validity of a
final rule that follows an IFR promulgated in a procedurally flawed manner—that is, the question of
whether a “procedural defect that taints the original,
interim-final rule carr[ies] over to the succeeding final
rule.” Kristin E. Hickman & Mark Thomson, Open
Minds and Harmless Errors: Judicial Review of Postpromulgation Notice and Comment, 101 Cornell L.
Rev. 261, 267 (2016) (discussing various approaches
taken by the Circuit courts); compare Salman Ranch,
Ltd. v. Comm’r, 647 F.3d 929, 940 (10th Cir. 2011)
(“While the . . . temporary regulations were issued
without notice and comment, now that the regulations
have issued in final form [after notice and comment],
these arguments are moot . . .”) (internal quotation
marks omitted), rev’d on other grounds, Salman
Ranch, Ltd. v. Comm’r, 566 U.S. 971 (2012), with Air
Transp. Ass’n of Am. v. Dep’t of Transp., 900 F.2d 369,
379 (D.C. Cir. 1990) (“Although we have suggested
that there might be circumstances in which ‘defects in
an original notice [could] be cured by an adequate later
notice’ and opportunity to comment, we have emphasized that we could reach such a conclusion only upon
a compelling showing that ‘the agency’s mind remain[ed] open enough at the later stage.’ The FAA has
not come close to overcoming the presumption of
closed-mindedness in this case.”) (quoting McLouth
Steel Prods. Corp. v. Thomas, 838 F.2d 1317, 1323
(D.C. Cir. 1988)), vacated on other grounds, 498 U.S.

91a
1077 (1991). For its part, the Third Circuit has evidenced a deep skepticism towards the curative powers
of post-promulgation notice-and-comment procedures,
see NRDC v. EPA, 683 F.2d 752, 767-68 (3d Cir. 1982);
United States v. Reynolds, 710 F.3d 498, 519 (3d Cir.
2013); accord Sharon Steel. Corp., 597 F.2d at 381,
which warrants a conclusion that the States are likely
to succeed on the claim that the procedural faults that
characterized the issuance of the IFRs fatally tainted
the Final Rules such that the issuance of the Final
Rules violated the APA.
The Third Circuits’ decision most directly on point
is NRDC v. EPA. There, the NRDC challenged EPA
action that indefinitely postponed the effective date of
certain Clean Water Act amendments. NRDC, 683
F.2d at 757. The EPA did not engage in notice-andcomment procedures before acting to postpone the implementation of the amendments. 18 Id. at 756. After
NRDC initiated litigation challenging the agency’s action, the EPA issued a notice of proposed rulemaking,
seeking comments on whether the agency should issue
a rule further postponing the effective date. Id. at 757.
After going through notice-and-comment procedures,
the EPA then issued a final rule implementing some
of the amendments, while further postponing the most
controversial bits. Id. Nevertheless, NRDC maintained its challenge to the EPA’s initial action to postpone the effective date. The Third Circuit rejected the
17F

18 The EPA argued that the initial action to postpone was not a
“rule” under the APA, and thus did not require notice-and-comment procedures. NRDC, 683 F.2d at 761. The Third Circuit rejected that argument, holding the EPA’s action postponing the
effective date qualified as a rule, requiring notice-and-comment
procedures. Id.

92a
EPA’s argument that its notice- and-comment procedures after the initial action to postpone “cured” any
failure to engage in such procedures before the initial
action, and held the initial action postponing the effective date was procedurally invalid. Id. at 767.
Critical to this dispute, however, the Third Circuit
further held that, even though the NRDC did not challenge the final rule—that is, the rule promulgated following notice-and- comment procedures—the final
rule “was likewise invalid.” Id. at 768. The court of appeals explained that the appropriate remedy for the
EPA’s failure to engage in notice-and-comment rulemaking before taking its initial action required holding both the initial action and the subsequent, final
rule “ineffective.” Id. at 767. EPA’s notice-and-comment procedures “could not serve as the procedural
mechanism” for the final rule because “that rulemaking [could not] replace one on the question of whether
the amendments should be postponed in the first
place.” Id. That is, if the EPA had engaged in noticeand-comment procedures before initially acting to
postpone the effective date, then “the question to be
decided in the [subsequent] rulemaking”—the rulemaking that complied with notice-and-comment procedures—“would have been whether the amendments . . . should be suspended, and not whether they
should be further postponed.” Id. The Third Circuit
warned that:
To allow the APA procedures in connection with
the further postponement to substitute for APA
procedures in connection with an initial postponement would allow EPA to substitute post-promulgation notice and comment procedures for prepromulgation notice and comment procedures at

93a
any time by taking an action without complying
with the APA, and then establishing a notice and
comment procedure on the question of whether
that action should be continued We cannot countenance such a result.
Id.
That reasoning applies with equal force here. The
Agencies issued the IFRs without engaging in noticeand-comment rulemaking. As in NRDC, the issuance
of the procedurally defective IFRs fundamentally
changed the “question to be decided in the [subsequent] rulemaking”—instead of asking whether substantial expansions to the exemption and accommodation should be made at all, the Agencies solicited comments on whether those changes should be finalized.
Thus, the subsequent “rulemaking on [finalizing the
IFRs] could not serve as the procedural mechanism,”
for the Final Rules because “that rulemaking [could
not] replace one on the question of whether” the Agencies should broaden the existing exemption and accommodation “in the first place.” Id. The Agencies are, in
essence, engaging in precisely the behavior that the
Third Circuit warned against in NRDC: “substitute[ing] post-promulgation notice and comment procedures for pre-promulgation notice and comment procedures . . . by taking an action without complying
with the APA, and then establishing a notice and comment procedure on the question of whether that action
should be continued.” Id. The Court, like the Third Circuit, “cannot countenance such a result.” Id.
Defendants and Defendant-Intervenor advance
several arguments to the contrary, none of which are
ultimately persuasive. For one, Defendants argue that

94a
NRDC is not on all fours with this case and so “provides no support for the Plaintiffs’ procedural challenge.” Defendants are correct that NRDC differs factually from the case at hand: there the NRDC challenged only the initial action, here the States challenged both the IFRs and the Final Rules. But, even
though the plaintiff did not challenge the final rule in
NRDC, the Third Circuit held both the initial action to
postpone and the subsequent rule procedurally invalid. In reaching that determination, the Third Circuit
rejected the notion—advanced by the Agencies here—
that subsequent notice-and- comment rulemaking procedures “cured” the failure to engage in such procedures “in the first place.” Id. at 767-78. Both the holding and the reasoning given for that holding are binding on this Court. See Tate v. Showboat Marina Casino
P’ship, 431 F.3d 580, 582 (7th Cir. 2005) (Posner, J.)
(“[T]he holding of a case includes, besides the fact and
the outcome, the reasoning essential to that outcome.”); see also IFC Interconsult, AG v. Safeguard
Int’l Partners, LLC, 438 F.3d 298, 311 (3d Cir. 2006)
(quoting Judge Posner’s definition approvingly). Because the Third Circuit’s reasoning invalidating the
subsequent rule was essential to the holding, and because that reasoning applies with equal force to the
promulgation of the Final Rules, that reasoning controls here.
Next, Defendants argue that the States suffered no
procedural injury because they had an opportunity to
submit a comment in response to the IFRs, an opportunity that the States “admit” to taking advantage of.
The problem for Defendants is that the EPA made the
exact argument to the Third Circuit in NRDC, which
the court of appeals flatly rejected. NRDC, 683 F.2d at
768. As the Third Circuit explained, it did not matter

95a
that “notice and comment were provided in connection
with the proposal that the amendments be further
postponed, and NRDC was able to make all of the arguments in connection with the further postponement
that NRDC would have made in connection with the
initial postponement.” Id. The problem was that the
initial, procedurally defective action fundamentally
changed the question to be presented in the subsequent rulemaking, prejudicing NRDC, which “‘must
come hat-in-hand and run the risk that the decisionmaker is likely to resist change.’” Id. at 768 (quoting Sharon Steel, 597 F.2d at 381). Here, the procedurally invalid IFRs similarly changed the question to be
presented in the subsequent rulemaking, prejudicing
the States’ ability to have their comments heard by an
impartial decisionmaker. Cf. Wagner Elec. Corp. v.
Volpe, 466 F.2d 1013, 1020 (3d Cir. 1972) (“Section
[553(b)] of the [APA] requires notice before rulemaking, not after. The right of interested persons to petition for the issuance, amendment or repeal of a rule,
granted in [5 U.S.C. § 553(e)], is neither a substitute
for nor an alternative to compliance with the mandatory notice requirements of [5 U.S.C. § 553(b)].”) (emphasis in original).
Defendant-Intervenor’s attempt to distinguish
away the reasoning of NRDC fares no better. It argues
the court of appeals’ reasoning does not control because, while “unique circumstances” existed in NRDC
“to establish prejudice,” no such circumstances are
present here. Specifically, Defendant-Intervenor argues that the Third Circuit invalidated the final rule
in NRDC because of the “asymmetry between using an
interim rule to repeal a rule promulgated with prior
notice and comment,” whereas, here, the Final Rules
are not “an abrupt change in federal policy” because

96a
the Final Rules do not rescind the Contraceptive Mandate. According to Defendant-Intervenor, that makes
this case “readily distinguishable from NRDC.”
The argument is premised on a misreading of
NRDC. The Third Circuit did not invalidate the EPA
action because of the degree of change affected by the
procedurally invalid action. Rather, it held that the
subsequent notice-and-comment rulemaking “[could
not] replace [a rulemaking] on the question of whether
the amendments should be postponed in the first
place.” NRDC, 683 F.2d at 768. More fundamentally,
the court of appeals did not rest its decision on the existence of any “unique circumstances,” as DefendantIntervenor suggests. Instead, the Third Circuit voiced
a general admonition against the practice of using
post- promulgation procedures to cure pre-promulgation procedural flaws. Id. As discussed, the reasoning
underpinning that warning informs the result here.
Defendant-Intervenor also advances an altogether
different argument. It points out that the Agencies
“created the [Contraceptive] Mandate via a series of
IFRs without notice and comment,” suggesting that
the Final Rules are procedurally valid because the
Agencies followed similar procedures in the past. The
Court rejected a version of this argument last go
around. See Pennsylvania, 281 F. Supp.3d at 573 n.8.
Whether a party could have brought a successful challenge to the procedures followed in the past is not before the Court—what is at issue here is whether the
procedures the Agencies followed in issuing the Final
Rules violated the APA. Id. (explaining that the IFRs
were “not identical to prior regulations” because “they
make significant changes in the law, and the Supreme
Court did not require immediate action”). The same

97a
flawed reasoning characterizes Defendant-Intervenor’s related argument that invalidating the Final
Rules would “cast a pall on thousands of regulations,”
because, according to the Government Accountability
Office, 35% of all major rules were finalized with postIFR notice-and-comment procedures. Obviously, those
regulations are not currently before this Court, and,
accordingly, the Court is not asked—and thus, cannot
decide—whether the specific procedures employed in
promulgating those regulations were defective.
The States are likely to prevail on their claim that
the issuance of the Final Rules violated the procedural
requirements of the APA in that the procedural defect
that characterized the IFRs fatally tainted the issuance of the Final Rules. That is so, regardless of
whether the procedure followed by the Agencies in the
Final Rules may otherwise meet the requirements of
notice-and- comment rulemaking. 19
18F

19 As noted, other courts of appeals employ other approaches
when evaluating whether a procedural defect in an interim-rule
fatally infects a final rule issued after notice-and-comment procedures are followed—one example being the “open mind” approach. See, e.g., Air Transp. Ass’n of Am., 900 F.2d at 379 (employing the “open mind standard”). While it has never adopted
this approach, the Third Circuit in Reynolds indicated that
whether a promulgating agency “maintained a flexible and openminded attitude towards” an interim rule is a relevant consideration in determining whether an APA violation occurred generally. 710 F.3d at 519.

Even under the more flexible “open mind standard,” however,
the States would likely succeed on the merits of their procedural
claim. As the D.C. Circuit has explained, while “defects in an original notice could be cured by an adequate later notice and opportunity to comment,” the remedial measures cure the earlier
lapses only if the promulgating agency makes “a compelling
showing that the agency’s mind remained open enough at the

98a
b. APA Substantive Claim
The States also contend that the Final Rules violate the substantive requirements of the APA. As the
Court has previously noted, the breadth of the exemptions set out in the IFRs, and now the Final Rules, is
remarkable. The Final Religious Exemption allows all
non-profit and for-profit entities, whether closely held
or publicly traded, to deny contraceptive coverage
based on sincerely held religious beliefs. The Final
Moral Exemption allows any non-profit or for- profit

later stage.” Air Transp. Ass’n of Am., 900 F.2d at 379 (internal
quotation marks omitted). That is, “it is the agency’s burden to
persuade the court that it has accorded the comments a full and
fair hearing.” Advocates for Highway & Auto Safety v. Fed. Highway Admin., 28 F.3d 1288, 1292 (D.C. Cir. 1994). Courts that use
this approach have established that an agency can demonstrate
open-mindedness by making changes to a final rule in response
to public comments, or giving careful consideration to comments
submitted in response to a proposed rule. Air Transp. Ass’n of
Am., 900 F.2d at 380; see also Advocates for Highway & Auto
Safety, 28 F.3d at 1292.
Here, the Agencies have not made a “compelling showing”
that they kept an open mind at the later stages of the rulemaking
process. Most notably, while the Agencies made some changes to
the Final Rules based on public comments, those rules were
largely “non-substantial technical revisions,” 83 Fed. Reg. at
57,567, that Defendants concede “do not alter the fundamental
substance of the exemptions set forth in the IFRs.” Indeed, the
Final Rules and the preambles that accompany them “demonstrate[] a single-minded commitment to the substantive result
reached,” Reynolds, 710 F.3d at 519—to wit, expanding the exemption and accommodation. Because the Agencies’ actions indicate closed-mindedness on “the very subject matter about which
[they] w[ere] to keep an ‘open mind,’” id., the States would likely
prevail on their procedural claim even under the more lenient
open mind standard.

99a
organization that is not publicly traded to deny contraceptive coverage for its employees for any sincerely
held moral conviction.
The APA’s substantive requirements command
that an administrative rule must be set aside if it is
“arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law,” or “in excess of statutory jurisdiction, authority, or limitations, or short of
statutory right.” 5 U.S.C. § 706(2)(A), (C). “It is well
settled that an agency may only act within the authority granted to it by statute.” NRDC v. Nat’l Highway
Traffic Safety Admin., 894 F.3d 95, 108 (2d Cir. 2018).
Because “administrative agencies may act only pursuant to authority delegated to them by Congress,” an
agency must “point to something” in a statute that
“gives it the authority” to take the specific action at
issue. Clean Air Council v. Pruitt, 862 F.3d 1, 9 (D.C.
Cir. 2017) (internal quotation marks omitted).
Defendants cite two potential fonts of statutory authority to issue the Final Rules. First, they assert that
the ACA includes a broad delegation of authority to
the Agencies, permitting them to issue the Final
Rules. Second, with specific regard to the Religious Exemption, Defendants assert that RFRA not only authorizes the Agencies to create a religious exemption
to the Contraceptive Mandate, but in fact requires that
the Agencies issue the broad exemption contained
within the Final Religious Exemption.
As explained below, both arguments fail. The Final
Rules—just as the IFRs before them—exceed the scope

100a
of the Agencies’ authority under the ACA, and, further, cannot be justified under RFRA. As a result, the
Final Rules must be set aside. 20
19F

i. The ACA
To reiterate for purposes of clarity, the ACA requires that group health plans and insurance issuers
“shall, at a minimum provide coverage for and shall
not impose any cost sharing requirements for— . . .
with respect to women, such additional preventive
care and screenings . . . as provided for in comprehensive guidelines supported by [HRSA].” 42 U.S.C.
§ 300gg-13(a). It is uncontroverted here that, pursuant
to this provision, HRSA has—and by extension the
Agencies have—the delegated authority to define
what “preventive care” is; that in 2011, HRSA issued
guidelines defining “preventive care” to include contraceptives; and that the Final Rules do not purport to
remove contraceptives from the coverage mandate. 83
Fed Reg. at 57,537. In light of these provisions, what
must be provided under the ACA’s “preventive care”
requirement is clear—all FDA-approved “contraceptive methods, sterilization procedures, and patient education and counseling,” 77 Fed. Reg. at 8,725—as is
who must provide it—any “group health plan” or
“health insurance issuer offering group or individual
health insurance coverage,” 42 U.S.C. § 300gg-13(a).

20 Defendants argue that any finding that they lack statutory authority to enact the Final Rules necessarily calls into doubt their
ability to enact the 2011 religious exemption, which extended to
religious entities such as churches and their auxiliaries. Whatever the merits of that argument, the 2011 religious exemption is
not before this Court.

101a
The Agencies, however, contend that the authority
to define what preventive care will be covered includes
a congressional delegation of authority to carve out exceptions to who must provide preventive coverage.
More specifically, Defendants argue that the Women’s
Health Amendment necessarily grants them the authority to exempt employers and healthcare plan sponsors from the coverage requirement, based on religious
or moral objections to the Mandate. Thus, the precise
question at issue is whether the ACA permits the
Agencies to develop the exemptions set forth in the Final Rules.
When the scope of the authority delegated to an
agency is challenged, that challenge is generally addressed under the analytical framework prescribed by
Chevron, U.S.A., Inc. v. NRDC, 467 U.S. 837 (1984).
That is because, “[n]o matter how it is framed, the
question a court faces when confronted with an
agency’s interpretation of a statute it administers is
always, simply, whether the agency has stayed within
the bounds of its statutory authority.” City of Arlington v. FCC, 569 U.S. 290, 297 (2013) (emphasis removed); see also Am. Farm Bureau Fed’n v. EPA, 792
F.3d 281, 295 (3d Cir. 2015) (applying Chevron framework to resolve “[w]hether an [agency] interpretation
falls within the scope of authority that Congress has
delegated”) (internal punctuation omitted).
There are two steps to the Chevron analysis. Step
One asks “whether Congress has directly spoken to the
precise question at issue.” Chevron, 467 U.S. at 842.
“If the intent of Congress is clear, that is the end of the
matter; for the court, as well as the agency, must give
effect to the unambiguously expressed intent of Con-

102a
gress.” Id. at 842-43. But, “[i]f the statute is ambiguous on the point,” Step Two requires “defer[ence] . . .
to the agency’s interpretation so long as the construction is ‘a reasonable policy choice for the agency to
make.’” National Cable & Telecomm. Ass’n v. Brand X
Internet Servs., 545 U.S. 967, 986 (2005) (quoting
Chevron, 467 U.S. at 845).
Here, as noted, the ACA provides that any “group
health plan” or “health insurance issuer offering group
or individual insurance coverage shall, at a minimum
provide coverage for” “preventive care and screenings . . . as provided for in comprehensive guidelines
supported by [HRSA].” 42 U.S.C. § 300gg-13(a) (emphasis added). On its face, the Women’s Health
Amendment does not contemplate exceptions or exemptions to the “preventive care” coverage mandate—
much less delegate authority to the Agencies to create
such exemptions. 21 Rather, the statute directs that all
specified health plans and insurance issuers “shall”
cover “preventive care,” however defined. “Shall” is a
mandatory term that “normally creates an obligation
impervious to judicial [or agency] discretion.” Lexecon,
Inc. v. Milberg Weiss Bershad Hynes & Lerach, 523
U.S. 26, 35 (1998). Thus, by stating that the specified
plans “shall” provide coverage for “preventive care,”
the statute sets forth who is bound by the coverage
mandate (any “group health plan” or “health insur20F

21 As discussed further infra, the ACA, in sections outside the
Women’s Health Amendment, does provide one very specific exception to its broader coverage mandate, for grandfathered
health plans. See 42 U.S.C. § 18011. The ACA insurance requirements also do not apply to employers with fewer than 50 employees. See 26 U.S.C. § 4980H(c)(2).

103a
ance issuer offering group or individual insurance coverage”), while delegating to the Agencies the task of
defining what counts as “preventive care.” The statute
further underscores the importance of the Contraceptive Mandate, by stipulating that the specified health
plans must provide preventive care coverage “at a minimum” and without “any cost sharing requirements.”
Nonetheless, the Agencies assert that they hold the
authority to issue the far-reaching exemptions to the
Contraceptive Mandate set out in the Final Rules.
They argue that the statement “as provided for in comprehensive guidelines supported by [HRSA]” contemplates a broad delegation of authority, that permits
the Agencies not only to define preventive care, but
also the manner and reach of “preventive care” coverage. 42 U.S.C. § 300gg-13(a). Effectively, the Agencies’
argument is that the statute authorizes them to carve
out, contrary to the express remits of the statute, categories of entities who need not provide preventive
care coverage. But such a grant of authority is inconsistent with the statute’s text. Congress has already
answered who must provide preventive care coverage:
any “group health plan” or “health insurance issuer offering group or individual insurance coverage.” To permit the Agencies to disrupt this mandate contradicts
the plain command of the text.
There are further textual reasons to doubt that the
phrase “as provided for in comprehensive guidelines
supported by [HRSA]” permits such an extensive delegation. True enough, the statute speaks to “comprehensive guidelines,” which suggests a broad scope. But
the delicate term support undermines this contention:
it strains credulity to say that by granting HRSA the
authority to “support” guidelines on “preventive care,”

104a
Congress necessarily delegated to HRSA the authority
to subvert the “preventive care” coverage mandate
through the blanket exemptions set out in the Final
Rules.
MCI Telecommunications Corp. v. American Telephone & Telegraph Co., 512 U.S. 218 (1994), is instructive. In that case, the Supreme Court rejected an
agency’s assertion of authority—similar to the assertion here—to create exceptions to statutory requirements. Id. at 234. There, the statutory scheme at issue
required that “[e]very common carrier . . . shall . . . file”
tariffs, and also granted the Federal Communications
Commission (“FCC”) the authority to “modify any requirement made by or under the authority of this section.” Id. at 224 (quoting 47 U.S.C. § 203). The FCC
asserted that the grant of authority to “modify” the
statutory requirements permitted it to eliminate the
filing requirement for certain entities altogether. The
Supreme Court firmly rejected this view, finding that
the FCC’s authority to “modify” statutory requirements did not allow the FCC to make “basic and fundamental changes” to the command of the statute. Id.
at 225. In a passage particularly on point here, the Supreme Court reasoned that “[i]t is highly unlikely that
Congress would leave the determination of whether an
industry will be entirely, or even substantially, rateregulated to agency discretion—and even more unlikely that it would achieve that through such a subtle
device as permission to ‘modify’ rate- filing requirements.” Id. at 231.
The logic of M.C.I. compels the conclusion that
Congress’s limited delegation to the Agencies does not
include authority to create broad exemptions to the
Contraceptive Mandate. In M.C.I., the Court held that

105a
the agency could not create exceptions for statutorily
mandated filing requirements—despite the fact that,
there, the text explicitly authorized the agency to
“modify” statutory requirements. Here, the statute
presents no authority at all to “modify” or waive statutory requirements. As in M.C.I., if Congress intended
to grant the Agency such broad authority, it has the
means available to it to do so. See Whitman v. Am.
Trucking Ass’n, 531 U.S. 457, 468 (2001) (“Congress . . . does not . . . hide elephants in mouseholes.”).
Defendants argue to the contrary that the text and
structure of the ACA permit the Agencies to issue the
Final Rules, primarily thanks to the use of the word
“as” in the Women’s Health Amendment. They note
that the Women’s Health Amendment follows immediately after—and differs slightly from—another subsection of the ACA that speaks to preventive care coverage, for children. Specifically, the Women’s Health
Amendment mandates coverage for “preventive care
and screenings . . . as provided for in comprehensive
guidelines supported by [HRSA],” while the subsection
pertaining to children mandates coverage for “preventive care and screenings provided for in the comprehensive guidelines supported by [HRSA].” 42 U.S.C.
§ 300gg-13(a)(3)–(4) (emphasis added). Proceeding
from the statutory maxim that statutes “must be interpreted, if possible, to give each word some operative
effect,” Walters v. Metro. Educ. Enter., Inc., 519 U.S.
202, 209 (1997), Defendants conclude that the inclusion of the word “as” in the women’s subsection means
that HRSA may determine not only the services covered by the ACA, but also the manner or reach of that
coverage.

106a
The impact of the word “as” in this instance can be
determined by “look[ing] to dictionary definitions to
determine the ordinary meaning of a word,” while
bearing in mind that “statutory language must be read
with reference to its statutory context.” Bonkowski v.
Oberg Indus., Inc., 787 F.3d 190, 200 (3d Cir. 2015)
(internal quotation marks omitted). The term “as” in
this context could mean “[u]sed in comparisons to refer
to the extent or degree of something,” “[u]sed to indicate that something happens during the time when
something else is taking place,” or “[u]sed to indicate
by comparison the way that something happens or is
done.” As, Oxford English Dictionary Online (January
2018), https://en.oxforddictionaries.com/definition/as.
Defendants argue for either the first or third of
these definitions, asserting that the “as” here means
something like “as you like it.” However, the statutory
context indicates that the second definition is the most
appropriate. When Congress passed the ACA, HRSA
had already promulgated guidelines defining children’s preventive care. HRSA had not yet promulgated
such guidelines for women’s preventive care. Thus, the
ACA requires coverage “provided for in the” preexisting HRSA guidelines for children’s care. The use of the
article “the” demonstrates that Congress referred to
particular, extant guidelines governing children’s preventive care. Giving effect to the use of the word “as”
with regard to the Women’s Health Amendment leads
to the conclusion that Congress used “as” here to indicate that the HRSA guidelines would be forthcoming,
i.e. in anticipation of HRSA issuing guidelines—not to
the conclusion that the ACA implicitly provides the
Agencies with the authority to create exemptions.

107a
Further, even if the word “as” is read to “indicate
by comparison” the “extent,” “degree” or “way” the
Agencies may promulgate guidelines, that definition
does not help Defendants, for the following reason.
The most natural comparison available in the statute—as Defendants recognize—would be to the preACA children’s health preventive services guidelines.
And comparing the children’s guidelines to the
women’s guidelines ultimately undermines Defendants’ reading of the statute. That is because the children’s guidelines simply define a list of “preventive
care” services—that is, what must be covered. See
HHS, Preventive Care Benefits for Children, available
at
https://www.healthcare.gov/preventive-care-children. They do not include any exemptions to that coverage; indeed, the children’s guidelines do not speak at
all to who must provide that coverage. And that makes
sense because Congress already defined the who: any
“group health plan” or “health insurance issuer offering group or individual insurance coverage”—the
same plans that “shall” cover women’s preventive services without cost sharing. Thus if Congress employed
“as” here to create a comparison to the children’s care
guidelines, then Congress assuredly did not intend to
permit HRSA to craft exemptions to the types of preventive care that would be required. Rather, Congress
intended that HRSA would create a parallel set of
guidelines, setting forth the types of “preventive care”
to be covered, without exception.
The conclusion that the Women’s Health Amendment does not grant HRSA the power to create exemptions is bolstered by other provisions of the ACA. Congress created only a single exemption from the ACA’s
statutory mandate to cover women’s preventive care,
for “grandfathered health plans.” 42 U.S.C.

108a
§ 18011(e)(3). In accordance with the expressio unius
est exclusio alterius principle, “[w]hen Congress provides exceptions in a statute . . . [t]he proper inference . . . is that Congress considered the issue of exceptions and, in the end, limited the statute to the ones
set forth.” United States v. Johnson, 529 U.S. 53, 58
(2000). The fact that there is no religious or moral exemption in the explicit text of the statute, while there
is an exemption for grandfathered health plans, militates against finding that Congress authorized the
Agencies to create any additional exemptions. Indeed,
that interpretation is supported by the legislative history, given that, in 2012, Congress explicitly rejected
an attempt to add to the ACA an exemption similar to
that contained in the Final Rules. See 158 Cong. Rec.
S1165 (Mar. 1, 2012); see also Food & Drug Admin. v.
Brown & Williamson Tobacco Corp., 529 U.S. 120, 147
(2000) (rejection of an agency’s interpretation by Congress is a factor courts consider when determining the
meaning of a statute).
For these reasons, the ACA prohibits HRSA from
exempting entities from providing such coverage as set
forth in the Final Rules. Accordingly, the Final Rules
violate the APA and fail at Chevron’s Step One.
ii. RFRA
Defendants argue that, even if the ACA does not
grant the Agencies authority to issue the Final Rules,
RFRA independently enables the Agencies to issue the
Final Religious Exemption. 22 They assert that the
21F

It should be noted at the outset that Defendants specifically do
not propound this argument with respect to the Final Moral Exemption. Nor could they. RFRA protects a person’s “exercise of
religion,” and does not speak to broader moral convictions. 42
U.S.C. § 2000bb-1(a). Thus, because neither the ACA nor RFRA
22

109a
Contraceptive Mandate cannot be brought into accord
with RFRA by anything less that the provisions contained in the Final Religious Exemption, and that, as
such, RFRA “required” the promulgation of the rule.
But it is the courts, not the Agencies, that determine
RFRA’s reach. And the Final Religious Exemption
goes far beyond RFRA’s command.
Congress enacted RFRA in 1993 following the Supreme Court’s decision in Employment Div., Dep’t of
Human Resources of Ore. v. Smith, 494 U.S. 872
(1990). In Smith, the Supreme Court held that “the
Constitution does not require judges to engage in a
case-by-case assessment of the religious burdens imposed by facially constitutional laws,” and thus strict
scrutiny did not apply to Free Exercise challenges to
laws of general applicability. Gonzales v. O Centro
Espirita Beneficente Uniao do Vegetal, 546 U.S. 418,
424 (2000). Prior to Smith, in decisions such as Sherbert v. Verner, 374 U.S. 398 (1963), courts employed “a
balancing test that took into account whether the challenged action imposed a substantial burden on the
practice of religion, and if it did, whether it was needed
to serve a compelling government interest,” Hobby
Lobby, 134 S. Ct. at 2760. With RFRA, Congress
sought to restore the pre-Smith judicial standard. See
42 U.S.C. § 2000bb(b)(1) (stating that a purpose of the
statute is “to restore the compelling interest test as set
forth in Sherbert v. Verner, 374 U.S. 398 (1963) and
Wisconsin v. Yoder, 406 U.S. 205 (1972) and to guarantee its application in all cases where free exercise of

grant the Agencies the authority for it, the Final Moral Exemption must be invalidated.

110a
religion is substantially burdened”); see also Gonzales,
546 at 424, 430-31.
In accordance with this goal, RFRA provides that
the “Government shall not substantially burden a person’s exercise of religion even if the burden results
from a rule of general applicability,” unless “it demonstrates that application of the burden to the person-(1) is in furtherance of a compelling governmental interest; and (2) is the least restrictive means of furthering that compelling governmental interest.” 42 U.S.C.
§ 2000bb-1(a)-(b). Accordingly, RFRA has two components. First, the government is prohibited from placing a substantial burden on religious exercise. If government action does not impose a substantial burden
on religion, then RFRA is not implicated. However, if
it does, the government action must be struck down
unless it is the least restrictive means of furthering a
compelling interest.
Despite Defendants’ contention that the Agencies
may determine what RFRA demands with respect to
the ACA, RFRA provides, to the contrary, that it is the
courts that are charged with determining RFRA’s application. RFRA “explicitly provides a private cause of
action,” Mack v. Warden Loretto FCI, 839 F.3d 286,
301 (3d Cir. 2016), which permits an aggrieved individual to obtain “Judicial Relief,” and contemplates
them doing so in a “judicial proceeding,” 42 U.S.C.
§ 2000bb-1(c). More specifically, RFRA states that, “[a]
person whose religious exercise has been burdened . . .
may assert that violation as a claim or defense in a
judicial proceeding and obtain appropriate relief
against a government.” Id. RFRA thus commits to the
courts the task of determining whether generally applicable laws violate a person’s religious exercise:

111a
“RFRA . . . plainly contemplates that courts would recognize exceptions—that is how the law works. RFRA
makes clear that it is the obligation of the courts to
consider whether exceptions are required under the
test set forth by Congress.” Gonzales, 546 U.S. at 434
(emphasis in original).
Nevertheless, the Agencies contend that they are
independently required to assess how RFRA bears on
the Contraceptive Mandate and that their authority to
promulgate the Final Religious Exemption flows from
that obligation. In years past, the Agencies asserted
that the accommodation did not impose a substantial
burden on any entity’s religious exercise and that
guaranteeing cost-free contraceptive coverage did
serve several compelling government interests. The
Agencies now take the obverse positions: that the accommodation constitutes a substantial burden on the
religious exercise of objecting employers and that the
contraceptive mandate does not serve “any compelling
interest.” Indeed, they go further—arguing that this
new set of views “in itself, is dispositive,” as a matter
of law. In essence, they have taken on the quintessentially judicial tasks of determining whether the application of the Contraceptive Mandate to objecting entities constitutes a substantial burden, whether any
burden was in furtherance of a compelling government
interest, and whether the accommodation was the
least restrictive means of accomplishing contraceptive
coverage. Having taken on those tasks, the Agencies—
based on their independent assessments of these legal
questions—now claim that RFRA “requires” the Final
Religious Exemption.
Their position is unsustainable for a number of reasons, the foremost being that administrative agencies

112a
may not simply formulate a view of a law outside their
particular area of expertise, issue regulations pursuant to that view, claim that the law requires those regulations, then seek to insulate their legal determination from judicial scrutiny. It is axiomatic that under
our constitutional system, “[i]t is emphatically the
province and duty of the judicial department to say
what the law is.” Marbury v. Madison, 5 U.S. (1
Cranch) 137, 177 (1803). Nothing about RFRA warrants departure from this general maxim. To the contrary, RFRA specifically provides only for “Judicial Relief,” 42 U.S.C.A. § 2000bb-1(c), thereby committing
interpretative authority to the courts—not to agencies.
See Gonzales, 546 U.S. at 434; see also Real Alternatives, Inc. v. Sec’y Dep’t of Health & Human Servs., 867
F.3d 338, 356 (3d Cir. 2017) (“[I]t is for the reviewing
court to determine whether a burden is ‘substantial.’”).
Indeed, in the Hobby Lobby decision, the Supreme
Court found that agency action violated RFRA, without ever suggesting that the agency’s interpretation
was entitled to deference. See Hobby Lobby, 134 S. Ct.
at 2775-85 (analyzing whether the Contraceptive
Mandate violated RFRA, without discussion of deference to agency view); see also Thomas W. Merrill, Step
Zero After City of Arlington, 83 Fordham L. Rev. 753,
759 (2014) (“[T]he [Supreme] Court has never suggested that trans-substantive statutes like the Administrative Procedure Act (APA) or the Religious Freedom Restoration Act (RFRA) should be interpreted by
giving deference to agency interpretations.”).
Nevertheless, Defendants cast their new legal contentions as reasonable policy decisions within their
ambit of expertise. Of course, where a statute leaves
gaps for an agency to fill, the agency may change its

113a
interpretation so long as it provides a “reasoned explanation for the change.” Encino Motorcars, LLC v. Navarro, 136 S. Ct. 2117, 2125 (2016). However, what Defendants attempt to do here is not a change of interpretation regarding an ambiguous statute they are
tasked with administering. Rather, Defendants are
baldly asserting—with respect to a statute that does
not explicitly delegate them any authority—what
RFRA “requires.” Defendants have no expertise in administering RFRA. See Gonzales, 546 U.S. at 434; see
also Real Alternatives, 867 F.3d at 356; Iglesia Pentecostal Casa De Dios Para Las Naciones, Inc. v. Duke,
718 F. App’x 646, 653 (10th Cir. 2017) (holding that
the question of whether a RFRA violation exists is “a
legal determination that Congress has not exclusively
entrusted to” agencies) (internal quotation marks
omitted). While Defendants may change course in
their legal assessment of what RFRA commands, this
is not the final word. Ultimately, it is up to the courts
to decide.
It is true, as Defendants point out, that there is a
great deal of “legal uncertainty” about RFRA’s precise
application to the Contraceptive Mandate. But on the
specific question presented here—whether RFRA “requires” the Final Religious Exemption—the law is
clear.
To set out Defendants’ position in greater detail,
yet another review of Hobby Lobby is in order. There,
the Supreme Court held that “[t]he contraceptive mandate, as applied to closely held corporations, violates
RFRA.” 134 S. Ct. at 2785. The Supreme Court reasoned that the Contraceptive Mandate imposed a substantial burden on the religious exercise of the plaintiffs—closely held corporations—and that the burden

114a
was not the least restrictive means of providing contraceptive coverage to women. With specific regard to
the least restrictive means element, the Supreme
Court explained that the Agencies had already created
a less restrictive means to both ensure women had
contraceptive coverage and reduce the burden on religious objectors: the accommodation. Id. at 2781-82. As
noted, the accommodation allowed eligible religious
objectors to notify their healthcare administrator of
their religious objection, and the administrator would
then have to provide the legally required contraceptive
services directly to women covered under the employer’s plan. Because the accommodation “[did] not
impinge on the plaintiffs’ religious belief that providing insurance coverage for the contraceptives at issue
here violates their religion,” and still accomplished the
government’s goal of providing contraceptive coverage,
the Supreme Court found that the Contraceptive Mandate, as applied to the plaintiffs, was not the least restrictive means, and thus violated RFRA. Id. at 2782.
Importantly, the Supreme Court reserved on the question of “whether an approach of this type complies with
RFRA for purposes of all religious claims.” Id. Following Hobby Lobby, in Zubik, the Supreme Court declined to decide the question of whether the accommodation itself imposed a substantial burden on plaintiff
nonprofits’ religious exercise; instead, it remanded so
that the parties might come to a resolution on their
own, whereby the plaintiffs’ employees could receive
contraceptive coverage without the plaintiffs’ having
to submit the form required by the accommodation.
136 S. Ct. at 1559-60.
Based on these rulings, Defendants assert that
RFRA “requires” the Religious Exemption, because

115a
their previous attempts to satisfy RFRA with the accommodation failed. This theory rests on three legal
conclusions: (1) a blanket exemption from the Contraceptive Mandate for religious objectors strays no further than RFRA demands; (2) the accommodation did
not relieve the substantial burden identified by the Supreme Court in Hobby Lobby; and, (3) the contraceptive mandate imposes a substantial burden on publicly
traded corporations. But each of these views is either
incorrect under the law—as previously determined by
precedential rulings—or a significant extension of existing doctrine. Accordingly, Defendants have stepped
beyond the demands of RFRA, and the Final Religious
Exemption cannot be justified as a “requirement” of
RFRA.
As to the first conclusion—that a blanket exemption for religious objectors goes no further than RFRA
demands—a close read of Hobby Lobby demonstrates
that the Agencies’ conclusion is incorrect. There, the
Supreme Court explained that an exemption akin to
the Final Religious Exemption goes beyond RFRA’s requirements. 134 S. Ct. at 2775 n.30. More specifically,
prior to enacting the ACA, Congress had considered
but ultimately voted down a ‘conscience amendment,’
which, like the Final Religious Exemption, enabled an
employer or insurance provider to deny coverage based
on its asserted religious beliefs. Id. The Hobby Lobby
majority concluded it was “reasonable to believe that”
Congress rejected the amendment because such a
“blanket exemption” for religious objectors “extended
more broadly than the . . . protections of RFRA.” Id.
That is because “it would not have subjected religiousbased objections to the judicial scrutiny called for by
RFRA, in which a court must consider not only the
burden of a requirement on religious adherents, but

116a
also the government’s interest and how narrowly tailored the requirement is.” Id. Thus, as the Hobby
Lobby Court recognized, the blanket exemption the
Agencies have set forth “extend[s] more broadly than
the . . . protections of RFRA.” Plainly then, RFRA cannot “require” such a rule, which creates precisely this
blanket exemption.
As to the second conclusion—that the accommodation imposes a substantial burden on the religious exercise of objecting entities—Defendants are incorrect
under the law of this circuit. While the Supreme Court
has not resolved this precise issue, Third Circuit authority demonstrates that, contrary to the Agencies’
view, the accommodation does not impose a substantial burden. See Geneva Coll. v. Sec’y U.S. Dep’t of
Health & Human Servs., 778 F.3d 422, 442 (3d Cir.
2015), vacated and remanded sub nom. Zubik v. Burwell, 136 S. Ct. 1557 (2016) (per curiam); see also Real
Alternatives, 867 F.3d at 356 n.18. The accommodation
has been specifically upheld against a RFRA challenge
by the Third Circuit, first, and directly, in Geneva
Coll., 778 F.3d at 442, and second, by implication, in
Real Alternatives, 867 F.3d at 356 n.18. Defendants argue that Geneva is no longer good law because it was
vacated by the Supreme Court in Zubik. But the Supreme Court in Zubik specifically declined to decide
the merits of the RFRA challenge to the accommodation, by explicitly refraining from “decid[ing] whether
petitioners’ religious exercise has been substantially
burdened.” 136 S. Ct. at 1560. Instead, the Supreme
Court vacated Geneva (and related decisions from
other Circuit courts) and remanded for the express
purpose of allowing the parties “an opportunity to arrive at an approach going forward that accommodates
petitioners’ religious exercise while at the same time

117a
ensuring that women covered by petitioners’ health
plans receive full and equal health coverage, including
contraceptive coverage.” Id.
Following Zubik, the Third Circuit reiterated in
Real Alternatives that it “continue[s] to believe . . .
that the regulation at issue”—the accommodation—
“did not impose a substantial burden.” Real Alternatives, 867 F.3d at 356 n.18. Defendants characterize
this statement as dicta, and indeed, the issues in the
two cases were slightly distinct. In Geneva, nonprofits
eligible for the accommodation asserted that filling out
the accommodation form “facilitated” or “triggered”
the provision of contraceptives, thereby substantially
burdening their religious exercise. 778 F.3d at 427. In
Real Alternatives, employees of a secular employer
similarly asserted that the Contraceptive Mandate violated RFRA because their purchase of insurance enabled the provision of contraceptives. 867 F.3d at 359.
What Defendants overlook is that in Real Alternatives
the Third Circuit reaffirmed and reapplied the reasoning of Geneva. In both cases, the Third Circuit found
that there was no substantial burden on the plaintiffs’
religious exercise because their actions were insufficiently related to the provision of contraceptives and
“an independent obligation on a third party can[not]
impose a substantial burden on the exercise of religion
in violation of RFRA.” Id. at 364 (quoting Geneva, 778
F.3d at 440-41). Accordingly, applying the law of this
circuit as announced in Real Alternatives, the accommodation does not impose a substantial burden on religious exercise.
The third conclusion—that the Contraceptive Mandate imposes a substantial burden on the religious ex-

118a
ercise of publicly traded corporations—goes considerably beyond existing jurisprudence. In Hobby Lobby,
the Supreme Court found that the Contraceptive Mandate imposed a substantial burden on the specific
plaintiffs in that case: “closely held corporations, each
owned and controlled by members of a single family.”
134 S. Ct. at 2774. It explicitly declined to extend its
holding to publicly traded corporations, suggesting
that publicly traded corporations would be unlikely to
hold a singular, sincere religious belief:
These cases, however, do not involve publicly
traded corporations, and it seems unlikely that the
sort of corporate giants to which HHS refers will
often assert RFRA claims. HHS has not pointed to
any example of a publicly traded corporation asserting RFRA rights, and numerous practical restraints would likely prevent that from occurring.
For example, the idea that unrelated shareholders—including institutional investors with their
own set of stakeholders—would agree to run a corporation under the same religious beliefs seems improbable. In any event, we have no occasion in
these cases to consider RFRA’s applicability to such
companies.
Id. Defendants assert that it is reasonable to include
publicly traded corporations in the Religious Exemption. But, as Hobby Lobby makes clear, RFRA does not
“require” this expansion.
Thus, even if the Agencies are correct that the accommodation imposes a substantial burden on reli-

119a
gious employers, and that they must act, through regulation, to relieve that burden, 23 the Final Religious
2F

23 Defendants contend that the Final Rules—like earlier rules
that created the exemption and accommodation framework—are
merely the Agencies’ attempts to respond to the Supreme Court’s
decisions in Hobby Lobby, Wheaton College, and Zubik. After each
of those decisions, the Agencies promulgated generally applicable
regulations that expanded or modified the exemption and accommodation framework in an attempt to bring the Agencies’ actions
in line with what the Supreme Court said RFRA commands. According to Defendants, that is all that is happening here, the only
difference being the States have now challenged the Agencies’ authority to do so.

Fair enough. Nonetheless, this challenge raises a fundamental question: whether RFRA grants agencies independent authority to issue regulations of general applicability, like the Final Religious Exemption. It is worth noting that the scope of affirmative
authority, if any, that RFRA grants to agencies to issue regulations of general applicability— whether in response to judicial interpretations of RFRA or based on their own assessments of
RFRA’s application— is distinctly undetermined. Neither Hobby
Lobby, nor Wheaton College, nor Zubik resolved this question—
nor, does it appear, has any other court. The statutory language
does not provide a clear answer. On the one hand, RFRA “applies
to all Federal law, and the implementation of that law, whether
statutory or otherwise,” which could possibly be read to grant
agencies some authority to promulgate regulations on a generalized basis. 42 U.S.C. § 2000bb-3(a) (emphasis added). However,
RFRA is fundamentally a remedial measure, that by its terms
“provide[s] a claim or defense to persons whose religious exercise
is substantially burdened by government,” id. at § 2000bb(b)(2),
in a “judicial proceeding” in order to “obtain appropriate relief
against a government,” id. at § 2000bb-1(c) (emphasis added). See
also Hobby Lobby, 134 S. Ct. at 2775 n.30; Gonzales, 546 U.S. at
430-31, 434. Indeed, quite recently, the federal government suggested that RFRA does not permit an agency to create exemptions
to regulations absent a judicial determination, albeit in a case
that did not focus on this issue in great depth. See Iglesia Pentecostal, 718 F. App’x at 653 (recounting federal government’s position that “[a]bsent a judicial finding that the regulation violates

120a
Exemption sweeps further than RFRA would require.
The Agencies’ willingness to exceed the bounds of existing case law demonstrates that the Agencies have
cast aside RFRA’s mandate for “judicial scrutiny . . . in
which a court must consider not only the burden of a
requirement on religious adherents, but also the government’s interest and how narrowly tailored the requirement is.” Id. at 2775 n.30 (emphasis added). Accordingly, the Religious Exemption cannot be justified
under RFRA.
Because neither the ACA nor RFRA confer authority on the Agencies to promulgate the Religious Exemption, the rule is invalid. 24
23F

*

*

*

RFRA, neither the director of USCIS nor the AAO has any discretion to set aside any provision of those regulations.”) (brackets
omitted).
Put simply, it is not clear what, if any, affirmative authority
RFRA grants to agencies to issue regulations of general applicability. The parties do not point to any authority that resolves this
question. Nor has independent research yielded definitive answers. While this large question looms in the background, the
Court need not decide it here. Whatever the extent of an agency’s
authority under RFRA, the Agencies here have exceeded it in
promulgating the Final Religious Exemption.
24 Given its holding that Defendants violated the procedural and
substantive provisions of the APA in issuing the Final Rules, and
in view of the admonition that “courts should be extremely careful
not to issue unnecessary constitutional rulings,” American Foreign Serv. Ass’n v. Garfinkel, 490 U.S. 153, 161 (1989) (per curiam), it is unnecessary to proceed to the constitutional issues.
Similarly, because the Final Rules violate the substantive provisions of the APA for the reasons given, there is no need to reach
the States’ other statutory challenges to the Final Rules.

121a
In light of these conclusions, the States have
demonstrated an adequate likelihood of success on the
merits in support of their motion for preliminary relief.
3. Irreparable Harm
The second factor to consider in deciding the States’
motion is whether they have demonstrated that they
are likely to suffer irreparable harm in the absence of
a preliminary injunction. The Supreme Court’s “frequently reiterated standard requires plaintiffs seeking
preliminary relief to demonstrate that irreparable injury is likely in the absence of an injunction.” Winter,
555 U.S. at 22 (emphasis in original); see id. (“Issuing
a preliminary injunction based only on a possibility of
irreparable harm is inconsistent with the characterization of injunctive relief as an extraordinary remedy
that may be awarded only upon a clear showing that
the plaintiff is entitled to such relief.”). The States assert that they will suffer two forms of irreparable harm
in the absence of an injunction: (1) significant damage
to the States’ fiscal integrity; and (2) harm to the
health, safety, and wellness of the women of Pennsylvania and New Jersey. The Court finds both sufficient
to justify preliminary relief.
As to the harm to the States’ fiscal integrity, the
States’ evidence demonstrates that it is likely that the
Final Rules will cause direct and irreparable harm.
The States will become obligated to shoulder much of
the burden of providing contraceptive services to
women who lose contraceptive care because their
health plans take advantage of the expanded exemptions contained in the Final Rules. See Steinberg Decl.
¶¶ 27-29 (discussing Pennsylvania); Geenace Decl.
¶¶ 15-17 (discussing New Jersey). Such women will

122a
seek contraceptive services elsewhere and, as Defendants noted in issuing the IFRs, may turn to “multiple . . . State[] and local programs that provide free or
subsidized contraceptives for low-income women” for
alternative coverage. See 82 Fed. Reg. at 47,803. In
Pennsylvania, these state funded programs include:
Medicaid, called “Medical Assistance;” the Family
Planning Service Program; and the Commonwealth’s
network of clinics funded under the Title X grant program. See Allen Decl. ¶¶ 3-18; Steinberg Decl. ¶ 16.
New Jersey funds similar programs through Medicaid,
known as “NJ Family Care,” and the State’s Plan First
Program. Adelman Dec. ¶¶ 9-14. As women in the
States lose contraceptive coverage through their
health insurance plans and turn to state-funded programs, it is likely that the States will bear the added
financial burden occasioned by the increase in women
who need contraceptive care coverage. See Mendelsohn Decl. ¶¶ 15-18; Allen Decl. ¶ 23; Geenace Decl.
¶¶ 15-18.
The States’ harm is not merely speculative; it is actual and imminent. The Final Rules estimate that at
least 70,500 women will lose coverage. See 83 Fed.
Reg. at 57,578. 25 Thus, the only serious disagreement
is not whether the States will be harmed, but how
much. Though Defendants argue that the States have
not identified any individual who has lost coverage already, there is no need to wait for the axe to fall before
an injunction is appropriate, particularly where Defendants have estimated that it is about to fall on
thousands of women—and, as a corollary, on the
24F

25 The States argue that there is reason to believe the number is
significantly higher because organizations taking advantage of
the exemption need not inform the Agencies of their plan to do so.

123a
States. See Texas, 809 F.3d at 186 (granting relief
based on predicted harm to States’ fiscs).
While “loss of money” is generally insufficient to
merit a preliminary injunction, see Instant Air Freight
Co. v. C.F. Air Freight, Inc., 882 F.2d 797, 801 (3d Cir.
1989), here, the harm to the States’ fiscs is irreparable
because they will not be able to recover any economic
damages that result from the Final Rules. That is because a party—like the States here—which alleges an
APA violation may not recover monetary damages
from the federal government on that claim. See 5
U.S.C. § 702 (permitting relief “other than money
damages”); California, 911 F.3d at 581 (finding irreparable harm in APA case on similar grounds). Therefore, if the Final Rules are ultimately struck down as
violative of the APA, the States will not be able to recoup any money they expend on contraceptive care in
the interim. In such circumstances, a preliminary injunction is appropriate. See, e.g., N.J. Retail Merchants Ass’n v. Sidamon-Eristoff, 669 F.3d 374, 388
(3d Cir. 2012) (holding that a preliminary injunction is
appropriate where a movant could not recover damages from a State due to sovereign immunity).
In addition to pecuniary harm, the States also
stand to suffer injury to their interest in protecting the
safety and well-being of their citizens. See Alfred L.
Snapp, 458 U.S. at 607 (observing that a State has a
“quasi-sovereign interest in the health and wellbeing—both physical and economic—of its residents in
general”). The States’ witnesses explained that employers taking advantage of the Final Rules will result
in more women losing no-cost contraceptive coverage.
Mendelsohn Decl. ¶¶ 14-15; Adelman Decl. ¶ 20. As a
result, women will likely forgo contraceptive services

124a
or seek out less expensive and less effective types of
contraceptive services in the absence of no-cost insurance coverage. Weisman Decl. ¶¶ 45-48; Chuang Decl.
¶¶ 36-39; see also Adam Sonfield, What is at Stake
with the Federal Contraceptive Coverage Guarantee?,
20 Guttmacher Policy Review 8, 9 (2017) (reporting
that women cite cost as a significant factor in determining whether to purchase contraceptive services
and which contraceptive services to use). Disruptions
in contraceptive coverage will lead to women suffering
unintended pregnancies and other medical consequences. Butts Decl. ¶¶ 57-59; Institute of Medicine,
Clinical Prevention Services at 107 (explaining that
contraceptive services are used to treat menstrual disorders, acne, hirsutism, and pelvic pain, in addition to
assisting family planning and birth spacing). 26 The
negative effects of even a short period of decreased access to no-cost contraceptive services are irreversible.
25F

The States have therefore showed that they are
likely to suffer irreparable harm as a result of the
Rules’ impact on both the States’ fiscs and the welfare
of the States’ citizens.
4. Balance of the Equities
The third factor is that the balance of the equities
tips in favor of granting a preliminary injunction. “Balancing the equities” is jurisprudential “jargon for
choosing between conflicting public interests.”
Youngstown Sheet & Tube Co. v. Sawyer, 343 U.S. 579,

26 Increased unplanned pregnancies will also inflict additional pecuniary harm on the States. See Steinberg Decl., ¶ 30 (discussing
study finding that 68% of unplanned births are paid for by public
insurance programs, compared to only 38% of planned births).

125a
609 (1943) (Frankfurter, J., concurring). Here, Congress has already struck the balance: the Women’s
Health Amendment was intended to ensure women received no-cost coverage for preventive services, which
includes contraceptives. As lead sponsor of the
Women’s Health Amendment, Senator Barbara
Mikulski, explained: the amendment “leaves the decision of which preventive services a patient will use between the doctor and the patient.” 155 Cong. Rec.
S11988 (Nov. 30, 2009) (statement of Sen. Barbara
Mikulski). Congress enacted the Women’s Health
Amendment to guarantee that “the decision about
what is medically appropriate and medically necessary is between a woman and her doctor.” Id. Where
“Congress itself has struck the balance, [and] has defined the weight to be given the competing interests, a
court of equity is not justified in ignoring that pronouncement under the guise of exercising equitable
discretion.” Youngstown Sheet, 343 U.S. at 609-10.
Here, given the States’ clear interest in securing
the health and well-being of women residents and limiting their costs for contraceptive services, the balance
of the equities weighs in their favor. Defendants will
not be substantially prejudiced by a preliminary injunction. If the Final Rules were issued in violation of
applicable law, they will have suffered no harm. If Defendants ultimately prevail, then a preliminary injunction will have merely delayed their preferred regulatory outcome.
5. Public Interest
“If a plaintiff proves both a likelihood of success on
the merits and irreparable injury, it almost always
will be the case that the public interests favors preliminary relief.” Issa v. Sch. Dist. of Lancaster, 847 F.3d

126a
121, 143 (3d Cir. 2017) (internal quotation marks
omitted). So it proves here. A preliminary injunction is
unquestionably in the public interest because it maintains the status quo pending the outcome of this litigation. The Final Rules permit any entity to opt out
of coverage after 30 to 60 days’ notice to plan members.
This litigation will not conclude in that short span. A
preliminary injunction will maintain the status quo:
those eligible for exemptions or accommodations prior
to October 6, 2017 will maintain their status; those
with injunctions preventing enforcement of the Contraceptive Mandate will maintain their injunctions; 27
those alleging RFRA violations may pursue “Judicial
Relief;” and those with coverage will maintain their
coverage as well.
26F

D. Remedy
Before concluding, an additional word is required
on the scope of the preliminary injunction to be issued.
When the IFRs were initially before this Court, they
were enjoined generally, without any specific geographic or temporal limitation. See Pennsylvania, 281
F. Supp.3d at 585.
Since then, however, much has been made about
the propriety (or impropriety) of so- called nation-wide
injunctions. See, e.g., Trump v. Hawaii, 138 S. Ct.
2392, 2425 (2018) (Thomas, J., concurring); Zayn Siddique, Nationwide Injunctions, 117 Colum. L. Rev.
2095 (2017); Samuel L. Bray, Multiple Chancellors:
For example, Defendant-Intervenor has secured a permanent
injunction, preventing enforcement of the Contraceptive Mandate against it. See Little Sisters of the Poor v. Azar, No. 1:13-cv02611, Dkt. 82 (D. Colo. May 29, 2018). Nothing in this Court’s
ruling will disturb that order.

27

127a
Reforming the National Injunction, 131 Harv. L. Rev.
417 (2017). In light of this increased focus on the
proper exercise of district courts’ remedial powers, it
is prudent to explain in some detail why a nation-wide
injunction is appropriate here.
First, it is well established that a district court sitting in equity has the authority to enter a nation-wide
injunction. See Leman v. Krentler-Arnold Hinge Last
Co., 284 U.S. 448, 451 (1932) (holding district court’s
order “binding upon the respondent, not simply within
the District of Massachusetts, but throughout the
United States”); Texas, 809 F.3d at 188 (“[T]he Constitution vests the District Court with ‘the judicial power
of the United States.’ That power is not limited to the
district wherein the court sits but extends across the
country.”) (quoting U.S. Const. art. III, § 1); McLendon
v. Cont’l Can Co., 908 F.2d 1171, 1182 (3d Cir. 1990)
(holding “[f]ull relief required a nationwide injunction”). The issue, then, is whether a nation-wide injunction is appropriate here, given the facts of this specific case.
“In shaping equity decrees, the trial court is vested
with broad discretionary power.” Lemon v. Kurtzman,
411 U.S. 192, 200 (1973) (plurality opinion). That is
because crafting equitable remedies is an inexact science; instead, “equitable remedies are a special blend
of what is necessary, what is fair, and what is workable.” Id.; see also Trump v. Int’l Refugee Assistance
Project, 137 S. Ct. 2080, 2087 (2017) (“Crafting a preliminary injunction is an exercise of discretion and
judgment, often dependent as much on the equities of
a given case as the substance of the legal issues it presents.”). As Justice Douglas succinctly put it seventyfive years ago: “[t]he essence of equity jurisdiction has

128a
been the power of the Chancellor to do equity and to
mould each decree to the necessities of the particular
case. Flexibility rather than rigidity has distinguished
it.” Hecht Co. v. Bowles, 321 U.S. 321, 329 (1944).
The Supreme Court articulated the relevant standard for determining the proper scope of a preliminary
injunction in Califano v. Yamasaki, 442 U.S. 682
(1979), stating that “injunctive relief should be no
more burdensome to the defendant than necessary to
provide complete relief to the plaintiffs.” Id. at 702
(emphasis added). Subsequent Supreme Court and
lower court decisions have treated the “no more burdensome than necessary” rubric as the “general rule”
for determining whether an injunction is overbroad.
Madsen v. Women’s Health Center, Inc., 512 U.S. 753,
765 (1994); see also Trump, 137 S. Ct. at 2090
(Thomas, J., concurring in part and dissenting in
part); see also McLendon, 908 F.2d at 1182 (“In granting injunctive relief, the court’s remedy should be no
broader than necessary to provide full relief to the aggrieved plaintiff.”). 28
27F

The Califano standard requires district courts to
balance the competing principles of providing complete relief to meritorious plaintiffs against a defendant’s right to be free from overly burdensome injunctions. The complete relief requirement reflects the
“well-settled principle that the nature and scope of the
remedy are to be determined by the violation.” Milliken v. Bradley, 433 U.S. 267, 281-82 (1977). Where a
28 In Califano, the Court indicated that the “no more burdensome
than necessary” standard is a general rule of injunctions, regardless of whether a nation-wide class-action is certified. See 442
U.S. at 702.

129a
violation has been found, “the remedy does not ‘exceed’
the violation if the remedy is tailored to cure the ‘condition that offends [the law.]’” Id. at 282 (quoting Milliken v. Bradley, 418 U.S. 717, 738 (1974)).
The complete relief principle explains why, in APA
cases, “when a reviewing court determines that agency
regulations are unlawful, the ordinary result is that
the rules are vacated—not that their application to the
individual petitioners is proscribed.” Nat’l Min. Ass’n
v. U.S. Army Corps of Eng’rs, 145 F.3d 1399, 1409
(D.C. Cir. 1998) (internal quotation marks omitted
and emphasis added). Where “agency action . . . consist[s] of a rule of broad applicability” that violates the
strictures of the APA, Lujan v. Nat’l Wildlife Fed’n,
497 U.S. 871, 913 (Blackmun, J., dissenting), 29 a remedy “tailored to cure the condition that offends [the
law]” may be correspondingly broad, Milliken, 433 U.S
at 282 (internal quotation marks omitted). Thus, when
an individual challenges agency action and prevails,
“the result is that the rule is invalidated, not simply
that the court forbids its application to a particular individual.” Lujan, 497 U.S. at 913 (Blackmun, J., dissenting). 30 Put differently, the national character of an
28F

29F

In Nat’l Min. Ass’n, the D.C. Circuit explained that, while Justice Blackmun’s observations came in a dissent, they “apparently
express[ed] the view of all nine Justices on this question.” 145
F.3d at 1409.
29

30 Indeed, at least one scholar has argued that the language of the
APA—providing that a reviewing court “shall . . . hold unlawful
and set aside” agency action that is arbitrary or capricious, 5
U.S.C. § 706—requires courts to vacate all unlawful agency actions. See Brian S. Prestes, Remanding Without Vacating Agency
Action, 32 Seton Hall L. Rev. 108, 110 (2001).

130a
APA violation “ordinar[ily]” demands a national remedy. Nat’l Min. Ass’n, 145 F.3d at 1409.
At the same time, the Supreme Court has warned
that injunctions should be “no more burdensome to the
defendants than necessary.” Califano, 442 U.S. at 702.
Over fifty years ago, Justice Fortas cautioned:
[A]rming each of the federal district judges in this
Nation with power to enjoin enforcement of regulations and actions under the federal law designed to
protect the people of this Nation. . . is a general
hunting license; and I respectfully submit, a license
for mischief because it authorizes aggression which
is richly rewarded by delay in the subjection of private interests to programs which Congress believes
to be required in the public interest.
Toilet Goods Ass’n v. Gardner, 387 U.S. 167, 183
(1967) (Fortas, J., dissenting). More recently, the Supreme Court has warned that overbroad injunctions
“have detrimental effect[s] by foreclosing adjudication
by a number of different courts and judges,” which “often will be preferable in order to gain the benefit of
adjudication by different courts in different factual
contexts.” Califano, 442 U.S. at 701-02; California,
911 F.3d at 583 (raising same concern). In addition,
courts worry that overly broad injunctions invite “forum shopping, which hinders the equitable administration of laws.” California, 911 F.3d at 583 (citing
Bray, Multiple Chancellors, 131 Harv. L. Rev. at 45859).
The concerns about overbroad injunctions carry
into APA cases. Courts have, at times, resisted granting nation-wide relief, even where “agency action . . .
consist[s] of a rule of broad applicability.” Lujan, 497

131a
U.S. at 913 (Blackmun, J., dissenting); see, e.g., California, 911 F.3d at 584 (finding an APA violation, but
concluding “the scope of the preliminary injunction is
overbroad”); Baeder v. Heckler, 768 F.2d 547, 553 (3d
Cir. 1985) (holding regulation invalid, but determining
district court did not have “the authority to issue an
injunction aimed at controlling [Agency’s] behavior in
every . . . case in the country”). Thus, while an APA violation may “ordinar[ily]” result in a nation-wide remedy, the potential dangers of an overbroad injunction
must still be weighed when crafting a remedy for an
APA violation.
The upshot is that striking the appropriate balance
between providing complete relief to meritorious
plaintiffs, on the one hand, and protecting defendants
from overly burdensome injunctions, on the other, is
necessarily a difficult line-drawing exercise, even in
APA cases.
To see why, recall the injury the States stand to
suffer from enforcement of the Final Rules: both Pennsylvania and New Jersey complain that, because enforcement of the Final Rules will result in “numerous
insureds—and their female dependents—[losing] the
medical coverage for contraceptive care required by
the Affordable Care Act,” the States will suffer “significant, direct and proprietary harm” in the form of increased use of state-funded contraceptive services as
well as increased costs associated with unintended
pregnancies. Affording complete relief to the States
would require the Court to enjoin enforcement of the

132a
Final Rules as to all entities that “offer[] and arrange[]” health insurance to insureds residing in
Pennsylvania or New Jersey. 31
30F

But drafting—much less enforcing—a preliminary
injunction that runs only to those entities is nigh impossible. Neither the Court nor the parties can readily
ascertain what those entities are or whether they intend to take advantage of the exemption, given that
providing notice to the Agencies is only optional under
the Final Rules. At the same time, the Court cannot,
consistent with Rule 65 of the Federal Rules of Civil
Procedure simply and broadly enjoin “all entities that
offer and arrange health insurance to insureds residing in Pennsylvania or New Jersey.” That is because
“[e]very order granting an injunction . . . must . . . state
its terms specifically and describe in reasonable detail—and not by referring to the complaint or other
document—the act or acts restrained.” Fed. R. Civ. P.
65 (internal punctuation omitted).
Given the challenges associated with crafting a
“perfect” injunction, district courts tend to rely on geographic proxies when tailoring a remedy. For example, the Ninth Circuit—hearing an appeal from a district court decision that also enjoined the enforcement
of the IFRs nation- wide—held that “an injunction that

31 Even that may not provide complete relief because a non-resident that lost contraceptive coverage may try to take advantage
of the States’ programs. Cf. Whole Woman’s Health v. Hellerstedt,
136 S. Ct. 2292, 2304 (2016) (explaining that, following the enactment of a Texas regulation that would force the closure of abortion clinics in west Texas, “the Court of Appeals said that women
in El Paso wishing to have an abortion could use abortion providers in nearby New Mexico”).

133a
applies only to the plaintiff states would provide complete relief to them.” California, 911 F.3d at 584; see
also California v. Health & Human Servs., — F. Supp.
—, No. 17-cv-5783, ECF No. 234 (N.D. Cal. 2019) (enjoining enforcement of Final Rules within plaintiff
States only). Defendants similarly argue that, if the
Final Rules are to be enjoined, then the injunction
should be limited to Pennsylvania and New Jersey.
The problem with the Ninth Circuit’s approach,
however, is that it simply does not afford the meritorious plaintiffs—the States—complete relief. Hundreds
of thousands of the States’ citizens travel across state
lines—to New York, Ohio, Delaware, Maryland, West
Virginia and even further afield—to work for out-ofstate entities. See Amici Curiae Brief of Massachusetts, et al. in Support of Plaintiffs’ Motion for a Preliminary Injunction, at 13-14 (2019) (noting that
“548,040 New Jersey residents, or 14% of the workforce, and 299,970 Pennsylvania residents, or 5.4% of
the workforce” travel to jobs in other states) (citing
U.S. Census Bureau, Out-of-State and Long Commutes: 2011, American Community Survey Reports, at
10 (Feb. 2013), available at https://www2.census.gov/library/publications/2013/acs/acs-20.pdf). Furthermore, with their many universities and educational institutes, the States take in tens of thousands
of out-of-state students each year. Id. at 14 (noting
that Pennsylvania takes in 32,000 out-of-state students alone) (citing Nat’l Ctr. for Education Statistics,
Residence and Migration of All First-Time Degree/Certificate-Seeking Undergraduates (2017),
available
at
https://nces.ed.gov/programs/digest/d17/tables/dt17_309.20.asp?current=ye).

134a
An injunction limited to Pennsylvania and New
Jersey would, by its terms, not reach Pennsylvania
and New Jersey citizens who work for out-of-state employers. Despite residing in the States, those out-ofstate workers could lose contraceptive coverage if the
out-of-state employers took advantage of the exemptions included in the Final Rules, resulting in proprietary harm to the States. Nor would an injunction limited to the States cover out-of-state students attending
school in Pennsylvania and New Jersey, who may not
be considered “residents” of the States. Such students,
by remaining on their parents’ out-of-state employerbased health plans or other health insurance through
their State of “residency,” could lose contraceptive coverage but still turn to in-state publicly-funded clinics
for contraceptive coverage. Put differently, “an injunction that applies only to the plaintiff states” would not
“provide complete relief to them” because it would not
“prevent the economic harm extensively detailed in
the record.” California, 911 F.3d at 584.
Injunctions that are intermediate in geographic
scope—that is, applicable beyond the States but not
nation-wide—encounter the same problems in ensuring “complete relief to the plaintiffs.” Madsen, 512 U.S.
at 765. An injunction limited to the Third Circuit, for
example, would fail to account for the thousands of
Pennsylvania and New Jersey citizens that commute
to neighboring or nearby states outside the Third Circuit for work. Similarly, an injunction covering the
surrounding states would not account for the fact that
the States draw out-of-state students from across the
nation.
At the same time, the Court recognizes that, on the
record before it, a nation-wide injunction may prove

135a
“broader than necessary to provide full relief” to the
States. McLendon, 908 F.2d at 1182. The States concede, for example, that there is no evidence that any
citizen of the States physically commutes to New Mexico, so an injunction that covers the Land of Enchantment appears “broader than unnecessary.” Nor have
the States presented evidence of a New Mexican that
currently attends a Pennsylvania or New Jersey institute of higher learning, who may lose her contraceptive coverage through her out-of-state insurance. The
same can be said for a host of other states.
Ultimately, crafting a remedy that provides “complete relief to the plaintiffs,” while being “no more burdensome to the defendant than necessary” would require empirical data—the working conditions of each
and every citizen of the States—that is simply not ascertainable. 32 In the absence of such information, the
Court must exercise “discretion and judgment,”
Trump, 137 S. Ct. at 2087, in balancing the competing
risks and uncertainties associated with either a potentially under- or over-inclusive remedy, bearing in mind
the maxim that “[w]e should not allow the infeasible
perfect to oust the feasible good.” Resorts Int’l Hotel
Casino v. NLRB, 996 F.2d 1553, 1558 (3d Cir. 1993)
(internal quotation marks and alternations omitted).
31F

On balance, the Court finds that, in this case, potential over-inclusiveness is the more prudent route.
For one, anything short of a nation-wide injunction
would likely fail to provide the States “complete relief.”
This is neither an explicit or implicit critique of the parties.
Rather, it is the frank observation that crafting a perfect remedy
would require information that would be insurmountable to
gather and maintain.

32

136a
Cf. Texas, 809 F.3d at 188 (“[T]here is a substantial
likelihood that a geographically-limited injunction
would be ineffective because DAPA beneficiaries
would be free to move among states,” which would
leave Texas open to potential injury); see also Siddique, Nationwide Injunctions, 117 Colum. L. Rev. at
2146-47 (“If one agrees with the district court that
Texas suffers some injury from having deferred action
beneficiaries within its territorial boundaries, the only
way to afford complete relief to Texas and prevent any
deferred action beneficiaries from making their way to
Texas is by enjoining the grant of deferred action nationwide.”). While a nation-wide injunction may prove
overbroad, there is no more geographically limited injunction that protects the States from potential harm.
Second, it is far from clear how burdensome a nation-wide injunction would be on Defendants, given
that when “agency regulations are unlawful, the ordinary result is that the rules are vacated—not that
their application to the individual petitioners is proscribed.” Nat’l Min. Ass’n, 145 F.3d at 1409.
Third, one of the risks associated with a nationwide injunction—namely, “foreclosing adjudication by
a number of different courts,” Califano, 442 U.S. at
701-02—is not necessarily present here, as the parallel litigation in the Ninth Circuit evidences. See also
Spencer E. Amdur & David Hausman, Nationwide Injunctions and Nationwide Harm, 131 Harv. L. Rev. F.
49, 53 n.27 (2017) (noting that “in practice, nationwide
injunctions do not always foreclose percolation,” and
giving several recent examples).
Fundamentally, given the harm to the States
should the Final Rules be enforced—numerous citi-

137a
zens losing contraceptive coverage, resulting in “significant, direct and proprietary harm” to the States in
the form of increased use of state-funded contraceptive
services, as well as increased costs associated with unintended pregnancies—a nation-wide injunction is required to ensure complete relief to the States.
An appropriate order follows.
January 14, 2019

BY THE COURT:
/s/Wendy Beetlestone, J.
WENDY BEETLESTONE, J.

138a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
COMMONWEALTH OF
PENNSYLVANIA,
Plaintiff,
v.
DONALD J. TRUMP,
DONALD J. WRIGHT,
UNITED STATES
DEPARTMENT OF HEALTH
AND HUMAN SERVICES,
STEVEN T. MNUCHIN,
DEPARTMENT OF THE
TREASURY, RENE
ALEXANDER ACOSTA AND
THE UNITED STATES
DEPARTMENT OF LABOR,

CIVIL ACTION
NO. 17-4540

Defendants.
OPINION
The interests at stake in this litigation are great,
but the issues that must be decided here on Plaintiff’s
Motion for a Preliminary Injunction are narrow. This
case implicates access to healthcare, religious
freedom, women’s rights, and executive power.
However, the Court currently addresses only two
precise questions: Did the Defendants here follow the
proper procedure in issuing new rules that greatly
expand exemptions to the law requiring health plans
to cover women’s preventive services at no cost, and

139a
do the new rules contradict the text of the statute
that they are meant to interpret?
Plaintiff, the Commonwealth of Pennsylvania
(“Commonwealth”), seeks to enjoin enforcement of
two Interim Final Rules (“New IFRs”), referred to as
the Moral Exemption Rule and the Religious
Exemption Rule, modifying the Affordable Care Act.
The New IFRs were issued by the Departments of
Health and Human Services, the Department of
Treasury and the Department of Labor on October 6,
2017. They permit employers to opt out of providing
no-cost contraceptive coverage on the basis of
sincerely held religious beliefs or sincerely held moral
convictions. The parties here have vastly different
perspectives on the import of the New IFRs. The
Defendants assert that they are meant to permit a
small number of religious objectors to opt out of
covering contraceptive services in their employersponsored health plans because the requirement to
provide contraceptive coverage imposes a substantial
burden on their exercise of religion. Quite to the
contrary, the Commonwealth argues that the Rules
allow almost any employer to withhold insurance
coverage for contraceptive services from their female
employees, thus impacting millions of women – all in
contravention of the Affordable Care Act and the
United States Constitution.
The Commonwealth has sued President Donald J.
Trump, United States Secretary of Health and
Human Services Donald J. Wright, 1 United States
Secretary of the Treasury Steven T. Mnuchin, and
0F

1 Eric D. Hargan substitutes Donald J. Wright pursuant to Rule
25(d) of the Federal Rules of Civil Procedure.

140a
United States Secretary of Labor Rene Alexander
Acosta in their official capacities, as well as each of
their agencies (collectively, “Defendants”). It now
seeks to enjoin the Defendants from enforcing the
New IFRs for a variety of constitutional and
statutory violations. For the reasons explained below,
the Motion for a Preliminary Injunction shall be
granted.
I. Background 2
1F

In March 2010, Congress enacted the Affordable
Care Act. See Patient Protection and Affordable Care
Act (ACA), Pub. L. No. 111-148, 124 Stat. 119 (2010).
The ACA included a provision called the Women’s
Health Amendment, which mandated that group
health planshealth insurance issuers offering group
or individual health insurance provide coverage for
preventive health services and screenings for women
without cost-sharing responsibilities. The preventive
services that must be covered include, “with respect
to women, such additional preventive care and
screenings . . . as provided for in comprehensive
guidelines supported by the Health Resources and
Services Administration (HRSA).” See 42 U.S.C. §
300gg-13(a)(4). Thus, Congress left the decision about
which preventive care and screenings should be
covered by the ACA up to the HRSA, which is an
agency of the Department of Health and Human
Services (HHS).

The factual statements found here and elsewhere in the
opinion constitute this Court’s findings of fact, as required
under Rule 52(a) of the Federal Rules of Civil Procedure,
regardless of any heading or lack thereof.

2

141a
The HRSA commissioned the Institute of
Medicine (“the Institute”) to issue recommendations
identifying what specific preventive women’s health
services should be covered under the ACA’s mandate.
See 77 Fed. Reg. 8725-26. The Institute is an arm of
the National Academy of Sciences, an organization
that Congress established for the explicit purpose of
furnishing advice to the federal government. See Pub.
Citizen v. Dep’t of Justice, 491 U.S. 440, 460 n.11
(1989). The Institute, in turn, convened a committee
of sixteen members (the “Committee”), including
specialists in disease prevention, women’s health
issues, adolescent health issues, and evidence-based
guidelines, to formulate specific recommendations.
The Committee defined preventive health services to
include measures “shown to improve well-being
and/or decrease the likelihood or delay the onset of a
targeted disease or condition.” Institute, Clinical
Prevention Services for Women: Closing the Gaps 23
(2011) (“Institute Report”).
On July 19, 2011, the Institute, through the
Committee, issued a comprehensive report that
identified health services that should be covered
under the Women’s Health Amendment. Id. at 8-12.
It recommended that the ACA cover “the full range of
[FDA]-approved contraceptive methods, sterilization
procedures, and patient education and counseling for
women with reproductive capacity.” Id. at 109-10.
The Committee considered: (1) the prevalence of
unintended pregnancy in the United States; (2)
potential health risks of pregnancy; (3) that
decreased intervals between pregnancies lead to an
“increased risk of adverse pregnancy outcomes”; (4)
the effectiveness of contraceptives in preventing
unintended pregnancy; (5) the health benefits of

142a
contraceptives for other diseases and conditions; and
(6) the barrier to contraceptive access presented by
its cost. See id. at 104-10.
Original Religious Exemption
On August 1, 2011, HRSA adopted the Institute’s
recommendations in guidelines, which required,
among other things, that plans must cover all FDAapproved contraceptive methods (“Contraceptive
Mandate”). 45 C.F.R. § 147.130(a)(1)(iv); 29 C.F.R. §
2590.715- 2713(a)(1)(iv); 26 C.F.R. § 54.98152713(a)(1)(iv). This requirement applied to all health
insurers offering individual or group insurance, as
well as all group health plans, with the exception of
certain “grandfathered” plans. See 29 C.F.R. §
2590.715-1251. Simultaneously, the Departments of
HHS, Labor, and the Treasury (“the Agencies” or
“Defendant Agencies”) also promulgated an Interim
Final Rule (“IFR”) exempting certain religious
employers from providing contraceptive services
(“Original Religious Exemption”). See 76 Fed. Reg.
46621. To take advantage of that exemption, an
employer must: (1) have the inculcation of religious
values as its purpose; (2) primarily employ people
who share its religious tenets; (3) primarily provide
services to persons who share its religious tenets;
and, (4) be a church, its integrated auxiliary, or a
convention or association of a church, all of which are
exempt from taxation under 26 U.S.C. § 501(a). See
id. at 46623.
Second Religious Exemption and Accommodation
Process
Following several legal challenges to the
Contraceptive Mandate, the Agencies began to

143a
consider changes to the religious exemptions. In
March 2012, they issued an Advanced Notice of
Proposed Rulemaking concerning a potential
accommodation process for religious objectors to the
Contraceptive Mandate. 77 Fed. Reg. 16501. After a
comment period, they then issued a Notice of
Proposed Rulemaking proposing changes to the
definition of religious organizations in the exemption
and creating an accommodation process for religious
objectors to the Contraceptive Mandate. 78 Fed. Reg.
8456. The Agencies published final regulations on
July 2, 2013 (“Second Religious Exemption”). See 78
Fed. Reg. 39870. These regulations redefined a
religious employer to only refer to churches, their
integrated
auxiliaries,
and
conventions
or
associations of churches, eliminating the need to
fulfill the first three requirements of the prior
regulations of the exemption. Upon a covered entity
claiming
the
exemption,
the
provider
or
administrator would then have to provide the legally
required contraceptive services directly to women
covered under the employer’s plan (“Accommodation
Process”).
Third Religious Exemption and Accommodation
Process
Following enactment of the ACA and the Second
Religious Exemption, the Supreme Court granted
certiorari to decide whether the Contraceptive
Mandate violated the Religious Freedom Restoration
Act, 42 U.S.C. § 2000bb-1 (RFRA). In Burwell v.
Hobby Lobby Stores, Inc., 134 S. Ct. 2751 (2014), the
Supreme Court concluded that applying the
Contraceptive Mandate to closely held corporations
violated RFRA. In Wheaton Coll. v. Burwell, 134 S.

144a
Ct. 2806 (2014), the Court identified an alternative
process by which Wheaton College could comply with
the Contraceptive Mandate without informing its
health insurer or third-party administrator: The
Court permitted Wheaton College to “inform[] the
Secretary of Health and Human Service in writing
that it . . . has religious objections to providing
coverage for contraceptive services. Id. at 2807. In
response to Hobby Lobby and Wheaton College, the
Agencies issued a third set of IFRs to augment the
Accommodation Process to comply with the Supreme
Court’s orders. See 79 Fed. Reg. 51092, 51118
(expanding the Accommodation Process to include
for-profit
corporations
and
to
adjust
the
Accommodation Process). The Agencies finalized the
IFRs on July 14, 2015 (“Third Religious Exemption”).
See 80 Fed. Reg. 41318, 41324.
One year later, the Supreme Court granted
certiorari to decide whether the Accommodation
Process violated RFRA. The question before the
Supreme Court was whether the requirement to
notify plaintiffs’ insurers of their religious objections
substantially burdened their exercise of religion in
violation of RFRA. The Supreme Court did not
address the question head on. Rather, it vacated the
judgments of the courts of appeals and remanded the
cases to provide the parties “an opportunity to arrive
at an approach going forward that accommodates
petitioners’ religious exercise while at the same time
ensuring that women covered by petitioners’ health
plans ‘receive full and equal health coverage,
including contraceptive coverage.’” Zubik v. Burwell,
136 S. Ct. 1557, 1560 (2016). The Agencies then
issued a Request for Information (“RFI”) seeking
public comment on options for modifying the

145a
Accommodation Process in light of Zubik. See 81 Fed.
Reg. 47741. On January 9, 2017, the Department of
Labor announced that it was unable to develop an
approach that could “resolve the concerns of religious
objectors, while still ensuring that the affected
women receive full and equal health coverage,
including contraceptive coverage.” Department of
Labor,
FAQs
about
Affordable
Care
Act
Implementation Part 36 (Jan. 9, 2017).
Executive Order 13798: “Promoting Free Speech and
Religious Liberty”
On May 4, 2017, President Trump issued an
Executive Order “Promoting Free Speech and
Religious Liberty.” Exec. Order No. 13798, 82 Fed.
Reg. 21675. The Order directed the Agencies to
“consider issuing amended regulations, consistent
with applicable law, to address conscience-based
objections
to
the
preventive-care
mandate
promulgated
under
[the
Women’s
Health
Amendment.]” Id. § 3.
Fourth Religious Exemption and Accommodation
Process
The Agencies issued the New IFRs on October 6,
2017, citing a goal of being “consistent with the
President’s Executive Order and the Government’s
desire to resolve the pending litigation and prevent
future litigation from similar plaintiffs.” See 82 Fed.
Reg. 47792 (“Religious Exemption Rule”); 82 Fed.
Reg. 47838 (“Moral Exemption Rule”). The New IFRs
embodied two exemptions to the Contraceptive
Mandate. First, under the Religious Exemption Rule,
any non-profit or for-profit entity, whether closely
held or publicly traded, may claim the exemption

146a
based on sincerely held religious beliefs. Second,
under the Moral Exemption Rule, any non-profit or
for-profit entity, so long as it is closely held, may
claim the exemption based on sincerely held moral
convictions.
The Religious Exemption and Moral Exemption
Rules make significant changes from prior
exemptions. First, the new rules greatly expand the
scope of who may opt out of the Contraceptive
Mandate.
Second,
the
rules
render
the
Accommodation Process optional. Third, they
eliminate requirements to provide notice of an intent
to take advantage of either exemption. In other
words, entities that stop providing contraceptive care
“do not need to file notices or certifications of their
exemption and [the Exemption Rules] do not impose
any new notice requirements on them.” 3 See 82 Fed.
Reg. 47850, 47858. Fourth, the New IFRs permit
employers to opt out of coverage on the basis of
“sincerely held” religious beliefs and moral
convictions.
2F

The Agencies issued the new rules as IFRs and
requested post-issuance comments by December 5,
2017, 60 days after they were issued. The
Commonwealth filed this suit in the interim seeking
to enjoin enforcement of the New IFRs because: (1)
they fail to comply with the notice-and-comment
procedures required by the Administrative Procedure
Act (“APA”), 5 U.S.C. § 551, et seq.; (2) they are
The Employee Retirement Income Security Act of 1974
(ERISA) still requires group health plans to notify plan
participants of any change in coverage at least 30 or 60 days in
advance. See 77 Fed. Reg. 8667.

3

147a
“arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law” in violation of
the substantive provisions of the APA, 5 U.S.C. §
706(2)(A); (3) they violate Title VII of the Civil Rights
Act, 42 U.S.C. § 2000-2(a); (4) they violate the Equal
Protection Guarantee of the Fifth Amendment, U.S.
Const. amend. V; and, (5) they violate the
Establishment Clause. U.S. Const. amend. I.
II. Standing
A
threshold
question
is
whether
the
Commonwealth has standing. Standing is a litigant’s
ticket to federal court. It is a constitutional
requirement, “limit[ing] the category of litigants
empowered to maintain a lawsuit in federal court to
seek redress for a legal wrong.” Spokeo, Inc. v.
Robins, 136 S. Ct. 1540, 1547 (2016); U.S. Const. art.
III, § 2, cl. 2. The Commonwealth contends that it is
properly before the Court because the New IFRs are
causing, or will imminently cause, direct harm to its
sovereign, quasi-sovereign and proprietary interests.
Additionally, it asserts that it has parens patriae
standing to protect the health, safety and well- being
of its residents in ensuring that they enjoy access to
healthcare services. The Defendants, on the other
hand, contend that the Commonwealth has not
suffered any legal wrong that would allow it to step
foot into federal court.
“No principle is more fundamental to the
judiciary’s proper role in our system of government
than the constitutional limitation of federal-court
jurisdiction to actual cases or controversies.” Raines
v. Byrd, 521 U.S. 811, 818 (1997). The doctrine of
standing ensures that federal judicial power is
properly limited to these cases or controversies. See

148a
Finkleman v. Nat’l Football League, 810 F.3d 187,
203 (3d Cir. 2016). Thus, if a plaintiff lacks standing,
the case must be dismissed. See id. at 195. And, as
Plaintiff, the Commonwealth has the burden of
establishing that it has standing. See Clapper v.
Amnesty Int’l USA, 568 U.S. 398, 411-12 (2013).
To do so, it must satisfy “the irreducible
constitutional minimum of standing,” which
“contains three elements.” Lujan v. Defenders of
Wildlife, 504 U.S. 555, 560 (1992). First, the
Commonwealth must have suffered an “injury in
fact,” defined as “an invasion of a legally protected
interest which is (a) concrete and particularized and
(b) actual or imminent, not conjectural or
hypothetical.” Id. (internal quotation marks and
citations omitted). Second, the Commonwealth must
show that there is a “causal connection between the
injury and the conduct complained of.” Id. That is,
the injury must be “fairly traceable” to the
“challenged action of the defendant.” Id. Third, the
Commonwealth must show that it is “likely, as
opposed to merely speculative, that the injury will be
redressed by a favorable decision.” Id. at 561
(internal quotation marks omitted). “Each element [of
standing] must be supported in the same way as any
other matter on which the plaintiff bears the burden
of proof, i.e., with the manner and degree of evidence
required at the successive stages of the litigation.” Id.
Thus, because the Commonwealth here seeks a
preliminary injunction, it must adduce evidence
demonstrating more than a mere possibility of injury
in support of standing. Doe v. Nat’l Bd. of Med.
Exam’rs, 199 F.3d 146, 152 (3d Cir. 1999).

149a
a. Special Solicitude
This standing inquiry must be made in the
context of a clear recognition that States, like the
Commonwealth here, “are not normal litigants for
the purposes of invoking federal jurisdiction.”
Massachusetts v. EPA, 549 U.S. 497, 518 (2007).
Accordingly, a State is “entitled to special solicitude
in [the] standing analysis” if it has: (1) a procedural
right that authorizes it to challenge the conduct at
issue; and, (2) a “stake in protecting its quasisovereign interests.” Massachusetts, 549 U.S. at 520;
see also Texas v. United States, 809 F.3d 134, 151
(5th Cir. 2015), aff’d by an equally divided Court, 136
S. Ct. 2271 (2016).
In determining whether the Commonwealth has
met these conditions, both Massachusetts v. EPA and
Texas v. United States are instructive. In
Massachusetts v. EPA, Massachusetts sued the
Environmental Protection Agency (EPA), alleging
that global warming was “the most pressing
environmental challenge of our time,” and that the
EPA had “abdicated its responsibility under the
Clean Air Act” when it failed to issue rules regulating
the emission of greenhouse gases coming from cars.
549 U.S. at 505. The EPA challenged Massachusetts’
standing to bring the suit because greenhouse gas
emissions are a widespread and generalized harm not
unique to any specific plaintiff. See id. at 517. The
Supreme Court nonetheless held that Massachusetts
had special solicitude in the standing inquiry to
challenge the EPA’s inaction: First, Massachusetts
had a procedural right under the relevant statute,
the Clean Air Act, which allowed it to “challenge
agency action unlawfully withheld.” Id. (citing 42

150a
U.S.C. § 7607(b)(1)). Second, Massachusetts had a
quasi-sovereign interest – a “well-founded desire to
preserve its sovereign territory” from the effects of
global warming. Id. at 519. Indeed, Massachusetts
“own[ed] a great deal of the ‘territory alleged to be
affected.’” Id.; see also id. at 522 (affidavits noting
that “rising seas have already begun to swallow
Massachusetts’ coastal land.”). After concluding that
Massachusetts was entitled to special solicitude in
the standing analysis, the Supreme Court ultimately
held that it had Article III standing to sue the EPA
based on an injury to its territory that stemmed from
global warming. See id. at 526.
In Texas v. United States, the Fifth Circuit,
relying on Massachusetts v. EPA, similarly concluded
that Texas, as a State, was entitled to special
solicitude in seeking to enjoin implementation of the
Deferred Action for Parents of Americans and Lawful
Permanent Residents program (DAPA). 809 F.3d at
154. In that case, non-citizens in Texas could apply
for
a
driver’s
license
if
they
presented
“documentation issued by the appropriate United
States agency that authorizes the applicant to be in
the United States.” See id. at 155 (quoting TEX.
TRANSP. CODE § 521.142(a)). DAPA would have
permitted at least 500,000 non-citizens to qualify for
these driver’s licenses. Id. Because Texas subsidized
its licenses, it would have lost money for each license
issued to a DAPA beneficiary. Id. Texas therefore
sought injunctive relief to prevent DAPA’s
implementation. See id. at 149.
Applying the Massachusetts v. EPA framework,
the Fifth Circuit first considered whether Texas had
a procedural right to challenge DAPA. It concluded

151a
that Texas’ use of the APA to challenge an
“affirmative decision” made by a federal agency was
similar to Massachusetts’ use of the judicial review
provision in the Clean Air Act to challenge the EPA’s
inaction. Id. at 152. Second, as to Texas’ quasisovereign interest, the Fifth Circuit held that DAPA
imposed “substantial pressure” on the State to
change its laws to avoid bearing further costs from
subsidizing additional driver’s licenses. See id. at
153. The Fifth Circuit thus concluded that Texas had
special solicitude in suing the federal government
under the APA for injunctive relief. Id. at 154-55.
On writ of certiorari, the Supreme Court
summarily affirmed the Fifth Circuit’s decision
without opinion but with a notation that the
affirmance was “by an equally divided Court.” United
States v. Texas, 136 S. Ct. 2271 (2016) (per curiam).
Notably, one question certified by the Supreme Court
included whether Texas had standing. See United
States v. Texas, 136 S. Ct. 906 (2016) (granting
petition for writ of certiorari for, among other things,
whether Texas had standing). Affirmances by an
equally divided Supreme Court typically do not
constitute binding precedent. See Eaton v. Price, 364
U.S. 263, 264 (1960). However, when the Supreme
Court is equally divided on an issue of subject matter
jurisdiction, it has determined that the proper course
is to remand the issue of jurisdiction to a lower court.
See Silliman v. Hudson River Bridge Co., 66 U.S.
582, 584-85 (1861). In other words, if the Supreme
Court were equally divided on whether Texas had
standing to enjoin DAPA, it would have remanded
that issue to the Fifth Circuit. The Supreme Court
did not and instead affirmed the Fifth Circuit. It
therefore follows logically that a majority of the

152a
Supreme Court decided that Texas had standing to
pursue its APA claim. 4
3F

There is no daylight between the 2015 Texas suit
against the federal government and the current
Commonwealth suit against the federal government.
Like Texas, the Commonwealth challenges agency
action in issuing regulations – here, the New IFRs.
See Texas, 809 F.3d at 152. It is all the more
significant that the Commonwealth, like Texas before
it, sues to halt affirmative conduct made by a federal
agency. See id. Whereas Massachusetts v. EPA
concerned regulatory inaction – the EPA’s order
denying a rulemaking petition – the Commonwealth’s
case here challenges regulatory action that, it
contends, affects its legally cognizable interests. See
549 U.S. at 514. Thus, it is especially appropriate to
accord the Commonwealth “special solicitude.” Texas,
809 F.3d at 152-53. Furthermore, like Texas and
Massachusetts, the Commonwealth seeks to protect a
quasi-sovereign interest – the health of its women
residents. See Alfred L. Snapp & Son, Inc. v. Puerto
Rico, 458 U.S. 592, 600-01 (1982) (holding that a
State has a “quasi-sovereign interest in the health
and wellbeing – both physical and economic – of its
residents in general.”). As the Commonwealth
observes, contraceptives offer significant health
benefits, including the prevention of unintended
pregnancies, and the treatment of menstrual
disorders, acne or hirsutism, and pelvic pain. This
quasi-sovereign interest in safeguarding the health
Even if the affirmance by an equally divided Supreme Court as
it relates to subject matter jurisdiction were not binding, the
Court is persuaded by the reasoning of the Fifth Circuit in
Texas v. United States as it pertains to state standing.

4

153a
and wellbeing of its women residents is inextricably
intertwined with the Commonwealth’s alleged future
fiscal injury that, as will be discussed later, goes to
the heart of its Article III standing. See Texas, 809
F.3d at 153 (concluding that DAPA affected quasisovereign interest by “imposing substantial pressure”
on Texas to change its laws to avoid losing more
money from driver license subsidies). According to
the Commonwealth (and as addressed more fully
below), the Agencies’ New IFRs will allow more
employers to exempt themselves from the ACA’s
Contraceptive
Mandate.
Consequently,
the
Commonwealth contends that Pennsylvanian women
will seek state-funded sources of contraceptive care.
Such a course of action will likely cause the
Commonwealth to expend more funds to protect its
quasi- sovereign interest in ensuring that women
residents receive adequate contraceptive care. The
Commonwealth, then, meets the two conditions
outlined in Massachusetts v. EPA and shall be
accorded special solicitude in the standing analysis.
b. Article III Standing
As previously stated, the three pillars of standing
are injury in fact, causation, and redressability.
Lujan, 504 U.S. at 560. First, an agency rule that has
“a major effect on the states’ fiscs” is sufficient to find
injury in fact. Texas, 809 F.3d at 152; id. at 155
(Texas “satisfied the first standing requirement by
demonstrating that it would incur significant costs in
issuing driver’s licenses to DAPA beneficiaries.”); see
also Wyoming v. Oklahoma, 502 U.S. 437, 448 (1992)
(holding that Wyoming had Article III standing
because it undisputedly suffered a “direct injury in
the form of a loss of specific tax revenues”); Danvers

154a
Motor Co., Inc. v. Ford Motor Co., 432 F.3d 286, 291
(3d Cir. 2005) (“While it is difficult to reduce injuryin-fact to a simple formula, economic injury is one of
its paradigmatic forms.”).
The New IFRs will likely inflict a direct injury
upon the Commonwealth by imposing substantial
financial burdens on State coffers. Specifically, the
Commonwealth will have to increase its expenditures
for State and local programs providing contraceptive
services. This is not a speculative harm. As the
Defendants themselves noted in issuing one of the
New IFRs, “there are multiple Federal, State, and
local programs that provide free or subsidized
contraceptives for low-income women.” 82 Fed. Reg.
47803. As more women residents of the
Commonwealth are deprived of contraceptive services
through their insurance plans and turn to these State
and local programs, the Commonwealth will likely
make greater expenditures to ensure adequate
contraceptive care. And although Defendants point
out that the Commonwealth has not yet identified a
woman resident of Pennsylvania who has lost
contraceptive coverage as a result of the New IFRs,
the Commonwealth need not sit idly by and wait for
fiscal harm to befall it. See McNair v. Synapse Group
Inc., 672 F.3d 213, 223 (3d Cir. 2012) (“When, as in
this case, prospective relief is sought, the plaintiff
must show that he is “likely to suffer future injury”
from the defendant’s conduct.”) (quoting City of Los
Angeles v. Lyons, 461 U.S. 95, 105 (1983)). As the
New IFRs themselves estimate, they will cause at
least 31,700 women to lose contraceptive coverage. 82
Fed. Reg. 47821.

155a
Indeed, the Commonwealth’s affidavits confirm
that its women residents will come to rely more on
State-funded sources. The Acting Executive Deputy
Secretary for the Commonwealth’s Department of
Human Services concludes that it would not be
unreasonable to expect women who do not receive
contraceptive care from their insurers to rely on
government- funded programs. See Decl. of Leesa
Allen ¶ 23 (“Allen Decl.”). The Executive Deputy
Insurance Commissioner for the Commonwealth
echoes a similar view, expecting women who lose
contraceptive coverage to seek coverage from Statefunded programs (or pay for the contraceptives
themselves). See Decl. of Seth A. Mendelsohn
(“Medelsohn Decl.”) ¶ 15. The CEO of Planned
Parenthood Southeastern Pennsylvania also expects
that, as a result of the New IFRs, many low-income
women will have to rely on government-funded
programs to obtain contraceptive care. See Decl. of
Dayle Steinberg (“Steinberg Decl.”) ¶¶ 24-25. The
Commonwealth has furthermore provided evidence
from a doctor who practices in Pennsylvania
acknowledging that she directs uninsured, lowincome women to State programs for contraceptive
services. See Tr. 177-78. At bottom, just as Texas’
estimated loss due to DAPA supported injury in fact,
so too does the Commonwealth’s estimated loss due
to the New IFRs support injury in fact. See Texas,
809 F.3d at 155.
Second, the Commonwealth’s financial injury is
“fairly traceable” to issuance of the New IFRs. By
their terms, they expand the scope of the existing
religious exemption rule as well as allow employers a
new rationale for refusing to provide employees with
contraceptive coverage if the refusal is “based on

156a
sincerely held moral convictions.” In short, the New
IFRs allow more employers to stop providing
contraceptive coverage. And as the Commonwealth’s
various affidavits show, State officials expect that
once employers take advantage of the New IFRs more
women residents will seek contraceptive care through
State-funded programs. The Commonwealth has thus
shown a causal connection between the New IFRs
and its financial injury.
Defendants, however, cite to Pennsylvania v. New
Jersey, 426 U.S. 660, 664 (1976), and argue that the
injury is not “fairly traceable” to the New IFRs
because the Commonwealth’s fiscal injury is “selfinflicted.”
According
to
Defendants,
the
Commonwealth cannot shoot itself in the foot and
then hobble into federal court by premising injury in
fact on costs that flow from elective State programs
that offer contraceptive care services to residents.
Pennsylvania v. New Jersey is distinguishable. In
that case, Pennsylvania voluntarily gave tax credits
to Pennsylvania residents who paid taxes in New
Jersey. Id. at 663. Pennsylvania proceeded to sue
New Jersey, contending that the New Jersey tax
injured Pennsylvania’s fiscs and was constitutionally
impermissible. Id. at 662. The Supreme Court found
that Pennsylvania lacked standing because the
injuries to its fiscs were “self-inflicted,” resulting, as
they did, from a decision of its state legislature. Id. at
664. Pennsylvania was not allowed to “complain
about damage inflicted by its own hand” when it
enacted a law that incorporated the legislative
choices of New Jersey. Id. The harm could have been
avoided if Pennsylvania simply changed the law so
that it no longer extended credits for taxes paid to

157a
New Jersey. See id. Here, by contrast, funding for the
Commonwealth’s programs does not explicitly
incorporate the legislative choices of the federal
government. Rather, the Commonwealth’s described
injuries flow from the unilateral decision by the
Agencies to issue the New IFRs, which will likely
cause Pennsylvanian women to seek contraceptive
care from other sources, particularly state-funded
sources. Consequently, the injunction that the
Commonwealth seeks – to enjoin that unilateral
federal agency decision – is untethered to any state
law that the Commonwealth itself has enacted. See
Texas, 809 F.3d at 158 (“The fact that Texas sued in
response to a significant change in the defendants’
policies shows that its injury is not self- inflicted.”).
Third, the Commonwealth has satisfied the
redressability
requirement.
Because
the
Commonwealth is asserting a procedural right under
the APA to protect its interests, it “can assert that
right without meeting all the normal standards for
redressability and immediacy.” See Massachusetts,
549 U.S. at 517-18. If, as here, the litigant is “vested
with a procedural right, that litigant has standing if
there is some possibility that the requested relief will
prompt the injury- causing party to reconsider the
decision that allegedly harmed the litigant.” Id. at
518. Enjoining the Agencies’ New IFRs based on APA
claims should prompt them to reconsider the
propriety of the Religious and Moral Exemptions
Rules, “which is all a plaintiff must show when
asserting a procedural right.” Texas, 809 F.3d at 161.
In sum, the Commonwealth has shown that it has

158a
standing to pursue injunctive relief through its APA
claims based on an injury to its fiscs. 5
4F

III. Legal Standard
As the Commonwealth has standing to pursue a
preliminary injunction, the next step is to determine
whether one is appropriate. A preliminary injunction
is an extraordinary remedy; it “should be granted
only in limited circumstances.” American Tel. & Tel.
Co. v. Winback & Conserve Program, Inc., 42 F.3d
1421, 1426-27 (3d Cir. 1994). “A plaintiff seeking a
preliminary injunction must establish that he is
likely to succeed on the merits, that he is likely to
suffer irreparable harm in the absence of preliminary
relief, that the balance of equities tips in his favor,
and that an injunction is in the public interest.”
Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 20
(2008).
The
“failure
to
establish
any
element . . . renders
a
preliminary
injunction
inappropriate.” NutraSweet Co. v. Vit–Mar Enters.,
Inc., 176 F.3d 151, 153 (3d Cir. 1999). The movant
bears the burden of showing that these four factors
weigh in favor of granting the injunction. See
Opticians Ass’n of Am. v. Indep. Opticians of Am.,
920 F.2d 187, 192 (3d Cir. 1990).
While the movant must show that each of these
factors weighs in favor of granting an injunction, an
injunction might be appropriate where a movant
makes a particularly strong case on some factors, but
not others. Thus, “courts must balance the competing
Because the Commonwealth has identified an imminent, direct
injury to its state coffers that result from the New IFRs, the
Court does not need to address whether it has sovereign or
parens patriae standing.

5

159a
claims of injury and must consider the effect on each
party of the granting or withholding of the requested
relief.” Reilly v. City of Harrisburg, 858 F.3d 173,
177-78 (3d Cir. 2017), as amended (June 26, 2017)
(quoting Winter, 555 U.S. at 24). “[I]n a situation
where factors of irreparable harm, interests of third
parties and public considerations strongly favor the
moving party, an injunction might be appropriate
even though plaintiffs did not demonstrate as strong
a likelihood of ultimate success as would be generally
required.” Constructors Ass’n of W. Pa. v. Kreps, 573
F.2d 811, 815 (3d Cir. 1978). In addition, the court
must weigh “[a]ll of [the four preliminary injunction]
factors . . . together in the final decision and the
strength of the plaintiff’s showing with respect to one
may affect what will suffice with respect to another.”
Marxe v. Jackson, 833 F.2d 1121, 1128 (3d Cir. 1987).
The Third Circuit recently clarified in Reilly that a
“movant for preliminary equitable relief must meet
the threshold for the first two ‘most critical’ factors [–
likelihood of success and irreparable harm]. If these
gateway factors are met, a court then considers the
remaining two factors and determines in its sound
discretion if all four factors, taken together, balance
in favor of granting the requested preliminary relief.”
Reilly, 858 F.3d at 179. “How strong a claim on the
merits is enough depends on the balance of the
harms: the more net harm an injunction can prevent,
the weaker the plaintiff’s claim on the merits can be
while still supporting some preliminary relief.” Id.
a. Likelihood of Success on the Merits
In demonstrating the likelihood of success on the
merits, a plaintiff need not show that it is more likely
than not that he will succeed. Singer Mgmt.

160a
Consultants, Inc. v. Milgram, 650 F.3d 223, 229 (3d
Cir. 2011) (en banc). Instead, a plaintiff must “show[]
a reasonable probability of success on the merits.”
American Express Travel Related Svcs., Inc. v.
Sidamon– Eristoff, 669 F.3d 359, 366 (3d Cir. 2012).
This requires a showing “significantly better than
negligible, but not necessarily more likely than not.”
Reilly, 858 F.3d at 179.
Because “courts should be extremely careful not to
issue unnecessary constitutional rulings,” American
Foreign Serv. Ass’n v. Garfinkel, 490 U.S. 153, 161
(1989) (per curiam), the Court addresses the
statutory claims at issue – that Defendants violated
the notice-and-comment procedures of the APA and
that the New IFRs are “arbitrary, capricious, or not
in accordance with law” – and finds it unnecessary, at
this juncture, to proceed to the constitutional issues.
i. Administrative Procedure Act
1. Procedural Safeguards
The APA provides any interested party the right
to participate in the rulemaking process by
submitting data, views or arguments. See 5 U.S.C. §
553. “The APA provisions reflect a judgment by
Congress that the public interest is served by a
careful and open review of proposed administrative
rules and regulations.” Phila. Citizens in Action v.
Schweiker, 669 F.2d 877, 881 (3d Cir. 1982). “Section
553 was enacted to give the public an opportunity to
participate in the rule-making process. It also
enables the agency promulgating the rule to educate
itself before establishing rules and procedures which
have a substantial impact on those regulated.”

161a
Texaco, Inc. v. Fed. Power Comm’n, 412 F.2d 740, 744
(3d Cir. 1969).
Accordingly, prior to promulgating regulations,
administrative agencies must follow a procedure
called “notice and comment rulemaking.” See 5
U.S.C. § 553. First, an agency must issue a general
notice of proposed rulemaking. See 5 U.S.C. §§ 552(b),
553(b). Then the agency must “give interested
persons an opportunity to participate in the rule
making through submission of written data, views or
arguments . . . . ” Id. § 553(c). Last, “[a]fter
consideration of the relevant matter presented, the
agency shall incorporate in the rules adopted a
concise general statement of their basis and purpose.”
Id. Defendants bypassed each of these procedures
when issuing the New IFRs.
The APA requires a court to set aside agency
action “found to be . . . without observance of
procedure required by law.” 5 U.S.C. § 706(2)(D).
Thus, if Defendants did not comply with notice and
comment provisions, the Court must preliminarily
enjoin Defendants from enforcing the New IFRs
unless there is a statutorily countenanced reason for
their non-compliance. See Minard Run Oil Co. v. U.S.
Forest Serv., 2009 WL 4937785, at *34 (W.D. Pa.
2009), aff’d, 670 F.3d 236 (3d Cir. 2011).
Although “[e]xemption from the terms of the
Administrative Procedure Act are not lightly to be
presumed . . . ,” Marcello v. Bonds, 349 U.S. 302, 310
(1955), there are limited exceptions to the
requirement that all rules must be issued pursuant
to notice-and-comment rulemaking. Defendants
contend that two of those exceptions apply here.
First, they argue that Congress expressly and

162a
impliedly authorized the Secretaries of HHS, Labor,
and the Treasury to bypass notice and comment
rulemaking with respect to the New IFRs. 5 U.S.C. §
559. Second, they argue that there is no need for
notice-and-comment rulemaking because they have
found “good cause” that the notice and comment
procedure is, in this instance, “impracticable,
unnecessary, or contrary to the public interest.” Id. §
553(b)(B).
i. Statutory Authorization to Bypass
Notice and Comment
At the outset, it should be noted that the ACA
contains no provision expressly authorizing the
Defendant Agencies or their respective Secretaries to
bypass the APA’s notice and comment requirements,
and indeed, Defendants cite none. Rather, in
justifying their sidestep of the strictures of the notice
and comment procedure, they find express and
implied authorizations for their actions through
various statutes besides the ACA. Defendants’
argument, matryoshkanesque in its construction,
proceeds as follows: In 1996, Congress passed the
Health Insurance Portability and Accountability Act
of 1996 (HIPAA), Pub. L. No. 104-191 (1996), which
regulates group health plans and some individual
health insurance policies. HIPAA amended certain
provisions of the United States Code to provide that
“[t]he [respective] Secretary may promulgate any
interim final rules as the Secretary determines are
appropriate to carry out this [chapter.]” See 29 U.S.C.
§ 1191c; 26 U.S.C. § 9833; 42 U.S.C. § 300gg-92. 6 In
5F

Specifically, HIPAA amended various portions of ERISA,
which is administered by the Secretary of Labor, the Internal
Revenue Code, which is administered by the Secretary of

6

163a
2010, Congress passed the ACA, which also amended
those same sections of the United States Code to
require health plans to cover certain preventive
women’s services. HHS interpreted the preventive
service requirement to include contraceptive services.
The requirement to provide contraceptive services
was thus codified in the chapters of the United States
Code as modified by HIPAA in 1996. Thus, according
to Defendants, HIPAA’s amendments, which permit
issuance of IFRs “appropriate to carry out this
[chapter],” also encompass authorization to issue
IFRs to carry out the ACA.
The argument is creative, but not supported by
law. As to express authorization, in order to
authorize an agency to bypass notice and comment, a
subsequent statute must be clear that it abrogates
the APA. See 5 U.S.C. § 559; Coalition for Parity, Inc.
v. Sebelius, 709 F. Supp. 2d 10, 18 (D.D.C. 2010). And
as Coalition for Parity held, the provision of HIPAA
that Defendants here rely on says nothing about
overruling the APA, let alone notice and comment
procedures. Id. HIPAA, then, does not provide
express authorization to bypass the notice and
comment requirements of the APA in this case. See
id.
As to implied authorization, the relevant standard
to determine if Congress sub silentio allowed an
agency to avoid notice and comment is “whether
Congress has established procedures so clearly
different from those required by the APA that it must
have intended to displace the norm.” Asiana Airlines
Treasury, and the Public Health Services Act, which is
administered by the Secretary of Health and Human Services.

164a
v. FAA, 134 F.3d 393, 397 (D.C. Cir. 1998).
Defendants rely on two cases, Asiana Airlines and
Methodist Hospital of Sacramento v. Shalala, 38 F.3d
1225, 1237 (D.C. Cir. 1994), for the proposition that
Congress has impliedly authorized the Agencies here
to bypass notice and comment and issue IFRs.
In both Asiana Airlines and Methodist Hospital,
the D.C. Circuit held that certain IFRs could be
issued without complying with notice and comment,
but both cases are inapposite. The statutory language
from those cases, involving respectively the Federal
Aviation Reauthorization Act and the Social Security
Amendments of 1983, expressly abrogated APA
notice and comment procedures because Congress,
through its use of the mandatory word “shall” in both
pieces of legislation, commanded the agencies to issue
interim final rules. See Asiana Airlines, 134 F.3d at
395 (“the Administrator shall publish . . . interim
final rule[s]”) (citing 49 U.S.C. § 45301(b)(2))
(emphasis added); Methodist Hosp., 38 F.3d at 1236
n.18 (“[t]he Secretary shall cause to be
published . . . a notice of the interim final DRG
prospective payment rates . . . without the necessity
for consideration of comments . . . ”) (citing 97 Stat.
168-69) (emphasis added). By contrast, the HIPAA
provision here states that a “Secretary may
promulgate any interim final rules as the Secretary
determines are appropriate . . . . ” See 29 U.S.C. §
1191c; 26 U.S.C. § 9833; 42 U.S.C. § 300gg-92
(emphasis added). The use of the term “may” is
permissive rather than mandatory. See Barlow v.
Collins, 397 U.S. 159, 165-66 (1970) (statute
authorizing Secretary of Agriculture to promulgate
regulations “as he may deem proper” does not

165a
preclude judicial review). 7 There is, accordingly, no
support in HIPAA for the Agencies’ avoidance of the
notice and comment procedure.
6F

ii. Good Cause Exception to Bypass
Notice and Comment
The second exception to notice-and-comment
rulemaking permits agencies to utilize IFRs “for good
cause.” See 5 U.S.C. § 553. More specifically, the APA
provides that notice and comment may be waived
“when the agency for good cause finds (and
incorporates the finding and a brief statement of
reasons therefor in the rules issued) that notice and
public procedure thereon are impracticable,
unnecessary, or contrary to the public interest.” Id.
The “circumstances justifying reliance on the good
cause exception are ‘indeed rare’ and will be accepted
only after the court has examined closely proffered
rationales justifying the elimination of public
procedures.” Natural Res. Def. Council, Inc. v. EPA,
683 F.2d 752, 764 (3d Cir. 1982). The Third Circuit
has cautioned that the good cause exception should
be “narrowly construed.” United States v. Reynolds,
710 F.3d 498, 507 (3d Cir. 2013) (citations omitted).
Since the APA requires agencies availing
themselves of the good cause exception to state their
“finding[s] and a brief statement of reasons” for good
cause “in the rules issued,” the Court will examine
7
Asiana Airlines and Methodist Hospital are further
distinguishable still. In both cases, Congress imposed an
expeditious timetable on the agencies in issuing the IFRs which
justified bypassing notice and comment. See Methodist Hosp., 38
F.3d at 1237; Asiana Airlines, 124 F.3d at 398. By contrast, the
supposed statutory authorization in HIPAA provides no
timetable for the Agencies to issue IFRs.

166a
the proffered “good cause” reasons as stated in the
New IFRs. See 82 Fed. Reg. at 47813-15; 82 Fed. Reg.
at 47855-59. First, the Agencies found that excessive
delay caused by notice and comment rulemaking
would be contrary to public interest. Id. Second, the
Agencies determined that the New IFRs were
important to resolve ongoing litigation and ease the
burdens imposed by them in order to prevent
“continued uncertainty, inconsistency, and cost.” Id.
Third, the Agencies determined that they had
already received significant comments in past rounds
of rulemaking as well as from the 2016 RFI, and
therefore there was no need to repeat the notice- andcomment process again. Id. These arguments are
considered seriatim.
As to their “excessive delay” justification, the
Agencies contend that, because the Accommodation
Process (in their view) violated RFRA, it was a
matter of urgency to issue the New IFRs without
going through the APA’s time-consuming notice and
comment process. 8 See id. However, urgency is not
7F

The Agencies also justify their use of IFRs rather than
regulations promulgated through APA’s proscribed procedures
by reference to their use of IFRs in three earlier updates to
regulations concerning the Women’s Health Amendment. This
fact does not, of course, warrant a conclusion that the New IFRs
were appropriately issued – the facts of one case do not
necessarily transfer wholesale to another. Defendants argue
that as the D.C. Circuit upheld the Defendants’ use of IFRs in
Priests for Life v. U.S. Dep’t of Health and Human Servs., 772
F.3d 229, 276 (D.C. Cir. 2014), vacated on other grounds, Zubik
v. Burwell, 136 S. Ct. 1557 (2016), this Court should do so here.
In that case, however, the D.C. Circuit reasoned that good cause
existed to bypass notice and comment because “the regulations
the interim final rule modifies were recently enacted pursuant
to notice and comment rulemaking, [] present virtually identical

8

167a
sufficient in the absence of a deadline imposed by
Congress, the executive, or courts. See Reynolds, 710
F.3d at 511 (“Our prior decisions have recognized
urgency alone as sufficient only when a deadline
imposed by Congress, the executive, or the judiciary
requires agency action in a timespan that is too short
to provide a notice and comment period.”). None of
the three branches of government have imposed any
urgent deadline that could support circumventing
notice and comment rulemaking. First, Congress has
not spoken on this issue. Second, far from compelling
any immediate action, President Trump’s Executive
Order 13798 merely asks the Secretaries to “consider
issuing amended regulations, consistent with
applicable law, to address conscience-based objections
to the preventive care mandate.” Executive Order
13798 § 3. Last, the Supreme Court has not imposed
any deadline or called for urgent action either. In
fact, the Supreme Court remanded the latest
challenge to the Accommodation Process to give the
parties “an opportunity to arrive at an approach
going forward.” Zubik, 136 S. Ct. at 1560. Though
Defendants cite many cases in which courts have
pressured them to resolve uncertainty regarding the
Contraceptive Mandate, none of those courts have
imposed any actual deadlines for issuing regulations.
“The desire to eliminate uncertainty, by itself,
cannot constitute good cause.” Reynolds, 710 F.3d at
issues, . . . the modifications made in the interim final rule are
minor,” and the Supreme Court “obligat[ed] [HHS] to take
action.” Id. By contrast, the issues presented in the New IFRs
are not identical to prior regulations, they make significant
changes in the law, and the Supreme Court did not require
immediate action.

168a
510. Even if it could, the Agencies’ stated need to
resolve uncertainty is undercut by the request,
contained in the New IFRs, for post-issuance
comments regarding “whether these regulations
expanding the exemption should be made permanent
or subject to modification.” See 82 Fed. Reg. at 4781415; 82 Fed. Reg. at 47855-56. The request for
comments particularly as to whether the New IFRs
should be modified “implicitly suggests that the
rule[s] will be reconsidered [and] means the level of
uncertainty is, at best, unchanged. . . . ” Reynolds,
710 F.3d at 511.
The Agencies stated in the New IFRs that the
clarity offered by the expanded exemptions will
decrease insurance costs; they hypothesize that
groups with grandfathered health plans will wish to
make changes to other components of their health
plans in order to reduce costs, while still avoiding
coverage for contraceptive services. See 82 Fed. Reg.
47815, 47856. Under the ACA, as long as
grandfathered plans do not make any changes to
their health coverage, they need not cover women’s
preventive services. However, the New IFRs do not
cite a single comment from an employer with a
grandfathered plan which suggests that they will
make changes to health plans in light of the new
agency interpretation. 9 This is merely speculation,
unsupported by the record.
8F

Indeed, a search of “grandfather” in the hundreds of thousands
of pages of the Administrative Record filed with the Court does
not reveal a single comment from a policy holder with a
grandfathered health plan who sought to change their health
coverage without risking their grandfathered status. During
Oral Argument, the Court asked Defendants to find comments

9

169a
Last, the Agencies asserted in the New IFRs that
notice and comment was unnecessary because the
Agencies considered past comments and requested
post-issuance comments. The Agencies received
multiple rounds of comments on the first set of
interim final regulations in 2010, on the interim final
regulations in 2011, on the proposed changes to the
religious employer exemption in 2012 and 2013, on
the modifications to the Accommodation Process in
2015, and on the RFI issued in July 2016. And the
Agencies received over 54,000 public comments in
response to the July 2016 RFI which sought ways to
expand the Accommodation Process.
Defendants cite no case, and research has not
disclosed any, finding that notice and comment is
unnecessary where an agency has received ample
commentary on its prior interpretations of the same
law. In fact, the significance of this issue and the
outpouring of public comments reflect the opposite:
the overwhelming public interest demonstrates that
notice and comment is critical. “The unnecessary
prong of the exception . . . ‘is confined to those
in the Administrative Record demonstrating that group health
plans with grandfathered status sought to change their health
plans without forgoing their grandfathered status. Defendants
admitted that they “have identified no particular comments.”
Tr. 206. Instead, Defendants looked outside of the
Administrative Record and cited just two cases from 2012 in
which the litigating parties wanted to retain their
grandfathered health plans without covering contraceptive
services. See Roman Catholic Archdiocese of Atlanta v. Sebelius,
No. 1:12-CV-03489-WSD (N.D. Ga. 2014); Diocese of Fort WayneS. Bend, Inc. v. Sebelius, 988 F. Supp. 2d 958 (N.D. Ind. 2013).
However, neither case shows that those entities sought to
change their coverage in order to maintain their grandfathered
status in 2017

170a
situations in which the administrative rule is a
routine determination, insignificant in nature and
impact, and inconsequential to the industry and to
the public.’” Utility Solid Waste Activities Grp. v.
EPA, 236 F.3d 749, 755 (D.C. Cir. 2001) (quoting
South Carolina v. Block, 558 F. Supp. 1004, 1016
(D.S.C. 1983)). The significance of this litigation and
the stakes involved, including hundreds of lawsuits,
and several appeals to the Supreme Court, belies the
Agencies’ purported reliance on the “unnecessary,”
good cause exception for notice and comment.
The Agencies also assert that their provision for a
post-issuance commentary period does away with the
need for pre-issuance notice and comment. They
solicited comments for 60 days following the issuance
of the New IFRs. See 82 Fed. Reg. at 47792. None of
the cases that Defendants cite support that position.
Instead, each of them stand for the proposition that
an agency may seek post-issuance commentary only
if and only after having shown that it had good cause
to avoid notice and comment rulemaking, a situation
that is not present here. 10
9F

In Petry v. Block, 737 F.2d 1193 (D.C. Cir. 1984), the D.C.
Circuit held that the Department of Agriculture had good cause
to avoid notice and comment rulemaking before it held that
remand to the agency for further proceedings was unnecessary
in light of a post-promulgation comment period. In Republic
Steel Corp v. Costle, 621 F.2d 797 (6th Cir. 1980), another case
cited by Defendants, the court countenanced post-promulgation
comments after finding good cause for avoiding notice-andcomment. Prior to Petry, the D.C. Circuit has held that
“[p]ermitting submission of views after the effective date is no
substitute for the right of interested persons to make their
views known to the agency.” State of N.J., Dep’t of Envtl. Prot. v.
U.S. Envtl. Prot. Agency, 626 F.2d 1038, 1049 (D.C. Cir. 1980).
Petry did not alter this rule
10

171a
There are several reasons why post-issuance
comments do not comply with the notice and
comment provisions of the APA. First, there is
nothing in the APA that provides for post-issuance
commentary. Second, participants are less likely to
influence agency action in later stages of the agency
decision-making process. This is especially the case
where an agency has already issued interim rules
which suggest that it has decided what federal policy
should be. Post-issuance commentary does not
ameliorate the need for notice and comment because
by the time agencies issue interim rules, they are less
likely to heed public input. See United States v.
Johnson, 632 F.3d 912, 929 (5th Cir. 2011) (“[P]arties
will have a greater opportunity for influencing
agency decision making if they participate at an early
stage.”). Last, permitting post-issuance commentary
carte blanche would write the notice and comment
requirements out of the APA. See id.; United States v.
Gould, 568 F.3d 459, 479 (4th Cir. 2009)
(“[R]equesting post-promulgation comments makes a
sham of the APA’s rulemaking procedures.”); Paulsen
v. Daniels, 413 F.3d 999, 1005 (9th Cir. 2005) (“[I]t is
antithetical to the structure and purpose of the APA
for an agency to implement a rule first, and then seek
comment later.”).
Grasping at straws, Defendants argue that even
if a single justification “standing alone” does not
constitute good cause, the “combined effect” of several
factors justified the Agencies’ reliance on the good
cause exception. An underlying assumption of this
argument is that “[e]ach of the factors” provides at
least some support for a finding that the Agencies
had good cause to dispense with notice and comment.
They do not. The three proffered factors to dispense

172a
with notice and comment offer no support. There was
no deadline, much less an urgent one, to implement
new rules. The New IFRs did not resolve any
uncertainty and, as this case demonstrates, have not
prevented ongoing litigation. And the blizzard of
prior comments that the Agencies have received in
past rounds of notice and comment rulemaking
actually demonstrates that further comments are
necessary given the public interest in this matter.
Certainly, an inquiry into whether an agency has
“properly invoked ‘good cause’ proceeds case-by-case,
sensitive to the totality of the factors at play.”
Alcaraz v. Block, 746 F.2d 593, 612 (9th Cir. 1984).
And a court may consider the “combined effect” of
multiple factors, which standing alone might not
suffice to demonstrate “good cause.” See Nat’l Women,
Infants, & Children Grocers Ass’n v. Food &
Nutrition Serv., 416 F. Supp. 2d 92, 107 (D.D.C.
2006). But Defendants’ arguments – even when
viewed in their totality – provide no support for their
proposition. 11
10F

Defendants’ failure to follow the APA’s notice and comment
procedures was also not “harmless.” “[T]he ‘utter failure’ to
comply with notice and comment cannot be considered harmless
if there is any uncertainty at all as to the effect of that failure.”
Reynolds, 710 F.3d at 11516. Rather, failure to abide by notice
and comment rulemaking will only be found harmless in
instances such as “when the administrative record demonstrates
that the conclusion reached in the administrative rule was the
only possible conclusion.” Id. at 518. This is not the case here. In
addition, the Defendant Agencies have never sought comments
on whether publicly traded companies should be allowed to opt
out of the Contraceptive Mandate for sincerely held religious
reasons, whether a “moral exemption” should apply to the
Mandate for all closely held corporations, or whether to exempt
11

173a
For the above reasons, it is likely that the
Commonwealth will succeed on its claim that the
Defendants did not follow proper procedures in
issuing the New IFRs.
2. Substantive Provision
Under the APA, an administrative rule has no
legal effect if it is “arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance with law.”
5 U.S.C. § 706(2)(A). Pursuant to this standard, it is
likely that the Commonwealth will also succeed on its
substantive challenge against the New IFRs because
they contradict the text of the statute that they
purport to interpret.
While an agency’s interpretation of a statute is
generally accorded great deference, an interpretation
that conflicts with the statute’s plain language is not.
See Chevron U.S.A., Inc. v. Natural Res. Def. Council,
Inc., 467 U.S. 837 (1984). Chevron and its progeny
dictate the appropriate framework for analyzing
whether an agency’s interpretation of a statute is
permissible. First, a court must determine whether
Chevron applies. Chevron deference is only
appropriate in situations where Congress delegated
rulemaking authority to a particular agency. See
Swallows Holding, Ltd. v. C.I.R., 515 F.3d 162, 168
(3d Cir. 2008). Next, “if the statutory language is
clear and unambiguous, our inquiry ends and the
plain meaning of the statute governs the action.” Id.
at 170. While review of an agency’s interpretation
under the “arbitrary and capricious” standard is
decidedly narrow, an agency may not exercise its
entities from additional notice requirements before opting out of
providing contraceptive coverage for their employees.

174a
authority in a manner “inconsistent with the
administrative structure that Congress enacted into
law.” Food & Drug Admin. v. Brown & Williamson
Tobacco Corp., 529 U.S. 120, 126 (2000). Last, “[i]f
the statute is ambiguous on the point, we defer at
step two to the agency’s interpretation so long as the
construction is ‘a reasonable policy choice for the
agency
to
make.’”
National
Cable
&
Telecommunications Ass’n v. Brand X Internet Servs.,
545 U.S. 967, 986 (2005) (quoting Chevron, 467 U.S.
at 845).
i. Scope of HHS’ Statutory Authority
The takeaway is that Chevron deference does not
extend to all agency action. In United States v. Mead,
the Supreme Court explained that Chevron deference
is only appropriate in situations where “Congress
would expect the agency to be able to speak with the
force of law.” 553 U.S. 218, 229 (2001). Here,
Congress delegated authority to the HRSA, a division
of HHS, to interpret the scope of “preventive care” as
defined by the ACA. The problem is that HHS, the
Department of Labor, and the Department of
Treasury have, through the New IFRs, interpreted
the statute in a manner inconsistent with its text.
It bears mentioning, at this time, the remarkable
breadth of the New IFRs. They are the proverbial
exception that swallows the rule. The New IFRs
permit various entities, on the basis of sincerely held
religious beliefs or moral convictions, to opt out of
providing contraceptive coverage – coverage that,
under the text of the ACA as interpreted by the
HRSA in August 2011, is supposedly mandatory. The
Religious Exemption Rule allows all non-profit and
for-profit entities, whether closely held or publicly

175a
traded, to deny contraceptive coverage based on
sincerely held religious beliefs. The Moral Exemption
Rule allows any non-profit or for-profit organization
that is not publicly traded to deny contraceptive
coverage for its employees for any sincerely held
moral conviction. This means that boards of closely
held corporations can vote, or their executives can
decide, to deny contraceptive coverage for the
corporation’s women employees not just for religious
reasons but also for any inchoate – albeit sincerely
held – moral reason they can articulate. Who
determines whether the expressed moral reason is
sincere or not or, for that matter, whether it falls
within the bounds of morality or is merely a
preference choice, is not found within the terms of the
Moral Exemption Rule. If one assumes that it is the
Agency Defendants – or, indeed, any agency – then
the Rule has conjured up a world where a
government entity is empowered to impose its own
version of morality on each one of us. That cannot be
right. It “run[s] afoul of this country’s vast history of
legislative protections that single out and safeguard
religious freedom but not moral philosophy.” Real
Alternatives, Inc. v. Sec’y Dep’t of Health & Human
Servs., 867 F.3d 338, 350 (3d Cir. 2017) (emphasis
added).
A simple hypothetical illustrates the insidious
effect of the Moral Exemption Rule. It would allow an
employer with a sincerely held moral conviction that
women do not have a place in the workplace to simply
stop providing contraceptive coverage. And, it may do
so in an effort to impose its normative construct
regarding a woman’s place in the world on its
workforce, confident that it would find solid support
for that decision in the Moral Exemption Rule. It is

176a
difficult to comprehend a rule that does more to
undermine the Contraceptive Mandate or that
intrudes more into the lives of women.
ii. The Text of the ACA
Before analyzing whether the Agencies had
authority to create the Moral and Religious
Exemption Rules, a brief aside to RFRA is necessary.
RFRA provides that government action cannot
“substantially burden” the exercise of religion. It
states that laws passed after 1993 are subject to
RFRA “unless such law explicitly excludes such
application. ” 42 U.S.C. § 2000bb-3(b). The ACA was
passed after 1993 and is thus subject to RFRA. 12 In
Hobby Lobby, the Supreme Court held that the ACA
does not explicitly exclude application of RFRA. See
Hobby Lobby, 134 S. Ct. at 2775 n.30. It follows that
any exception to the ACA required by RFRA is
permissible. Bearing that in mind – and putting the
issue of RFRA’s application to the New IFRs on ice
for now – the Court turns whether there is any
language in the text of the ACA itself that would
authorize the Agencies to issue the New IFRs – and
concludes that there is not.
1F

Congress created only a single exemption from the
ACA’s statutory mandate to cover women’s
preventive care and that is for “grandfathered health
plans.” 42 U.S.C. § 18011(e). “When Congress
12 Congress enacted RFRA in 1993 in response to Employment
Div., Dep’t of Human Resources of Ore. v. Smith, 494 U.S. 872
(1990), which held that “the Constitution does not require
judges to engage in a case-by-case assessment of the religious
burdens imposed by facially constitutional laws.” Gonzales v. O
Centro Espirita Beneficente Uniao do Vegetal, 546 U.S. 418, 424
(2000).

177a
provides exceptions in a statute . . . [t]he proper
inference . . . is that Congress considered the issue of
exceptions and, in the end, limited the statute to the
ones set forth.” United States v. Johnson, 529 U.S. 53,
58 (2000). Given that there is no religious or moral
exemption in the explicit text of the statute and there
is one for grandfathered health plans, it cannot be
assumed that Congress authorized the Agencies to
create any additional exemptions.
The fact that the statute does not contain
language specifically precluding the Agency
Defendants from developing exemptions does not
change this result. Even absent the maxim that the
inclusion of an exemption in a statute must be
interpreted to mean that Congress intended no
additional exemptions, “[n]ot every silence is
pregnant.” Burns v. United States, 501 U.S. 129, 136
(1991). Here, the mandatory language “shall” – found
in the ACA’s requirement that covered health plans
“shall cover . . . with respect to women, such
additional preventive care” as provided for in the
HRSA guidelines – indicates quite the opposite: no
exemptions created by HHS are permissible (unless
they are required by RFRA). “An inference drawn
from congressional silence certainly cannot be
credited when it is contrary to all other textual and
contextual evidence of congressional intent.” Id. That
conclusion carries particular weight here, because, in
2012, Congress explicitly rejected an attempt to add
to the ACA an exemption similar to the Moral and
Religious Rules. See S. Amdt. 1520, 112th Cong.
(2011-2012); see also Brown & Williamson, 529 U.S.
at 147 (rejection of an agency’s interpretation by
Congress is a factor courts consider when
determining the meaning of a statute).

178a
Nevertheless, Defendants argue that the textual
structure of the ACA permits HHS to proscribe the
“manner or reach of the coverage.” They compare two
subsections of the ACA, both of which provide for nocost preventive care and screenings. The first
concerns children, the second, women. Defendants
then focus on the language in each subsection which
authorizes the agency to issue guidelines regarding
that subsection. 13 The subsection concerning children
refers to “preventive care and screenings provided for
in the comprehensive guidelines” from the HRSA. 42
U.S.C. § 300gg-13(a)(3). In contrast, the subsection
concerning women refers to “such additional
preventive care and screenings . . . as provided for in
the comprehensive guidelines” from the HRSA. 42
U.S.C.
§
300gg-13(a)(4)
(emphasis
added).
Defendants note that the word “as” precedes the
words “provided for in the comprehensive guidelines”
in the women’s subsection, but not the children’s
subsection. Proceeding from the statutory maxim
12F

13

The full text of the two subsections are as follows:

A group health plan and a health insurance issuer offering
group or individual health insurance coverage shall, at a
minimum provide coverage for and shall not impose any cost
sharing requirements for – [the following services] . . .
(3) with respect to infants, children, and adolescents, evidenceinformed preventive care and screenings provided for in the
comprehensive guidelines supported by the Health Resources
and Services Administration;
(4) with respect to women, such additional preventive care and
screenings not described in paragraph (1) as provided for in
comprehensive guidelines supported by the Health Resources
and Services Administration for purposes of this paragraph.
42 U.S.C. § 300gg-13(a)(3)–(4) (emphasis added).

179a
that statutes should be interpreted, if possible, to
give each word operative effect, see Walters v.
Metropolitan Educ. Enter., Inc., 519 U.S. 202, 209
(1997), Defendants conclude that the inclusion of the
word “as” in the women’s subsection means that
HRSA may determine not only the services covered
by the ACA, but also the manner or reach of that
coverage.
This extrapolation from the statutory inclusion of
the word “as” must, pursuant to another principle of
statutory interpretation, be analyzed by looking to
the dictionary definition of the word. See Bonkowski
v. Oberg Indus., Inc., 787 F.3d 190, 200 (3d Cir.
2015). The term “as” in this context is “[u]sed to
indicate that something happens during the time
when something else is taking place.” As, Oxford
English Dictionary Online, June 2017. At the time
Congress passed the ACA, the HRSA had already
promulgated guidelines interpreting children’s
preventive care. The HRSA had not promulgated
such guidelines for women’s preventive care. Thus,
the ACA requires coverage “provided for” in HRSA
guidelines for children’s care and “as provided for” in
HRSA guidelines for women’s care. Giving effect to
the use of the word “as” leads to the conclusion that
the “as” is used in anticipation of HRSA issuing such
guidelines and not to the conclusion that the ACA
implicitly provides the Agencies with the authority to
create non- statutory exemptions.
In sum, the ACA contains no statutory language
allowing the Agencies to create such sweeping
exemptions to the requirements to cover “preventive
services,” which, as interpreted by those same
agencies, include mandatory no-cost coverage of

180a
contraceptive services. Nor does any rule of statutory
construction warrant these exemptions.
iii.
Religious
Restoration Act

Freedom

and

The Agency Defendants also argue that they were
compelled by RFRA to create the Religious
Exemption Rule. It should be noted at the outset that
they specifically do not propound this argument with
respect to the Moral Exemption Rule. Thus, since the
text of the statute is clear that non-statutory
exemptions are not permitted, and Defendants admit
that RFRA provides no support for it, the Moral
Exemption Rule is “arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance with law”
under the APA. 5 U.S.C. § 706(2)(A). As set forth
below, upon consideration of Defendants’ argument
regarding RFRA, the Court reaches the same
conclusion with respect to the Religious Exemption
Rule.
a. RFRA Does Not Support the
Agencies’ Interpretation
Turning now – finally – to the RFRA issue. One of
the reasons the Agencies gave for issuing the New
IFRs is that the Accommodation Process imposes a
substantial burden on the exercise of religion. The
Accommodation Process, as discussed earlier, allows
religious objectors to notify their healthcare
administrator of their religious objection, and the
administrator would then have to provide the legally
required contraceptive services directly to women
covered under the employer’s plan. The Agencies’
stated belief that the Accommodation Process now
imposes a substantial burden on the exercise of

181a
religion led them to create the broader exemptions
set forth in the New IFRs. See 82 Fed. Reg. 47800.
But their view that the Accommodation Process
imposes a substantial burden on the exercise of
religion has been specifically rejected by the Third
Circuit, which found exactly to the contrary in
Geneva Coll. v. Sec’y U.S. Dep’t of Health & Human
Servs., 778 F.3d 422, 442 (3d Cir. 2015), vacated and
remanded on other grounds sub nom. Zubik v.
Burwell, 136 S. Ct. 1557 (2016). 14 There, the Third
Circuit decisively and clearly held that the
Accommodation Process does not impose a
“substantial burden” under RFRA. And, in Real
Alternatives, it reaffirmed that the Accommodation
Process does not impose a substantial burden on
religious exercise. See 867 F.3d at 356 n.18 (“[W]e
continue to believe . . . that the regulation at
issue . . . . did not impose a substantial burden.”).
Therefore, the Agency Defendants’ interpretation of
RFRA – that issuance of the Religious Exemption
Rule is proper because the “substantial burden” that
the Accommodation Process places on a person’s
exercise of religion – is erroneous as a matter of law.
See Williams v. Meltzler, 132 F.3d 937, 946 (3d Cir.
1997) (on questions of law, administrative judgment
is subject to plenary judicial review). 15
13F

14F

14 While Zubik subsequently vacated Geneva College, it did so on
other grounds. The Supreme Court expressly stated that “the
Court does not decide whether petitioners’ religious exercise has
been substantially burdened . . . ” Zubik, 136 S. Ct. at 1561.

Although the Agencies asserted in the New IFRs that “[t]he
Departments believe that agencies charged with administering
a statute or associated regulations or guidance that imposes a
substantial burden on the exercise of religion under RFRA have
discretion in determining how to avoid the imposition of such
15

182a
Defendants make much of having issued
exemptions under prior regulations. For example, the
Original Religious Exemption allowed churches and
their integrated auxiliaries to opt out of the
Contraceptive Mandate. However, the Supreme
Court has held that exemptions like the one for
churches and their integrated auxiliaries are
required under RFRA and the First Amendment’s
free exercise protections. See Hobby Lobby, 134 S. Ct.
at 2794 & n.14 (citing cases requiring exemptions for
certain religious organizations). In Real Alternatives,
the Third Circuit confirmed that the Original
Religious Exemption was plainly required by federal
and constitutional law in holding that exemptions
and accommodations “may be extended to houses of
worship and religious denominations without
applying to all nonprofit entities in order to ‘alleviate
significant governmental interference with the ability
of religious organizations to define and carry out
burden,” 82 Fed. Reg. 47800, Defendants now suggest
otherwise.
Defendants
concede
that
the
Agencies’
interpretations of RFRA are not entitled to deference under
RFRA. See Tr. 45 (“We are not arguing that the Agencies are
entitled to Chevron deference writ large.”). In any event, the
Agencies’ opinion is foreclosed by Snoqualmie Indian Tribe v.
F.E.R.C., 545 F.3d 1207 (9th Cir. 2008), in which the Ninth
Circuit held that an agency’s interpretation of RFRA is not
accorded deference. They do argue that deference is appropriate
for the Agencies’ opinion that the Contraceptive Mandate does
not serve a compelling interest as applied to religious objectors.
However, this is beside the point because this question only
becomes relevant if a court finds, first, that a government action
imposes a substantial burden on the exercise of religion. As
noted, the Accommodation Process does not impose a
substantial burden on the exercise of religion so the Court need
not conduct the compelling state interest analysis.

183a
their religious missions.’” 867 F.3d at 352 (quoting
Corp. of Presiding Bishop of Church of Jesus Christ of
Latter-day Saints v. Amos, 483 U.S. 327 (1987). In
contrast, the New IFRs are not required under RFRA
because the Third Circuit – twice now – has
foreclosed the Agencies’ legal conclusion that the
Accommodation Process imposes a substantial
burden.
For these reasons, the Commonwealth has shown
a likelihood of success on the merits of its APA claim
that the New IFRs are arbitrary, capricious, and
contrary to established law.
b. Irreparable Harm
As explained earlier, the second factor to consider
in deciding the Commonwealth’s motion is whether it
has demonstrated that it is likely to suffer
irreparable harm in the absence of a preliminary
injunction. “Issuing a preliminary injunction based
only on a possibility of irreparable harm is
inconsistent with the characterization of injunctive
relief as ‘an extraordinary remedy’ that may be
awarded only upon a clear showing that the plaintiff
is entitled to such relief.” Winter, 555 U.S. at 21& 22
(“Our frequently reiterated standard requires
plaintiffs seeking preliminary relief to demonstrate
that irreparable injury is likely in the absence of an
injunction.”).
The Commonwealth asserts that it will suffer two
harms in the absence of an injunction: First,
significant damage to the Commonwealth’s fiscal
integrity; and second, harm to the health, safety, and
wellness of the Commonwealth’s female residents.

184a
The Commonwealth offered the testimony of
Doctors Carol Weisman, Samantha Butts, and
Cynthia Chuang, as well as several declarations and
exhibits to support its allegation of irreparable harm.
From this testimony and from other evidence and
affidavits in the record, the Court finds that it is
likely that the New IFRs will result in direct and
irreparable harm to the Commonwealth’s fiscal
integrity: The Commonwealth will become obligated
to shoulder much of the burden of providing
contraceptive services to those women who lose it
because their health plans will opt out of coverage.
See Steinberg Decl. ¶¶ 27-29; Medelsohn Decl. ¶ 15.
Such women will seek contraceptive services
elsewhere and, as Defendants noted in issuing the
New IFRs, may turn to “multiple Federal, State, and
local programs that provide free or subsidized
contraceptives for low-income women” as alternative
coverage. See 82 Fed. Reg. 47813, 47850. These
programs in the Commonwealth include Medicaid,
called “Medical Assistance,” which relies on funding
from both the State and federal governments; Family
Planning
Services
Program;
and
the
Commonwealth’s network of clinics funded under the
Title X grant program. See Allen Decl. ¶¶ 3-18;
Steinberg Decl. 16. Indeed, Dr. Chuang testified that
she counsels patients without coverage for
contraceptive services to seek coverage from
Medicaid. Tr. 177-78. As women in Pennsylvania lose
contraceptive coverage through their health
insurance plans and turn to State programs, it is
likely that the Commonwealth will bear the added
financial burden occasioned by the increase in women
who need contraceptive care coverage. See Decl. of
Seth A. Mendelsohn ¶ 15; Allen Decl. ¶ 23.

185a
Of course, “loss of money” is generally insufficient
to merit a preliminary injunction because “monetary
damages . . . are capable of ascertainment and award
at final judgment ” Instant Air Freight Co. v. C.F.
Air Freight, Inc., 882 F.2d 797, 801 (3d Cir. 1989).
Here, however, the Commonwealth will not be able to
recover any economic damages traceable to the
implementation of the New IFRs. This is because a
party – including the Commonwealth – may not seek
monetary damages from the federal government. See
5 U.S.C. § 702 (providing that the federal government
is immune from a suit for money damages).
Therefore, if the New IFRs are ultimately struck
down, the Commonwealth will be unable to recoup
the money it expends on contraceptive care in the
interim. In such circumstances, a preliminary
injunction is appropriate. See, e.g., N.J. Retail
Merchants, 669 F.3d at 388 (holding that a
preliminary injunction is appropriate where a
movant could not recover damages from a State due
to sovereign immunity).
The Commonwealth’s harm is not merely
speculative; it is actual and imminent. See Adams v.
Freedom Forge Corp., 204 F.3d 475, 488 (3d Cir.
2000). The New IFRs estimate that at least 31,700
women will lose contraceptive coverage under the
New Rules – and, as Plaintiff and amici persuasively
argue, there are reasons to believe the number is
significantly higher. See 82 Fed. Reg. 47,821. Thus,
the only serious disagreement is not whether the
Commonwealth will be harmed, but how much the
Commonwealth will be harmed. Though Defendants
argue that the Commonwealth has not identified any
individual who has lost coverage already, there is no
need to wait for the axe to fall before an injunction is

186a
appropriate, particularly where Defendants have
estimated that it is about to fall on tens of thousands
of women. 16 And the financial burden is impending.
The Commonwealth anticipates that on January 1,
2018, when open enrollment begins for health plans
regulated by ERISA, some health plans will remove
no- cost contraceptive services pursuant to the New
IFRs, and it is likely that Pennsylvanian women will
seek contraceptive services through services funded
by the State fisc.
15F

While the legal harm to the integrity of the State
fisc is important to obtain a preliminary injunction,
of parallel importance is the significant harm to the
Commonwealth’s interest in protecting the health,
safety, and well-being of its citizens. See In re
Oxycontin Antitrust Litig., 821 F. Supp. 2d 591, 601
(S.D.N.Y. 2011) (citing Alfred L. Snapp, 458 U.S. at
601-02). The potential harm faced by Pennsylvanian
women and across the nation is enormous and
irreversible. As employers take advantage of the New
IFRs, access to no-cost contraceptive services for
many women will be severely curtailed.
The Commonwealth’s concern is that absent
available cost-effective contraception, women will
either forego contraception entirely or choose cheaper
but less effective methods – individual choices which
will result in an increase in unintended pregnancies.
That, in turn, will inflict economic harm on the
Commonwealth because unintended pregnancies are
more likely to impose additional costs on
16 Since the New IFRs eliminate requirements to notify HHS of
any decision to opt out, it is nearly impossible to know whether
employers have already availed themselves of the New IFRs.

187a
Pennsylvania’s State-funded health programs. See
Steinberg Decl., ¶ 30 (discussing study finding that
68% of unplanned births are paid for by public
insurance programs, compared to only 38% of
planned births).
The record evidence in support of this position is
compelling. Contraceptives are, without question,
effective at preventing unintended pregnancies. See
Institute Report at 106. Eighty five percent of women
who do not use any form of contraceptive services and
who do not want to become pregnant, become
pregnant in one year. See id. Those women who do
use contraception are far less likely to have an
unplanned pregnancy. Id. But, even for those who do
use contraception, there is some chance of an
unplanned pregnancy higher or lower depending
upon the chosen contraceptive method. For example,
a pamphlet issued by the Centers for Disease Control
entitled “Effectiveness of Family Planning Methods”
shows there are 6 to 12 pregnancies per 100 women
who are on the contraceptive pill in any given year.
See Exh. 17. Yet, for those who have an Intrauterine
Device (“IUD”) implanted there is less than one
pregnancy per 100 women per year. Id. Thus, it is
clear that an IUD is more effective than the pill at
preventing unintended pregnancy. A reasonable
conclusion from that is women, all else being equal,
would make the contraceptive choice of an IUD
rather than the pill. But, three doctors testified that
an IUD can be cost-prohibitive for many women
because it has higher upfront costs than the
contraceptive pill. Tr. 90; 132-33; 176-78. Dr. Butts
testified that, prior to the implementation of the
ACA’s Contraceptive Mandate, it was common for her
patients not to have prescribed IUDs implanted, but

188a
since the Contraceptive Mandate, use of IUDs has
increased dramatically. Tr. 132; 153. She testified
that after the Mandate went into effect, making nocost contraception services available to all women,
the number of her patients who declined an IUD
dropped significantly. Id. Meanwhile, she recorded a
five-fold increase in the number of IUDs she inserted
in the course of her medical practice. Tr. 153.
Dr. Chuang and Dr. Weisman also testified about
a study (“MyNewOptions Study”) they and others
conducted between 2014 and 2016 of more than 900
Pennsylvanian women who were actively avoiding
pregnancy. Reviewing insurance claims data, they
found that the number of women using IUDs and
other implants – contraceptive methods that carry
the highest up-front costs but are the most effective –
doubled in two years after the Contraceptive
Mandate took effect. Tr. 178-87. Meanwhile, the
number of women who did not use contraceptive
services decreased by roughly 50% in the two years
following the Mandate’s effect. 17 Id. Doctors Chuang,
Weisman, and Butts all attributed these changes to
16F

17 Defendants cited a study from the Guttmacher Institute
which found no changes in contraceptive use patterns among
sexually active women. See Bearak, J.M. and Jones, R.K., “Did
Contraceptive Use Patterns Change after the Affordable Care
Act? A descriptive analysis,” 27 Women’s Health Issues 316
(Guttmacher Inst. May-June 2017). Unlike the MyNewOptions
Study presented by Plaintiff, the Guttmacher study used survey
data, which is less reliable than the claims data used in the
MyNewOptions study. And, unlike the MyNewOptions study,
the Guttmacher study did not focus on Pennsylvania where the
rate of unintended pregnancy is significantly greater than the
national average, and which is the focus of the preliminary
injunction.

189a
the effect of the Contraceptive Mandate, Tr. 90; 134;
187, and concluded that with the reduction in no-cost
contraceptive insurance that will result from
employer utilization of the New IFRs, more women
will lose no- cost contraceptive coverage and the cost
of their contraceptive services, to them, will rise. See
Tr. 94. Thus, women will likely forgo contraceptive
services or seek out less expensive and less effective
types of contraceptive services in the absence of nocost insurance coverage. See id.; Weisman Decl. ¶ 47;
Chuang Decl. ¶¶ 36-39. Indeed, women cite cost as a
significant factor in determining whether to purchase
contraceptive services and which contraceptive
services to use. See Adam Sonfield, What is at Stake
with the Federal Contraceptive Coverage Guarantee?
20 Guttmacher Policy Review 8, 9 (2017).
The real life consequences, as amici point out, are
significant: roughly 41% of unintended pregnancies
in America are caused by inconsistent use of
contraceptives. 18 These problems are particularly
17F

The Contraceptive Mandate also affects women’s health in
other contexts as well. The Institute’s Report, which
recommended no-cost contraceptive coverage under the ACA,
explained that contraceptive services are used to treat
menstrual disorders, acne, hirsutism, and pelvic pain, in
addition to assisting family planning and birth spacing. See
Institute Report at 107. Contraceptive services are essential for
women who face high-risk pregnancies or those for whom
pregnancy may lead to significant complications. Even a short
period of interrupted coverage will lead to irreparable harm
because, as the Institute Report notes, women face severe
complications, including death, from high-risk pregnancy. Dr.
Butts also testified that decreased access to contraceptives will
“increase pain and suffering for women who have [disorders
such as pelvic pain and other medical conditions] . . . and to the
extent that some of those unintended pregnancies are in women
18

190a
acute in Pennsylvania, where the rate of unintended
pregnancy is 53%, significantly higher than the
national average. Tr. 152. The negative effects of
even a short period of decreased access to no-cost
contraceptive services are irreversible.
c. Balance of the Equities
The third factor that the Commonwealth must
show is that the balance of the equities tips in favor
of granting a preliminary injunction. “Balancing the
equities” is jurisprudential “jargon for choosing
between conflicting public interests.” Youngstown
Sheet & Tube Co. v. Sawyer, 343 U.S. 579, 609 (1943)
(Frankfurter, J., concurring). Here, Congress has
already struck the balance: Its passage of the
Women’s Health Amendment was to bridge the
significant gender gap in healthcare costs between
men and women. Senator Feinstein explained that
“[w]omen of childbearing age spend 68 percent more
in out-of-pocket health care costs than men.” 155
Cong. Rec. 29302. And part of this problem stems
from unintended pregnancies – an issue faced only by
women. Senator Durbin explained that the purpose of
the Women’s Health Amendment was to “expand
health insurance coverage to the vast majority of [the
17 million women of reproductive age in the United
States who are uninsured and] . . . reduce unintended
pregnancies.” Id. at 26768. Where, as here, “Congress
itself has struck the balance, has defined the weight
to be given the competing interests, a court of equity
is not justified in ignoring that pronouncement under
with very serious medical disorders for whom pregnancy may be
contraindicated [it] can increase risks in a life-threatening way.”
Tr. 140.

191a
the guise of exercising equitable
Youngstown Sheet, 343 U.S. at 609-10.

discretion.”

Here, given the Commonwealth’s clear interest in
securing the health and well-being of its women
residents and containing its costs for contraceptive
services, the balance of the equities heavily weighs in
its favor. Defendants’ assertion that there is
“inherent harm to an agency in preventing it from
implementing regulations that Congress found to be
in the public interest to direct that agency to develop”
does not change that balance. Defendants will not be
prejudiced by a preliminary injunction. If the New
IFRs were issued in violation of applicable law, they
will have suffered no harm. If Defendants ultimately
prevail, then a preliminary injunction will have
merely delayed their preferred regulatory outcome.
d. Public Interest
When considering the public interest, a court is
limited to evaluating “how such interest and
conveniences are affected by the selection of an
injunction over other enforcement mechanisms.”
United States v. Oakland Cannabis Buyers’ Co-op.,
532 U.S. 483, 498 (2001). Here, a preliminary
injunction is unquestionably in the public interest
because it maintains the status quo pending the
outcome of a trial on the merits. The New IFRs
permit any entity to opt out of coverage within 30 to
60 days’ notice to plan members. A trial on the merits
will not conclude in that short span. A preliminary
injunction will maintain the status quo: those with
exemptions or accommodations prior to October 6,
2017 will maintain their status, those with
injunctions
preventing
enforcement
of
the
Contraceptive
Mandate
will
maintain
their

192a
injunctions, but those with coverage will maintain
their coverage as well.
IV. Conclusion
Plaintiff, the Commonwealth of Pennsylvania, has
demonstrated that it has met all four factors
necessary to obtain a preliminary injunction. In this
case, the Commonwealth is likely to succeed on the
merits of its two APA claims; the Commonwealth is
likely to suffer serious and irreparable harm in the
absence of a preliminary injunction; the balance of
the equities tips in favor of granting an injunction,
and the public interest favors granting it as well.
After weighing these four factors, as stated above, the
Court concludes that a preliminary injunction is
warranted. The Commonwealth’s Motion for
Preliminary Injunction will be granted and
Defendants shall be enjoined from enforcing the New
IFRs.
An appropriate order follows.
BY THE COURT:
/s/Wendy Beetlestone, J.
WENDY BEETLESTONE, J.
December 15, 2017

193a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
COMMONWEALTH OF
PENNSYLVANIA,
Plaintiff,
v.
DONALD J. TRUMP,
DONALD J. WRIGHT,
UNITED STATES
DEPARTMENT OF HEALTH
AND HUMAN SERVICES,
STEVEN T. MNUCHIN,
DEPARTMENT OF THE
TREASURY, RENE
ALEXANDER ACOSTA AND
THE UNITED STATES
DEPARTMENT OF LABOR,

CIVIL ACTION
NO. 17-4540

Defendants.
ORDER
AND NOW, this 15th day of December, 2017,
upon consideration of the Commonwealth of
Pennsylvania’s Motion for a Preliminary Injunction
(ECF No. 9), Defendants’ Response thereto (ECF No.
15), Plaintiff’s Reply in Support thereof (ECF No. 30),
the Administrative Record (ECF Nos. 23 & 47), Briefs
of the Amici Curiae (ECF Nos. 34, 35 & 36), and
following a Hearing on Plaintiff’s Motion on
December 14, 2017, IT IS HEREBY ORDERED
that the Motion is GRANTED.

194a
It is FURTHER ORDERED that Defendants
Eric D. Hargan, as Acting Secretary of the United
States Department of Health and Human Services
(substituted pursuant to Rule 25(d) of the Federal
Rules of Civil Procedure); the United States
Department of Health and Human Services; Steven
T. Mnuchin, as Secretary of the United States
Department of Treasury; the United States
Department of Treasury, Rene Alexander Acosta, as
Secretary of the United States Department of Labor;
and the United States Department of Labor;1 and
their officers, agents, servants, employees, attorneys,
designees, and subordinates, as well as any person
acting in concert or participation with them, are
hereby ENJOINED from enforcing the following
Interim Final Rules pending further order of this
Court:
1. Religious Exemptions and Accommodations
for Coverage of Certain Preventive Services
Under the Affordable Care Act described at
82 Fed. Reg. 47792; and
2. Moral Exemptions and Accommodations for
Coverage of Certain Preventive Services
Under the Affordable Care Act described at
82 Fed. Reg. 47838.
The Court has considered the issue of security
pursuant to Rule 65(c) of the Federal Rules of Civil
Procedure and determines that Defendants will not
suffer any financial loss that warrants the need for
In light of the constitutional concerns associated with enjoining
the President of the United States for a claim under the
Administrative Procedure Act, this injunction does not apply to
the President. See Franklin v. Massachusetts, 505 U.S. 788, 801
(1992).

1

195a
the Plaintiff to post security. After considering the
facts and circumstances of this case, the Court finds
that security is unnecessary and exercises its
discretion not to require the posting of security in this
situation.
BY THE COURT:
/s/Wendy Beetlestone, J.
WENDY BEETLESTONE, J.

196a
APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT
OF PENNSYLVANIA
COMMONWEALTH OF
PENNSYLVANIA AND
STATE OF NEW JERSEY,
Plaintiffs,

CIVIL ACTION
NO. 17-4540

v.
DONALD J. TRUMP, PRESIDENT OF THE UNITED
STATES, ALEX M. AZAR II,
UNITED STATES DEPARTMENT OF HEALTH AND HUMAN SERVICES, STEVEN T.
MNUCHIN, UNITED STATES
DEPARTMENT OF THE
TREASURY, PATRICK PIZZELLA, THE UNITED
STATES DEPARTMENT OF
LABOR, AND THE UNITED
STATES OF AMERICA,
Defendants,
LITTLE SISTERS OF THE
POOR SAINTS PETER AND
PAUL HOME,
Defendant-Intervenor.

FILED
JUL 30, 2019
Kate Barkman,
Clerk

197a
ORDER
AND NOW, this 30th day of July, 2019,
WHEREAS on October 6, 2017, Defendants promulgated two Interim Final Rules, referred to as the Religious Exemption IFR, see Religious Exemptions and
Accommodations for Coverage of Certain Preventive
Services Under the Affordable Care Act, 82 Fed. Reg.
47,792 (Oct. 13, 2017), and the Moral Exemption IFR,
see Moral Exemptions and Accommodations for Coverage of Certain Preventive Services Under the Affordable Care Act, 82 Fed. Reg. 47,838 (Oct. 13, 2017)
(“Moral Exemption IFR”) (collectively, “the IFRs”);
WHEREAS on October, 11, 2017, the Commonwealth of Pennsylvania initiated this suit seeking to
enjoin enforcement of the IFRs, arguing the IFRs:
(1) failed to comply with the notice-and-comment procedures required by the Administrative Procedure Act
(“APA”), 5 U.S.C. § 551, et seq.; (2) were “arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law” in violation of the substantive provisions of the APA, 5 U.S.C. § 706(2)(A); (3) violated
Title VII of the Civil Rights Act, 42 U.S.C. § 2000e-2,
et seq.; (4) violated the Equal Protection Guarantee of
the Fifth Amendment, U.S. Const. amend. V; and, (5)
violated the Establishment Clause, U.S. Const.
amend. I;
WHEREAS on December 15, 2017, this Court
granted the motion for a preliminary injunction, finding the Commonwealth was likely to succeed on its
claims that the IFRs violated both the procedural and
substantive strictures of the APA; it did not, however,

198a
reach the merits of the other statutory or constitutional claims, see Pennsylvania v. Trump, 281 F.
Supp.3d 553 (E.D. Pa. 2017) (hereinafter “Trump I”);
WHEREAS on November 15, 2018, while their appeal of the preliminary injunction was pending before
the Third Circuit, the Agencies promulgated two new
rules that “finalize[ d]” the IFRs, see Religious Exemptions and Accommodations/or Coverage o/Certain
Preventive Services Under the Affordable Care Act, 83
Fed. Reg. 57,536 (Nov. 15, 2018) (“Final Religious Exemption”); Moral Exemptions and Accommodations/or Coverage of Certain Preventive Services Under the Affordable Care Act, 83 Fed. Reg. 57,592
(Nov. 15, 2018) (“Final Moral Exemption”) (collectively
“the Final Rules”);
WHEREAS on December 14, 2019, the Commonwealth-now joined by New Jersey (collectively “the
States”)—filed an Amended Complaint and a Second
Motion for a Preliminary Injunction, seeking to enjoin
enforcement of the Final Rules, arguing the Final
Rules: (1) failed to comply with the notice-and-comment procedures required by the APA; (2) were “arbitrary, capricious, an abuse of discretion, or otherwise
not in accordance with law” in violation of the substantive provisions of the APA; (3) violated Title VII of the
Civil Rights Act; (4) violated the Equal Protection
Guarantee of the Fifth Amendment; and, (5) violated
the Establishment Clause;
WHEREAS on January 14, 2019, this Court
granted the second motion for a nationwide preliminary injunction, finding the States were likely to succeed on their claims that the Final Rules violated both
the procedural and substantive strictures of the APA;
again, however, the Court did not reach the merits of

199a
the other statutory or constitutional claims, see Pennsylvania v. Trump, 351 F. Supp.3d 791 (E.D. Pa. 2017)
(hereinafter “Trump II”);
WHEREAS on March 28, 2019, Defendants filed a
Motion to Dismiss the Amended Complaint (ECF No.
157), and, on March 29, 2019, Defendant-Intervenor
filed a Motion to Dismiss the Amended Complaint
(ECF No. 159);
WHEREAS on May 15, 2019, the States filed a Motion for Summary Judgment (ECF No. 170), asking the
Court to vacate the Final Rules on the grounds that
they: (1) failed to comply with the notice-and-comment
procedures required by the APA; (2) were “arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law” in violation of the substantive
provisions of the APA; (3) violated Title VII of the Civil
Rights Act; (4) violated the Equal Protection Guarantee of the Fifth Amendment; and, (5) violated the Establishment Clause;
WHEREAS on June 14, 2019, Defendants and Defendant-Intervenor filed cross-motions for summary
judgment (ECF Nos. 205 & 206);
WHEREAS on July 12, 2019, the Third Circuit issued an opinion affirming the nationwide injunction
issued by the Court in Trump II on the grounds that
the States were likely to succeed on their claims that
the Final Rules violated both the procedural and substantive requirements of the APA, see Pennsylvania v.
President United States, 2019 WL 3057657 (3d Cir.
July 12, 2019) (hereinafter “Trump III”);
WHEREAS on July 23, 2019, the Court held a conference call with the parties regarding case management in light of the Third Circuit’s decision in

200a
Trump Ill, during which Defendants and DefendantIntervenor represented that they intend to seek further appellate review of the Third Circuit’s decision;
WHEREAS on July 25, 2019, the parties submitted letters to the Court regarding case management,
in which:
• Defendants sought entry of final judgment as to
the procedural and substantive APA claims pursuant to Fed. R. Civ. P. 54, and dismissal of the
remaining statutory and constitutional claims
as moot; or, in the alternative a stay of further
proceedings (ECF No. 230);
• The States sought resolution of all outstanding
statutory and constitutional claims, as well as
alternative arguments made in support of the
procedural and substantive APA claims, which
were not explicitly addressed in Trump II or
Trump III (ECF No. 231);
WHEREAS enforcement of the Final Rules has
been enjoined nationwide for violations of the procedural and substantive requirements of the APA, rendering it unnecessary to reach the States’ alternative
claims and arguments at this juncture;
WHEREAS further appellate review may impact
the posture and resolution of the outstanding claims
and issues raised by the parties in the pending motions to dismiss and motions for summary judgment,
making resolution of those motions at present an inefficient use of judicial resources, see Dietz v. Bouldin,
136 S. Ct. 1885, 1892 (2016) (“[D]istrict courts have
the inherent authority to manage their dockets and
courtrooms with a view toward the efficient and expe-

201a
dient resolution of cases.”); see also Smith v. Manasquan Bank, 2018 WL 2958664, at *1 (D.N.J. June
13, 2018) (“The power to stay a proceeding pending appeal is derived from the inherent power of a court to
efficiently manage its own docket.”);
IT IS HEREBY ORDERED that further proceedings in this matter are STAYED, and the parties’
pending motions to dismiss and motions for summary
judgment (ECF Nos. 157, 159, 205, 206) are HELD IN
ABEYANCE, pending resolution of any appeal of the
Third Circuit’s decision in Trump III by Defendants
and Defendant-Intervenor. The stay does not affect
the nationwide injunction issued in Trump II, and affirmed in Trump III, which remains in effect.
IT IS FURTHER ORDERED that the parties
shall submit a joint status report to the Court on
OCTOBER 25, 2019, and every NINETY DAYS
thereafter.
BY THE COURT:
/s/ Wendy Beetlestone
WENDY BEETLESTONE, J.
ENT’D JUL 31 2019

202a
APPENDIX G
RELEVANT STATUTORY PROVISIONS
42 U.S.C. § 2000bb-1 provides:
§ 2000bb-1. Free exercise of religion protected
(a) In general
Government shall not substantially burden a person’s
exercise of religion even if the burden results from a
rule of general applicability, except as provided in
subsection (b) of this section.
(b) Exception
Government may substantially burden a person’s
exercise of religion only if it demonstrates that
application of the burden to the person—
(1) is in furtherance of a compelling governmental
interest; and
(2) is the least restrictive means of furthering that
compelling governmental interest.
(c) Judicial relief
A person whose religious exercise has been burdened
in violation of this section may assert that violation as
a claim or defense in a judicial proceeding and obtain
appropriate relief against a government. Standing to
assert a claim or defense under this section shall be
governed by the general rules of standing under article
III of the Constitution.

203a
42 U.S.C. § 300gg-13(a)(4) provides:
§ 300gg-13.
services

Coverage

of

preventive

health

(a) In general
A group health plan and a health insurances issuer
offering group or individual health insurance coverage
shall, at a minimum provide coverage for and shall not
impose any cost sharing requirements for—
*
*
*
(4) with respect to women, such additional preventive
care and screenings not described in paragraph (1) as
provided for in comprehensive guidelines supported by
the Health Resources and Services Administration for
purposes of this paragraph.
*

*

*

204a
29 U.S.C. § 1185d provides:
§ 1185d. Additional market reforms
(a) General rule
Except as provided in subsection (b)—
(1) the provisions of part A of title XXVII of the Public
Health Service Act (as amended by the Patient
Protection and Affordable Care Act) shall apply to
group health plans, and health insurance issuers
providing health insurance coverage in connection
with group health plans, as if included in this subpart;
and
(2) to the extent that any provision of this part
conflicts with a provision of such part A with respect
to group health plans, or health insurance issuers
providing health insurance coverage in connection
with group health plans, the provisions of such part A
shall apply.
(b) Exception
Notwithstanding subsection (a), the provisions of
sections 2716 and 2718 of title XXVII of the Public
Health Service Act (as amended by the Patient
Protection and Affordable Care Act) shall not apply
with respect to self-insured group health plans, and
the provisions of this part shall continue to apply to
such plans as if such sections of the Public Health
Service Act (as so amended) had not been enacted.

205a
26 U.S.C. § 4980D provides:
§ 4980D. Failure to meet certain group health
plan requirements
(a) General rule.—There is hereby imposed a tax on
any failure of a group health plan to meet the
requirements of chapter 100 (relating to group health
plan requirements).
(b) Amount of tax.—
(1) In general.—The amount of the tax imposed by
subsection (a) on any failure shall be $100 for each day
in the noncompliance period with respect to each
individual to whom such failure relates.
(2) Noncompliance period.—For purposes of this
section, the term “noncompliance period” means, with
respect to any failure, the period—
(A) beginning on the date such failure first occurs, and
(B) ending on the date such failure is corrected.
(3) Minimum tax for noncompliance period where
failure discovered after notice of examination.—
Notwithstanding paragraphs (1) and (2) of subsection
(c)—
(A) In general.—In the case of 1 or more failures with
respect to an individual—
(i) which are not corrected before the date a notice of
examination of income tax liability is sent to the
employer, and
(ii) which occurred or continued during the period
under examination, the amount of tax imposed by
subsection (a) by reason of such failures with respect
to such individual shall not be less than the lesser of

206a
$2,500 or the amount of tax which would be imposed
by subsection (a) without regard to such paragraphs.
(B) Higher minimum tax where violations are more
than de minimis.—To the extent violations for which
any person is liable under subsection (e) for any year
are more than de minimis, subparagraph (A) shall be
applied by substituting “$15,000” for “$2,500” with
respect to such person.
(C) Exception for church plans.—This paragraph shall
not apply to any failure under a church plan (as
defined in section 414(e)).
(c) Limitations on amount of tax.—
(1) Tax not to apply where failure not discovered
exercising reasonable diligence.—No tax shall be
imposed by subsection (a) on any failure during any
period for which it is established to the satisfaction of
the Secretary that the person otherwise liable for such
tax did not know, and exercising reasonable diligence
would not have known, that such failure existed.
(2) Tax not to apply to failures corrected within certain
periods.—No tax shall be imposed by subsection (a) on
any failure if—
(A) such failure was due to reasonable cause and not
to willful neglect, and
(B) (i) in the case of a plan other than a church plan
(as defined in section 414(e)), such failure is corrected
during the 30-day period beginning on the first date
the person otherwise liable for such tax knew, or
exercising reasonable diligence would have known,
that such failure existed, and
(ii) in the case of a church plan (as so defined), such
failure is corrected before the close of the correction

207a
period (determined under the rules of section
414(e)(4)(C)).
(3) Overall limitation for unintentional failures.— In
the case of failures which are due to reasonable cause
and not to willful neglect—
(A) Single employer plans.—
(i) In general.—In the case of failures with respect to
plans other than specified multiple employer health
plans, the tax imposed by subsection (a) for failures
during the taxable year of the employer shall not
exceed the amount equal to the lesser of—
(I) 10 percent of the aggregate amount paid or
incurred by the employer (or predecessor employer)
during the preceding taxable year for group health
plans, or
(II) $500,000.
(ii) Taxable years in the case of certain controlled
groups.—For purposes of this subparagraph, if not all
persons who are treated as a single employer for
purposes of this section have the same taxable year,
the taxable years taken into account shall be
determined under principles similar to the principles
of section 1561.
(B) Specified multiple employer health plans.—
(i) In general.—In the case of failures with respect to
a specified multiple employer health plan, the tax
imposed by subsection (a) for failures during the
taxable year of the trust forming part of such plan
shall not exceed the amount equal to the lesser of—
(I) 10 percent of the amount paid or incurred by such
trust during such taxable year to provide medical care

208a
(as defined in section 9832(d)(3)) directly or through
insurance, reimbursement, or otherwise, or
(II) $500,000.
For purposes of the preceding sentence, all plans of
which the same trust forms a part shall be treated as
one plan.
(ii) Special rule for employers required to pay tax.—If
an employer is assessed a tax imposed by subsection
(a) by reason of a failure with respect to a specified
multiple employer health plan, the limit shall be
determined under subparagraph (A) (and not under
this subparagraph) and as if such plan were not a
specified multiple employer health plan.
(4) Waiver by Secretary.—In the case of a failure
which is due to reasonable cause and not to willful
neglect, the Secretary may waive part or all of the tax
imposed by subsection (a) to the extent that the
payment of such tax would be excessive relative to the
failure involved.
(d) Tax not to apply to certain insured small employer
plans.—
(1) In general.—In the case of a group health plan of a
small employer which provides health insurance
coverage solely through a contract with a health
insurance issuer, no tax shall be imposed by this
section on the employer on any failure (other than a
failure attributable to section 9811) which is solely
because of the health insurance coverage offered by
such issuer.
(2) Small employer.—
(A) In general.—For purposes of paragraph (1), the
term “small employer” means, with respect to a

209a
calendar year and a plan year, an employer who
employed an average of at least 2 but not more than
50 employees on business days during the preceding
calendar year and who employs at least 2 employees
on the first day of the plan year. For purposes of the
preceding sentence, all persons treated as a single
employer under subsection (b), (c), (m), or (o) of section
414 shall be treated as one employer.
(B) Employers not in existence in preceding year.—In
the case of an employer which was not in existence
throughout the preceding calendar year, the
determination of whether such employer is a small
employer shall be based on the average number of
employees that it is reasonably expected such
employer will employ on business days in the current
calendar year.
(C) Predecessors.—Any reference in this paragraph to
an employer shall include a reference to any
predecessor of such employer.
(3) Health insurance coverage; health insurance
issuer.—For purposes of paragraph (1), the terms
“health insurance coverage” and “health insurance
issuer” have the respective meanings given such terms
by section 9832.
(e) Liability for tax.—The following shall be liable for
the tax imposed by subsection (a) on a failure:
(1) Except as otherwise provided in this subsection,
the employer.
(2) In the case of a multiemployer plan, the plan.
(3) In the case of a failure under section 9803 (relating
to guaranteed renewability) with respect to a plan
described in subsection (f)(2)(B), the plan.

210a
(f) Definitions.—For purposes of this section—
(1) Group health plan.—The term “group health plan”
has the meaning given such term by section 9832(a).
(2) Specified multiple employer health plan.—The
term “specified multiple employer health plan” means
a group health plan which is—
(A) any multiemployer plan, or
(B) any multiple employer welfare arrangement (as
defined in section 3(40) of the Employee Retirement
Income Security Act of 1974, as in effect on the date of
the enactment of this section).
(3) Correction.—A failure of a group health plan shall
be treated as corrected if—
(A) such failure is retroactively undone to the extent
possible, and
(B) the person to whom the failure relates is placed in
a financial position which is as good as such person
would have been in had such failure not occurred.

211a
26 U.S.C. § 4980H provides:
§ 4980H. Shared responsibility for employers
regarding health coverage.
(a) Large employers not offering health coverage
If—
(1) any applicable large employer fails to offer to its
full-time employees (and their dependents) the
opportunity to enroll in minimum essential coverage
under an eligible employer-sponsored plan (as defined
in section 5000A(f)(2)) for any month, and
(2) at least one full-time employee of the applicable
large employer has been certified to the employer
under section 1411 of the Patient Protection and
Affordable Care Act as having enrolled for such month
in a qualified health plan with respect to which an
applicable premium tax credit or cost-sharing
reduction is allowed or paid with respect to the
employee, then there is hereby imposed on the
employer an assessable payment equal to the product
of the applicable payment amount and the number of
individuals employed by the employer as full-time
employees during such month.
(b) Large employers offering coverage with employees
who qualify for premium tax credits or cost-sharing
reductions
(1) In general
If—
(A) an applicable large employer offers to its full-time
employees (and their dependents) the opportunity to
enroll in minimum essential coverage under an

212a
eligible employer-sponsored plan (as defined in section
5000A(f)(2)) for any month, and
(B) 1 or more full-time employees of the applicable
large employer has been certified to the employer
under section 1411 of the Patient Protection and
Affordable Care Act as having enrolled for such month
in a qualified health plan with respect to which an
applicable premium tax credit or cost-sharing
reduction is allowed or paid with respect to the
employee, then there is hereby imposed on the
employer an assessable payment equal to the product
of the number of full-time employees of the applicable
large employer described in subparagraph (B) for such
month and an amount equal to 1/12 of $3,000.
(2) Overall limitation
The aggregate amount of tax determined under
paragraph (1) with respect to all employees of an
applicable large employer for any month shall not
exceed the product of the applicable payment amount
and the number of individuals employed by the
employer as full-time employees during such month.
(c) Definitions and special rules
For purposes of this section—
(1) Applicable payment amount.
The term “applicable payment amount” means, with
respect to any month, 1/12 of $2,000.
(2) Applicable large employer
(A) In general
The term “applicable large employer” means, with
respect to a calendar year, an employer who employed

213a
an average of at least 50 full-time employees on
business days during the preceding calendar year.
(B) Exemption for certain employers
(i) In general.
An employer shall not be considered to employ more
than 50 full-time employees if—
(I) the employer’s workforce exceeds 50 full-time
employees for 120 days or fewer during the calendar
year, and
(II) the employees in excess of 50 employed during
such 120-day period were seasonal workers.
(ii) Definition of seasonal workers
The term “seasonal worker” means a worker who
performs labor or services on a seasonal basis as
defined by the Secretary of Labor, including workers
covered by section 500.20(s)(1) of title 29, Code of
Federal Regulations and retail workers employed
exclusively during holiday seasons.
(C) Rules for determining employer size
For purposes of this paragraph—
(i) Application of aggregation rule for employers
All persons treated as a single employer under
subsection (b), (c), (m), or (o) of section 414 of the
Internal Revenue Code of 1986 shall be treated as 1
employer.
(ii) Employers not in existence in preceding year
In the case of an employer which was not in existence
throughout the preceding calendar year, the
determination of whether such employer is an
applicable large employer shall be based on the

214a
average number of employees that it is reasonably
expected such employer will employ on business days
in the current calendar year.
(iii) Predecessors
Any reference in this subsection to an employer shall
include a reference to any predecessor of such
employer.
(D) Application
penalties

of

employer

size

to

assessable

(i) In general
The number of individuals employed by an applicable
large employer as full- time employees during any
month shall be reduced by 30 solely for purposes of
calculating—
(I) the assessable payment under subsection (a), or
(II) the overall limitation under subsection (b)(2).
(ii) Aggregation
In the case of persons treated as 1 employer under
subparagraph (C)(i), only 1 reduction under subclause
(I) or (II) shall be allowed with respect to such persons
and such reduction shall be allocated among such
persons ratably on the basis of the number of full-time
employees employed by each such person.
(E) Full-time
employees

equivalents

treated

as

full-time

Solely for purposes of determining whether an
employer is an applicable large employer under this
paragraph, an employer shall, in addition to the
number of full-time employees for any month
otherwise determined, include for such month a

215a
number of full-time employees determined by dividing
the aggregate number of hours of service of employees
who are not full-time employees for the month by 120.
(F) Exemption for health coverage under TRICARE or
the Department of Veterans Affairs.—-Solely for
purposes of determining whether an employer is an
applicable large employer under this paragraph for
any month, an individual shall not be taken into
account as an employee for such month if such
individual has medical coverage for such month
under—
(i) chapter 55 of title 10, United States Code, including
coverage under the TRICARE program, or
(ii) under a health care program under chapter 17 or
18 of title 38, United States Code, as determined by
the Secretary of Veterans Affairs, in coordination with
the Secretary of Health and Human Services and the
Secretary.
(3) Applicable premium tax credit and cost-sharing
reduction.
The term “applicable premium tax credit and costsharing reduction” means—
(A) any premium tax credit allowed under section 36B,
(B) any cost-sharing reduction under section 1402 of
the Patient Protection and Affordable Care Act, and
(C) any advance payment of such credit or reduction
under section 1412 of such Act.
(4) Full-time employee
(A) In general

216a
The term “full-time employee” means, with respect to
any month, an employee who is employed on average
at least 30 hours of service per week.
(B) Hours of service
The Secretary, in consultation with the Secretary of
Labor, shall prescribe such regulations, rules, and
guidance as may be necessary to determine the hours
of service of an employee, including rules for the
application of this paragraph to employees who are not
compensated on an hourly basis.
(5) Inflation adjustment
(A) In general
In the case of any calendar year after 2014, each of the
dollar amounts in subsection (b) and paragraph (1)
shall be increased by an amount equal to the product
of—
(i) such dollar amount, and
(ii) the premium adjustment percentage (as defined in
section 1302(c)(4) of the Patient Protection and
Affordable Care Act) for the calendar year.
(B) Rounding
If the amount of any increase under subparagraph (A)
is not a multiple of $10, such increase shall be rounded
to the next lowest multiple of $10.
(6) Other definitions
Any term used in this section which is also used in the
Patient Protection and Affordable Care Act shall have
the same meaning as when used in such Act.

217a
(7) Tax nondeductible
For denial of deduction for the tax imposed by this
section, see section 275(a)(6).
(d) Administration and procedure
(1) In general
Any assessable payment provided by this section shall
be paid upon notice and demand by the Secretary, and
shall be assessed and collected in the same manner as
an assessable penalty under subchapter B of chapter
68.
(2) Time for payment
The Secretary may provide for the payment of any
assessable payment provided by this section on an
annual, monthly, or other periodic basis as the
Secretary may prescribe.
(3) Coordination with credits, etc.
The Secretary shall prescribe rules, regulations, or
guidance for the repayment of any assessable payment
(including interest) if such payment is based on the
allowance or payment of an applicable premium tax
credit or cost- sharing reduction with respect to an
employee, such allowance or payment is subsequently
disallowed, and the assessable payment would not
have been required to be made but for such allowance
or payment.

218a
26 U.S.C. § 5000A provides:
§ 5000A. Requirement to maintain minimum
essential coverage
(a) Requirement to maintain minimum essential
coverage
An applicable individual shall for each month
beginning after 2013 ensure that the individual, and
any dependent of the individual who is an applicable
individual, is covered under minimum essential
coverage for such month.
(b) Shared responsibility payment
(1) In general
If a taxpayer who is an applicable individual, or an
applicable individual for whom the taxpayer is liable
under paragraph (3), fails to meet the requirement of
subsection (a) for 1 or more months, then, except as
provided in subsection (e), there is hereby imposed on
the taxpayer a penalty with respect to such failures in
the amount determined under subsection (c).
(2) Inclusion with return
Any penalty imposed by this section with respect to
any month shall be included with a taxpayer’s return
under chapter 1 for the taxable year which includes
such month.
(3) Payment of penalty
If an individual with respect to whom a penalty is
imposed by this section for any month—
(A) is a dependent (as defined in section 152) of
another taxpayer for the other taxpayer’s taxable year

219a
including such month, such other taxpayer shall be
liable for such penalty, or
(B) files a joint return for the taxable year including
such month, such individual and the spouse of such
individual shall be jointly liable for such penalty.
(c) Amount of penalty
(1) In general
The amount of the penalty imposed by this section on
any taxpayer for any taxable year with respect to
failures described in subsection (b)(1) shall be equal to
the lesser of—
(A) the sum of the monthly penalty amounts
determined under paragraph (2) for months in the
taxable year during which 1 or more such failures
occurred, or
(B) an amount equal to the national average premium
for qualified health plans which have a bronze level of
coverage, provide coverage for the applicable family
size involved, and are offered through Exchanges for
plan years beginning in the calendar year with or
within which the taxable year ends.
(2) Monthly penalty amounts
For purposes of paragraph (1)(A), the monthly penalty
amount with respect to any taxpayer for any month
during which any failure described in subsection (b)(1)
occurred is an amount equal to 1/12 of the greater of
the following amounts:
(A) Flat dollar amount
An amount equal to the lesser of—

220a
(i) the sum of the applicable dollar amounts for all
individuals with respect to whom such failure occurred
during such month, or
(ii) 300 percent of the applicable dollar amount
(determined without regard to paragraph (3)(C)) for
the calendar year with or within which the taxable
year ends.
(B) Percentage of income
An amount equal to the following percentage of the
excess of the taxpayer’s household income for the
taxable year over the amount of gross income specified
in section 6012(a)(1) with respect to the taxpayer for
the taxable year:
(i) 1.0 percent for taxable years beginning in 2014.
(ii) 2.0 percent for taxable years beginning in 2015.
(iii) Zero percent for taxable years beginning after
2015.
(3) Applicable dollar amount
For purposes of paragraph (1)—
(A) In general
Except as provided in subparagraphs (B) and (C), the
applicable dollar amount is $0.
(B) Phase in
The applicable dollar amount is $95 for 2014 and $325
for 2015.
(C) Special rule for individuals under age 18
If an applicable individual has not attained the age of
18 as of the beginning of a month, the applicable dollar
amount with respect to such individual for the month

221a
shall be equal to one-half of the applicable dollar
amount for the calendar year in which the month
occurs.
(4) Terms relating to income and families
For purposes of this section—
(A) Family size
The family size involved with respect to any taxpayer
shall be equal to the number of individuals for whom
the taxpayer is allowed a deduction under section 151
(relating to allowance of deduction for personal
exemptions) for the taxable year.
(B) Household income
The term “household income” means, with respect to
any taxpayer for any taxable year, an amount equal to
the sum of—
(i) the modified adjusted gross income of the taxpayer,
plus
(ii) the aggregate modified adjusted gross incomes of
all other individuals who—
(I) were taken into account in determining the
taxpayer’s family size under paragraph (1), and
(II) were required to file a return of tax imposed by
section 1 for the taxable year.
(C) Modified adjusted gross income
The term “modified adjusted gross income” means
adjusted gross income increased by—
(i) any amount excluded from gross income under
section 911, and

222a
(ii) any amount of interest received or accrued by the
taxpayer during the taxable year which is exempt from
tax.
(d) Applicable individual
For purposes of this section—
(1) In general
The term “applicable individual” means, with respect
to any month, an individual other than an individual
described in paragraph (2), (3), or (4).
(2) Religious exemptions
(A) Religious conscience exemptions
(i) In general
Such term shall not include any individual for any
month if such individual has in effect an exemption
under section 1311(d)(4)(H) of the Patient Protection
and Affordable Care Act which certifies that—
(I) such individual is a member of a recognized
religious sect or division thereof which is described in
section 1402(g)(1), and is adherent of established
tenets or teachings of such sect or division as described
in such section; or
(II) such individual is a member of a religious sect or
division thereof which is not described in section
1402(g)(1), who relies solely on a religious method of
healing, and for whom the acceptance of medical
health services would be inconsistent with the
religious beliefs of the individual.

223a
(ii) Special rules
(I) Medical health services defined
For purposes of this subparagraph, the term “medical
health services” does not include routine dental, vision
and
hearing
services,
midwifery
services,
vaccinations, necessary medical services provided to
children, services required by law or by a third party,
and such other services as the Secretary of Health and
Human Services may provide in implementing section
1311(d)(4)(H) of the Patient Protection and Affordable
Care Act.
(II) Attestation required
Clause (i)(II) shall apply to an individual for months
in a taxable year only if the information provided by
the individual under section 1411(b)(5)(A) of such Act
includes an attestation that the individual has not
received medical health services during the preceding
taxable year.
(B) Health care sharing ministry
(i) In general
Such term shall not include any individual for any
month if such individual is a member of a health care
sharing ministry for the month.
(ii) Health care sharing ministry
The term “health care sharing ministry” means an
organization—
(I) which is described in section 501(c)(3) and is
exempt from taxation under section 501(a),
(II) members of which share a common set of ethical or
religious beliefs and share medical expenses among

224a
members in accordance with those beliefs and without
regard to the State in which a member resides or is
employed,
(III) members of which retain membership even after
they develop a medical condition,
(IV) which (or a predecessor of which) has been in
existence at all times since December 31, 1999, and
medical expenses of its members have been shared
continuously and without interruption since at least
December 31, 1999, and
(V) which conducts an annual audit which is
performed by an independent certified public
accounting firm in accordance with generally accepted
accounting principles and which is made available to
the public upon request.
(3) Individuals not lawfully present
Such term shall not include an individual for any
month if for the month the individual is not a citizen
or national of the United States or an alien lawfully
present in the United States.
(4) Incarcerated individuals
Such term shall not include an individual for any
month if for the month the individual is incarcerated,
other than incarceration pending the disposition of
charges.
(e) Exemptions
No penalty shall be imposed under subsection (a) with
respect to—
(1) Individuals who cannot afford coverage

225a
(A) In general
Any applicable individual for any month if the
applicable
individual’s
required
contribution
(determined on an annual basis) for coverage for the
month exceeds 8 percent of such individual’s
household income for the taxable year described in
section 1412(b)(1)(B) of the Patient Protection and
Affordable Care Act. For purposes of applying this
subparagraph, the taxpayer’s household income shall
be increased by any exclusion from gross income for
any portion of the required contribution made through
a salary reduction arrangement.
(B) Required contribution
For purposes of this paragraph, the term “required
contribution” means—
(i) in the case of an individual eligible to purchase
minimum essential coverage consisting of coverage
through an eligible-employer-sponsored plan, the
portion of the annual premium which would be paid by
the individual (without regard to whether paid
through salary reduction or otherwise) for self-only
coverage, or
(ii) in the case of an individual eligible only to
purchase minimum essential coverage described in
subsection (f)(1)(C), the annual premium for the
lowest cost bronze plan available in the individual
market through the Exchange in the State in the
rating area in which the individual resides (without
regard to whether the individual purchased a qualified
health plan through the Exchange), reduced by the
amount of the credit allowable under section 36B for
the taxable year (determined as if the individual was

226a
covered by a qualified health plan offered through the
Exchange for the entire taxable year).
(C) Special rules for individuals related to employees
For purposes of subparagraph (B)(i), if an applicable
individual is eligible for minimum essential coverage
through an employer by reason of a relationship to an
employee, the determination under subparagraph (A)
shall be made by reference to1 required contribution
of the employee.
(D) Indexing
In the case of plan years beginning in any calendar
year after 2014, subparagraph (A) shall be applied by
substituting for “8 percent” the percentage the
Secretary of Health and Human Services determines
reflects the excess of the rate of premium growth
between the preceding calendar year and 2013 over
the rate of income growth for such period.
(2) Taxpayers with income below filing threshold
Any applicable individual for any month during a
calendar year if the individual’s household income for
the taxable year described in section 1412(b)(1)(B) of
the Patient Protection and Affordable Care Act is less
than the amount of gross income specified in section
6012(a)(1) with respect to the taxpayer.
(3) Members of Indian tribes
Any applicable individual for any month during which
the individual is a member of an Indian tribe (as
defined in section 45A(c)(6)).
(4) Months during short coverage gaps

227a
(A) In general
Any month the last day of which occurred during a
period in which the applicable individual was not
covered by minimum essential coverage for a
continuous period of less than 3 months.
(B) Special rules
For purposes of applying this paragraph—
(i) the length of a continuous period shall be
determined without regard to the calendar years in
which months in such period occur,
(ii) if a continuous period is greater than the period
allowed under subparagraph (A), no exception shall be
provided under this paragraph for any month in the
period, and
(iii) if there is more than 1 continuous period described
in subparagraph (A) covering months in a calendar
year, the exception provided by this paragraph shall
only apply to months in the first of such periods.
The Secretary shall prescribe rules for the collection of
the penalty imposed by this section in cases where
continuous periods include months in more than 1
taxable year.
(5) Hardships
Any applicable individual who for any month is
determined by the Secretary of Health and Human
Services under section 1311(d)(4)(H) to have suffered
a hardship with respect to the capability to obtain
coverage under a qualified health plan.
(f) Minimum essential coverage
For purposes of this section—

228a
(1) In general
The term “minimum essential coverage” means any of
the following:
(A) Government sponsored programs
Coverage under—
(i) the Medicare program under part A of title XVIII of
the Social Security Act,
(ii) the Medicaid program under title XIX of the Social
Security Act,
(iii) the CHIP program under title XXI of the Social
Security Act or under a qualified CHIP look-alike
program (as defined in section 2107(g) of the Social
Security Act),
(iv) medical coverage under chapter 55 of title 10,
United States Code, including coverage under the
TRICARE program;
(v) a health care program under chapter 17 or 18 of
title 38, United States Code, as determined by the
Secretary of Veterans Affairs, in coordination with the
Secretary of Health and Human Services and the
Secretary,
(vi) a health plan under section 2504(e) of title 22,
United States Code (relating to Peace Corps
volunteers);2 or
(vii) the Nonappropriated Fund Health Benefits
Program of the Department of Defense, established
under section 349 of the National Defense
Authorization Act for Fiscal Year 1995 (Public Law
103-337; 10 U.S.C. 1587 note).

229a
(B) Employer-sponsored plan
Coverage under an eligible employer-sponsored plan.
(C) Plans in the individual market
Coverage under a health plan offered in the individual
market within a State.
(D) Grandfathered health plan
Coverage under a grandfathered health plan.
(E) Other coverage
Such other health benefits coverage, such as a State
health benefits risk pool, as the Secretary of Health
and Human Services, in coordination with the
Secretary, recognizes for purposes of this subsection.
(2) Eligible employer-sponsored plan
The term “eligible employer-sponsored plan” means,
with respect to any employee, a group health plan or
group health insurance coverage offered by an
employer to the employee which is—
(A) a governmental plan (within the meaning of
section 2791(d)(8) of the Public Health Service Act), or
(B) any other plan or coverage offered in the small or
large group market within a State.
Such term shall include a grandfathered health plan
described in paragraph (1)(D) offered in a group
market.
(3) Excepted benefits
essential coverage

not

treated

as

minimum

The term “minimum essential coverage” shall not
include health insurance coverage which consists of
coverage of excepted benefits—

230a
(A) described in paragraph (1) of subsection (c) of
section 2791 of the Public Health Service Act; or
(B) described in paragraph (2), (3), or (4) of such
subsection if the benefits are provided under a
separate policy, certificate, or contract of insurance.
(4) Individuals residing outside United States or
residents of territories
Any applicable individual shall be treated as having
minimum essential coverage for any month—
(A) if such month occurs during any period described
in subparagraph (A) or (B) of section 911(d)(1) which
is applicable to the individual, or
(B) if such individual is a bona fide resident of any
possession of the United States (as determined under
section 937(a)) for such month.
(5) Insurance-related terms
Any term used in this section which is also used in title
I of the Patient Protection and Affordable Care Act
shall have the same meaning as when used in such
title.
(g) Administration and procedure
(1) In general
The penalty provided by this section shall be paid upon
notice and demand by the Secretary, and except as
provided in paragraph (2), shall be assessed and
collected in the same manner as an assessable penalty
under subchapter B of chapter 68.
(2) Special rules
Notwithstanding any other provision of law—

231a
(A) Waiver of criminal penalties
In the case of any failure by a taxpayer to timely pay
any penalty imposed by this section, such taxpayer
shall not be subject to any criminal prosecution or
penalty with respect to such failure.
(B) Limitations on liens and levies
The Secretary shall not—
(i) file notice of lien with respect to any property of a
taxpayer by reason of any failure to pay the penalty
imposed by this section, or
(ii) levy on any such property with respect to such
failure.

232a
45 C.F.R. § 147.132 provides:
§ 147.132. Religious exemptions in connection
with coverage of certain preventive health
services.
(a) Objecting entities. (1) Guidelines issued under
§ 147.130(a)(1)(iv) by the Health Resources and
Services Administration must not provide for or
support the requirement of coverage or payments for
contraceptive services with respect to a group health
plan established or maintained by an objecting
organization, or health insurance coverage offered or
arranged by an objecting organization, to the extent
of the objections specified below. Thus the Health
Resources and Service Administration will exempt
from any guidelines’ requirements that relate to the
provision of contraceptive services:
(i) A group health plan and health insurance
coverage provided in connection with a group health
plan to the extent the non-governmental plan sponsor
objects as specified in paragraph (a)(2) of this section.
Such non-governmental plan sponsors include, but
are not limited to, the following entities—
(A) A church, an integrated auxiliary of a church, a
convention or association of churches, or a religious
order.
(B) A nonprofit organization.
(C) A closely held for-profit entity.
(D) A for-profit entity that is not closely held.
(E) Any other non-governmental employer.
(ii) A group health plan, and health insurance
coverage provided in connection with a group health

233a
plan, where the plan or coverage is established or
maintained by a church, an integrated auxiliary of a
church, a convention or association of churches, a
religious order, a nonprofit organization, or other
non-governmental organization or association, to the
extent the plan sponsor responsible for establishing
and/or maintaining the plan objects as specified in
paragraph (a)(2) of this section. The exemption in
this paragraph applies to each employer,
organization, or plan sponsor that adopts the plan;
(iii) An institution of higher education as defined in
20 U.S.C. 1002, which is non-governmental, in its
arrangement of student health insurance coverage, to
the extent that institution objects as specified in
paragraph (a)(2) of this section. In the case of student
health insurance coverage, this section is applicable
in a manner comparable to its applicability to group
health insurance coverage provided in connection
with a group health plan established or maintained
by a plan sponsor that is an employer, and references
to “plan participants and beneficiaries” will be
interpreted as references to student enrollees and
their covered dependents; and
(iv) A health insurance issuer offering group or
individual insurance coverage to the extent the issuer
objects as specified in paragraph (a)(2) of this section.
Where a health insurance issuer providing group
health insurance coverage is exempt under this
subparagraph (iv), the group health plan established
or maintained by the plan sponsor with which the
health insurance issuer contracts remains subject to
any
requirement
to
provide
coverage
for
contraceptive services under Guidelines issued under

234a
§ 147.130(a)(1)(iv) unless it is also exempt from that
requirement.
(2) The exemption of this paragraph (a) will apply to
the extent that an entity described in paragraph
(a)(1) of this section objects, based on its sincerely
held religious beliefs, to its establishing, maintaining,
providing, offering, or arranging for (as applicable):
(i) Coverage or payments
contraceptive services; or

for

some

or

all

(ii) A plan, issuer, or third party administrator that
provides or arranges such coverage or payments.
(b) Objecting individuals. Guidelines issued under
§ 147.130(a)(1)(iv) by the Health Resources and
Services Administration must not provide for or
support the requirement of coverage or payments for
contraceptive services with respect to individuals
who object as specified in this paragraph (b), and
nothing in § 147.130(a)(1)(iv), 26 CFR 54.9815–2713
(a)(1)(iv), or 29 CFR 2590.715–2713(a)(1)(iv) may be
construed to prevent a willing health insurance
issuer offering group or individual health insurance
coverage, and as applicable, a willing plan sponsor of
a group health plan, from offering a separate policy,
certificate or contract of insurance or a separate
group health plan or benefit package option, to any
group health plan sponsor (with respect to an
individual) or individual, as applicable, who objects to
coverage or payments for some or all contraceptive
services based on sincerely held religious beliefs.
Under this exemption, if an individual objects to
some but not all contraceptive services, but the
issuer, and as applicable, plan sponsor, are willing to
provide the plan sponsor or individual, as applicable,

235a
with a separate policy, certificate or contract of
insurance or a separate group health plan or benefit
package option that omits all contraceptives, and the
individual agrees, then the exemption applies as if
the individual objects to all contraceptive services.
(c) Definition. For the purposes of this section,
reference to “contraceptive” services, benefits, or
coverage includes contraceptive or sterilization items,
procedures, or services, or related patient education
or counseling, to the extent specified for purposes of
§ 147.130(a)(1)(iv).
(d) Severability. Any provision of this section held to
be invalid or unenforceable by its terms, or as applied
to any person or circumstance, shall be construed so
as to continue to give maximum effect to the
provision permitted by law, unless such holding shall
be one of utter invalidity or unenforceability, in
which event the provision shall be severable from
this section and shall not affect the remainder thereof
or the application of the provision to persons not
similarly situated or to dissimilar circumstances.

